APPENDIX TO PETITION

PAGE
Opinion
Supreme Court of the Virgin Islands
entered June 3, 2019 . . . . . . . . . . . . . . . . . . . 1a
Dissenting Opinion . . . . . . . . . . . . . . . . . . . 87a
Judgment
Supreme Court of the Virgin Islands
entered June 3, 2019 . . . . . . . . . . . . . . . . . 139a

Opinion
Superior Court of the Virgin Islands
entered January 24, 2018 . . . . . . . . . . . . . 142a
Statutory Provisions at Issue . . . . . . . . . . . . . 164a
48 U.S.C. § 1561 . . . . . . . . . . . . . . . . . . . . 164a
48 U.S.C. § 1613 . . . . . . . . . . . . . . . . . . . . 164a

1a
For Publication
IN THE SUPREME COURT
OF THE VIRGIN ISLANDS
FREDERIC J. BALBONI,
JR.,
Appellant/Plaintiff,
v.
RANGER AMERICAN OF
THE V.I.,INC. and EMICA
KING,
Appellees/Defendants.

)
)
)
)
)
)
)
)
)
)
)

S. Ct. Civ. No.
2018-0022
Re: Super. Ct.
Civ. No.
366/2014 (STT)

On Appeal from the Superior Court
of the Virgin Islands
Division of St. Thomas & St. John
Superior Court Judge: Hon. Denise M. Francois
Argued: April 10, 2018
Filed: June 3, 2019
Cite as 2019 VI 17
BEFORE: RHYS S. HODGE, Chief Justice; MARIA
M. CABRET, Associate Justice; and IVE
ARLINGTON SWAN, Associate Justice.
APPEARANCES:
Robert L. King, Esq.,
The King Law Firm, P.C.,
St. Thomas, U.S.V.I.,

2a
Justin E. King, Esq. (Argued),
Coffey Burlington, P.L.,
Miami, FL
Attorneys for Appellant,
Adam G. Christian, Esq. (Argued),
Ogletree, Deakins, Nash, Smoak & Stewart, LLC,
St. Thomas, U.S.V.I.
Daryl C. Barnes, Esq.,
Paul R. Neil, Esq.,
Barnes & Neil, LLP,
St. Croix, U.S.V.I.,
Attorneys for Appellees,
Ian S. A. Clement, Esq. (Argued),
Assistant Attorney General,
St. Thomas, U.S.V.I.,
Attorney for the Government of the Virgin Islands,
Henry L. Feuerzeig, Esq.,
Lisa M. Kömives, Esq.,
Dudley, Topper & Feuerzeig, LLP,
St. Thomas, U.S.V.I.,
Attorneys for Amicus Curiae Lloyd’s America, Inc.
OPINION OF THE COURT
HODGE, Chief Justice.
¶1
The Superior Court, in a February 21, 2018
order, certified several issues addressed in a prior
January 24, 2018 opinion and order for immediate
appellate review pursuant to the procedure set forth in
title 4, section 33(c) of the Virgin Islands Code. For the
following reasons, we reverse.

3a
I. BACKGROUND
¶2 Frederic J. Balboni, Jr., was struck by an
automobile driven by Emica King and owned by
Ranger American of the Virgin Islands, Inc. (“Ranger
American”) while visiting the Virgin Islands. Balboni
sued Ranger American and King in the Superior Court
of the Virgin Islands. Balboni maintains that as a
result of the incident “[h]e has suffered and endured
hospitalizations and repeat surgeries, skin grafts, and
many rounds of physical therapy,” as well as “a brain
injury,” and that “[t]he pain and suffering he has
endured is unimaginable.”1(Appellant’s Br. 5.)
¶3 Prior to trial, Balboni filed a “Motion to Determine
20 V.I.C. § 555 Unconstitutional,” which Ranger
American and King opposed. Section 555 provides, in
its entirety, that
(a) The total amount recoverable for
non-economic damages for any injury to a
person in an action arising out of a motor
vehicle accident may not exceed $100,000;
provided, however, that this limitation shall not
apply upon a finding of gross negligence or
willful conduct.
(b)
1

For

the

purposes

of

this

section,

Because this case comes to us by way of an interlocutory
appeal, Balboni’s claims have not yet been adjudicated, including
those pertaining to the extent of his injuries. Nevertheless, we
treat these facts and circumstances as true “solely for the
purposes of this appeal by permission.” Edward v. GEC, LLC, 67
V.I. 745, 753 (V.I. 2017) (citing Banks v. Int’l Rental & Leasing
Corp., 55 V.I. 967, 972-73 (V.I. 2011)).

4a
non-economic damages include:
(1) pain and suffering;
(2) physical impairment;
(3) disfigurement; and
(4) other not-pecuniary damages recoverable
under the tort laws of this Territory.
20 V.I.C. § 555. Specifically, Balboni argued that this
statute is unconstitutional under the Fifth, Seventh,
and Fourteenth Amendments of the United States
Constitution, as well as the equal protection and due
process clauses of section 3 of the Revised Organic Act
of 1954 (hereafter the “Virgin Islands Bill of Rights”).
¶4 The Superior Court adjudicated Balboni’s motion in
a January 24, 2018 opinion and order. First, the
Superior Court held that the motion was ripe for
adjudication even though trial had not yet occurred,
since Balboni “is making a facial constitutional
challenge” for which “fact-finding is not necessary,”
and deferring a decision until after trial “would
potentially cause hardship on the parties” since
“[k]nowing that one possibly cannot collect more than
$100,000 in noneconomic damages changes a party’s
trial approach.” (J.A. 7-8.) With respect to the merits,
the Superior Court denied the motion after
determining that section 555 did not violate any of the
federal constitutional provisions cited by Balboni.
However, the Superior Court did not expressly
consider Balboni’s argument that section 555 violated
the equal protection and due process clauses of the
Virgin Islands Bill of Rights.

5a
¶5 On February 5, 2018, Balboni filed a motion for the
Superior Court to amend its January 24, 2018 opinion
to certify the issues for immediate interlocutory appeal
pursuant to title 4, section 33(c) of the Virgin Islands
Code. The Superior Court granted the motion in a
February 21, 2018 order, and certified the following
four questions for review by this Court:
Whether 20 V.I.C. § 555 impermissibly
invades into the province of the jury in violation
of the Seventh Amendment;
Whether treating automobile accident
victims differently based upon the severity of
their noneconomic injuries violates the equal
protection clause of the Fourteenth Amendment;
Whether treating automobile accident
victims and their injuries differently from
victims of other types of accidents violates the
equal protection clause of the Fourteenth
Amendment;
Whether § 555 unconstitutionally infringes
on Due Process rights provided for in the Fifth
and Fourteenth Amendments made applicable
through the Revised Organic Act of 1954,
including the substantive due process rights not
to be deprived arbitrarily of life, liberty or
property.
(J.A. 19.) Balboni timely filed a petition for permission
to appeal with this Court on March 2, 2018, and this
Court, in a March 9, 2018 order, granted the petition
and set this matter for expedited review with respect
to the four questions certified by the Superior Court.

6a
II. DISCUSSION
A. Jurisdiction and Standard of Review
¶6 “Whenever [a] Superior Court judge, in making a
civil action or order not otherwise appealable ... is of
the opinion that the order involves a controlling
question of law as to which there is a substantial
ground for difference of opinion and that an immediate
appeal from the order may materially advance the
ultimate termination of litigation, the judge shall so
state in the order”2 and “[t]he Supreme Court of the
2

At oral argument, a question was raised as to whether the
instant appeal satisfies the statutory requirement that an
immediate appeal “materially advance the ultimate termination
of litigation,” 4 V.I.C. § 33(c), given that this matter has not yet
been tried and it is therefore possible that the non-economic
damage cap may never be an issue, such as if the jury enters
judgment in favor of Ranger American, or awards non-economic
damages in an amount less than the $100,000 cap. In its January
24, 2018 opinion, the Superior Court held that Balboni’s
constitutional challenge to 20 V.I.C. § 555 was ripe for
adjudication before trial because Balboni brought a facial
challenge for which factual findings were not required, and
failing to address the constitutionality of section 555 prior to trial
“would potentially cause hardship on the parties” since
“[k]nowing that one possibly cannot collect more than $100,000
in non-economic damages changes a party’s trial approach.” (J.A.
7-8.)We agree with the Superior Court. The Legislature modelled
[sic] 4 V.I.C. § 33(c) after 28 U.S.C. § 1292(b), which contains
virtually identical language, including the requirement that an
immediate appeal may materially advance the ultimate
termination of the litigation. As such, federal case law
interpreting the federal statute on which our local statute has
been based, while not binding, is highly persuasive. See Fontaine
v. People, 56 V.I. 660, 671 n.4 (V.I. 2012). While certification for
immediate appeal of issues pertaining to damages prior to trial is
rare, courts have held that an interlocutory appeal by permission

7a
Virgin Islands may thereupon, in its discretion, permit
an appeal to be taken from the order, if application is
made to it within ten days after entry of the order.” 4
V.I.C. § 33(c). Since the Superior Court made such a
certification in its February 21, 2018 order, and
Balboni timely filed his petition on March 2, 2018, this
Court possesses jurisdiction over this appeal by
permission, based on this Court’s March 9, 2018 order
granting the petition. Island Tile & Marble, LLC v.
Bertrand, 57 V.I. 596, 607 (V.I. 2012).
¶7 This Court exercises plenary review of the Superior
Court’s application of law, including constitutional
questions. Allen v. HOVENSA, L.L.C., 59 V.I. 430, 436
(V.I. 2013) (citing St. Thomas–St. John Bd. of Elections
v. Daniel, 49 V.I. 322, 329 (V.I. 2007)).
B. The Virgin Islands Bill of Rights
¶8 In his appellate brief, Balboni contends that the cap
on non-economic damages codified in 20 V.I.C. § 555
will satisfy the material advancement requirement if a final
resolution on the certified question would result in cost savings
for the parties or facilitate settlement. See Christian v. United
States, 44 Fed. Appx. 958, 959 (Fed. Cir. 2002) (permitting appeal
by permission when accepting the appeal “may materially
advance the case by saving costs and preserving resources during
the damages determination”); S.E.C. v. Mercury Interactive, LLC,
2011 WL 1335733, at *3 (N.D. Cal. Apr. 7, 2011) (unpublished)
(allowing appeal when resolution of a damages issue through
interlocutory appeal “would have a significant effect on the trial
of this action, and perhaps upon the parties’ efforts to reach
settlement”). Therefore, we decline to revisit or reconsider our
earlier decision to accept this interlocutory appeal, particularly
when the parties have gone through the expense of full briefing
and oral argument.

8a
invades the province of the jury in violation of the
Seventh Amendment, violates the equal protection
clause of the Fourteenth Amendment, and violates the
due process rights guaranteed by the Fifth and
Fourteenth Amendments. Those provisions are made
applicable to the Virgin Islands pursuant to the last
paragraph of the Virgin Islands Bill of Rights.3
However, as in his motion before the Superior Court,
in his appellate brief Balboni does not limit his
arguments solely to the United States Constitution.
Rather, Balboni also maintains that section 555 is
invalid pursuant to the first sentence of the Virgin
Islands Bill of Rights, which provides as follows:
No law shall be enacted in the Virgin Islands
which shall deprive any person of life, liberty, or
property without due process of law or deny to
any person therein equal protection of the laws.
48 U.S.C. § 1561.4 Balboni cites to numerous decisions
3

“The following provisions of and amendments to the
Constitution of the United States are hereby extended to the
Virgin Islands to the extent that they have not been previously
extended to that territory and shall have the same force and
effect there as in the United States or in any State of the United
States: article I, section 9, clauses 2 and 3; article IV, section 1
and section 2, clause 1; article VI, clause 3; the first to ninth
amendments inclusive; the thirteenth amendment; the second
sentence of section 1 of the fourteenth amendment; and the
fifteenth and nineteenth amendments.” 48 U.S.C. § 1561.
4

Balboni has not waived these claims under Rule 22(m) of the
Virgin Islands Rules of Appellate Procedure. In addition to
specifically raising this argument in the first substantive
paragraph of his brief, the portion of Balboni’s brief relating to
equal protection is titled “The Non-Economic Damages Cap

9a
of state courts of last resort that have held that
limitations on non-economic damages are invalid
under various provisions of their state constitutions,5
including state equal protection and due process
clauses.6
Violates Equal Protection Under the Fourteenth Amendment and
the Revised Organic Act,” Appellant’s Br. 17 (emphasis added),
and cites to numerous cases that analyze the validity of damage
caps under equal protection provisions of state constitutions. In
fact, the number of non-federal cases cited in Balboni’s brief
outnumbers the number of federal cases cited almost 2:1.But
perhaps most importantly, it is well-established that it is the
content and substance of an argument, rather than its form or
title, that is controlling. See, e.g., Island Tile & Marble, LLC v.
Bertrand, 57 V.I. 596, 611-12 (V.I. 2012). That Balboni has not
framed his argument in the manner preferred by the dissent does
not negate the fact that Balboni has, in fact, made the argument.
See Hughley v. Gov’t of the V.I., 61 V.I. 323, 333 (V.I. 2014)
(holding that a litigant need not use “magic words” when the
intent is otherwise apparent from the face of the filing).
5

The dissent concludes that Balboni has waived this
argument because he argues in his brief that the applicable
standard of review is strict scrutiny rather than the heightened
rational basis review that we ultimately adopt. However, we can
find no case in which a court has ever held that a litigant has
waived an argument by advocating for a higher standard of
review than is ultimately applied by the court. On the contrary,
this Court has reached the merits in similar circumstances where
the appellant invoked the incorrect legal standard or relied on an
incorrect provision of law. See, e.g., Simmonds v. People, 59 V.I.
480, 493 (V.I. 2013); Phillips v. People, 51 V.I. 258, 273 (V.I.
2009).
6

See, e.g., Sofie v. Fibreboard Corp., 771 P.2d 711, 712 (Wash.
1989); Atl. Ocoluplastic Surgery, P.C. v. Nestlehutt, 691 S.E.2d
218, 233 (Ga. 2010); Moore v. Mobile Infirmary Ass’n, 592 So.2d
156, 163-64 (Ala. 1991); Watts v. Lester E. Cox Med. Ctrs., 376

10a
¶9 Although section 3 incorporates the federal equal
protection and due process clauses by reference in
addition to containing its own free-standing equal
protection and due process clauses that are unique to
the Virgin Islands Bill of Rights, courts have indicated
that these provisions serve as separate limitations on
the power of the Virgin Islands government. See, e.g.,
In re Brown, 7 V.I. 545, 551 (3d Cir. 1970) (“We hold
that [the statute is] ... not violative of the equal
protection clause of the Revised Organic Act of the
Virgin Islands, nor of the Fifth Amendment, by reason
of the Constitution of the United States having been
made applicable to the Virgin Islands by Act of
Congress dated August 23, 1968.”) (emphasis added);
Bryan v. Liburd, 36 V.I. 46, 56 n.6 (V.I. Super. Ct.
1996) (“This amendment has been made applicable to
the territory of the Virgin Islands by virtue of Section
3, Revised Organic Act, 1954. A similar provision also
exists in the Bill of Rights listed in Section 3, of the
Organic Act. Thus this claim of [the plaintiff] is an
allegation of violation of local and federal
constitutional (i.e. due process) rights.”); Gov’t of the
V.I. v. Huggins, 6 V.I. 3, 14 (V.I. Super. Ct. 1967)
(noting that Virgin Islands tax laws must “conform[ ]
... to the ‘due process’ and ‘equal protection’ clauses of
the Revised Organic Act and the ‘due process’ clause of
S.W.3d 633 (Mo. 2012); Moore v. Mobile Infirmary Ass’n, 592 So.
2d 156, 164 (Ala. 1991); Smith v. Dep’t of Ins., 507 So. 2d 1080,
1087 (Fla. 1987); State v. Sheward, 715 N.E.2d 1062 (Ohio 1999);
Condemarin v. Univ. Hosp., 775 P.2d 348, 365-66 (Utah 1989);
Kan. Malpractice Victims Coalition v. Bell, 757 P.2d 251, 263-64
(Kan. 1988); Lucas v. United States, 757 S.W.2d 687, 690 (Tex.
1988).

11a
the Fifth Amendment of the Constitution of the United
States”) (emphasis added); see also People v.
Simmonds, 58 V.I. 3, 10 n.3 (V.I. Super. Ct. 2012)
(“The Revised Organic Act could be read both to
prohibit the Virgin Islands, by extension of the
Fourteenth Amendment, from denying equal protection
of existing laws, and also to prohibit, through Section
3, the enactment of any law that would deny equal
protection.”); accord In re Manglona, Crim. App. No.
82-00011A, 1983 WL 29941, at *3 (D. Guam App. Div.
Apr. 6, 1983) (unpublished) (“We emphasize that a
certification petition’s allegations must be sufficiently
complete and specific to satisfy the fundamental
requirements of due process under both the United
States Constitution and the Guam Organic Act.”)
(emphases added). This is also consistent with how this
Court has interpreted similar free-standing provisions
found in the Virgin Islands Bill of Rights that govern
the same subjects as portions of the federal
constitution that have also been extended to the Virgin
Islands.7 See Browne v. People, 50 V.I. 241 (V.I. 2008)
7

We recognize that, in our prior decision in Ward v. People, 58
V.I. 277 (V.I. 2013), we held that the express prohibition against
double jeopardy found in the Virgin Islands Bill of Rights did not
confer a separate, more protective right than conferred by the
Fifth Amendment. That the double jeopardy provision in the
Revised Organic Act is no greater than the double jeopardy clause
of the Fifth Amendment does not mean that the same must be
true for every provision; in fact, this Court, in a decision issued
three years before Ward, recognized that provisions of the
Revised Organic Act could provide greater protections than the
minimum required by the United States Constitution, and cited
to our earlier precedents regarding bail as one such example. See
Murrell v. People, 54 V.I. 338, 351 n.6 (V.I. 2010)More
importantly, it appears that few, if any, courts have ever

12a
(applying “bailable by sufficient sureties” clause in the
Virgin Islands Bill of Rights notwithstanding the fact
that section 3 of the Revised Organic Act also extends
the Eighth Amendment to the Virgin Islands); see also
Murrell v. People, 54 V.I. 338, 351 n.6 (V.I. 2010)
(“[N]umerous examples exist of Congress conferring,
through a territory’s organic act or constitution, rights
that are greater than those afforded by the United
States Constitution.”).
¶10 We recognize that, in this case, the Superior
Court certified four questions that focus solely on the
Fifth, Seventh, and Fourteenth Amendments of the
United States Constitution. However, as we have
previously explained, “this Court is not limited solely
to the questions as phrased by the Superior Court in
its certification order, but may consider other legal
questions that are fairly related to or intertwined with
the questions so certified.” Edward v. GEC, LLC, 67
V.I. 745, 759 (V.I. 2017) (collecting cases). Here, the
interpreted the double jeopardy clause of a state constitution to
confer greater rights than the double jeopardy clause of the Fifth
Amendment does—in stark contrast to how the equal protection
clauses of state constitutions have been interpreted. Unlike in
this case, the appellant in Ward made the assertion that the
double jeopardy provision in the Revised Organic Act’s Bill of
Rights was “intentionally more generous” “[w]ithout citing to any
case law, legislative history, or other legal authority.” Ward, 58
V.I. at 283. But as we shall explain in the following sections,
numerous legal authorities—both case law and legislative
history—demonstrate that Congress did intend for this Court to
interpret the Virgin Islands Bill of Rights provisions in the same
manner as similar provisions in state constitutions, which would
necessarily confer greater protection than the federal
constitution.

13a
second and third questions certified by the Superior
Court both reference equal protection, and the fourth
references due process, albeit in the context of the
United States Constitution. Consequently, the
question of whether section 555 violates the equal
protection and due process clauses of the Virgin
Islands Bill of Rights is “fairly related” to the questions
certified by the Superior Court.
¶11 But perhaps more importantly, this Court has
adopted the doctrine of constitutional avoidance, which
“cautions against gratuitously deciding [federal]
constitutional issues when a party may receive the
same relief on non-constitutional grounds.” Bryan v.
Fawkes, 61 V.I. 416, 465 n.27 (V.I. 2014) (citing Azille
v. People, 59 V.I. 215, 227 (V.I. 2012)). Although the
Revised Organic Act of 1954 serves as a de facto
constitution for the Virgin Islands, see Fawkes v.
Sarauw, 66 V.I. 237, 247 (V.I. 2017), courts have
consistently held that the doctrine of constitutional
avoidance compels courts—whenever possible—to
resolve questions based on state constitutional law
rather than federal constitutional law. See Allstate Ins.
Co. v. Serio, 261 F.3d 143, 150 (2d Cir. 2001) (“[W]here
possible, courts will render decisions on federal
constitutional questions unnecessary by resolving
cases on the basis of state law (whether statutory or
constitutional).”) (citing Bell v. Maryland, 378 U.S.
226, 237 (1964)); Toth v. Callaghan, 995 F.Supp.2d
774, 781 (E.D. Mich. 2014) (“Even where the state law
claim is a constitutional one, that claim should be
decided first to avoid the federal constitutional
claim.”); Hickerson v. City of New York, 932 F.Supp.
550, 555 (S.D.N.Y. 1996) (“Plaintiffs raise substantial

14a
claims under the state constitution. These state
constitutional claims should be determined before
plaintiffs’ claims under the federal constitution,
because a ruling that the resolution violates the state
constitution would obviate the need to decide the
federal constitutional questions.”). This preference
extends to interpreting territorial organic acts in lieu
of federal constitutional provisions as well. See
Hammonds v. Guam Memorial Hosp., Civ. Nos.
81-003A, 81-00048A, 1983 WL 30221, at *4 (D. Guam.
App. Div. Apr. 4, 1983) (unpublished) (“If a case may
be resolved on either constitutional or statutory
grounds, a court should avoid the constitutional issue
if a statutory disposition is possible .... Therefore,
without reaching appellants’ constitutional arguments,
we hold that the [Guam statute] violates the due
process guarantees of the Guam Organic Act.”); see also
Gerace v. Bentley, 65 V.I. 289, 302-03 (V.I. 2016), cert.
denied, --- S. Ct. ---, 2019 WL 1756683 (2019)
(reviewing the validity of a statute under the Revised
Organic Act before considering a federal constitutional
challenge).
¶12 Under these circumstances, we conclude that the
issues raised in this appeal should first be analyzed
under the pertinent provisions of the Virgin Islands
Bill of Rights, and then analyzed under the Fifth,
Seventh, and Fourteenth Amendments of the United
States Constitution only if an analysis under the
pertinent Virgin Islands Bill of Rights provisions
cannot provide Balboni with the full relief he has
requested as part of this appeal. Proceeding in such a
manner will allow this Court to apply the doctrine of
constitutional avoidance to this case. Moreover,

15a
because the authorities pertinent to our analysis of the
Virgin Islands Bill of Rights provisions—such as the
decisions of state courts of last resort striking down
caps on non-economic damages pursuant to due
process and equal protection clauses found in state
constitutions—were cited in Balboni’s principal brief,
Ranger American and the Government have had the
opportunity to respond to these arguments in their
response briefs, as well as at oral argument.8
Accordingly, we re-formulate the certified questions to
also include the threshold question of whether 20
V.I.C. § 555 violates the equal protection and due
process clauses of the Virgin Islands Bill of Rights.9
8

Moreover, that Ranger American actually responded to
Balboni’s claims defeats any claim that Balboni waived these
issues, since Ranger American effectively “waived waiver” by
responding on the merits. See Webster v. FirstBank P.R., 66 V.I.
514, 518 n.2 (V.I. 2017) (“[T]he fact that [appellee] has briefed the
issue on the merits without contending that the issue has been
waived is sufficient for [appellee] to have waived waiver.”
9

The dissent maintains that this Court, by re-formulating the
certified questions in this manner, has deprived Ranger American
of its right to be heard. But the record contains numerous
instances of Ranger American responding to these claims. As
noted in the previous footnote, Ranger American devoted a
substantial portion of its appellate brief to addressing the
authorities cited by Balboni, including a 50-state survey outlining
which states have enacted caps on non-economic damages and
how many of those states have found those caps to be
constitutional and unconstitutional. Moreover, Balboni raised this
claim in his original motion before the Superior Court. (See, e.g.,
J.A. 37 (stating that “[t]he issue presented, whether Section 555
is unconstitutional, involves the intersection of statutory
interpretation and local and federal constitutional law” and then
proceeding to quote the equal protection and due process clauses

16a
C. Independent Interpretation of the Virgin
Islands Bill of Rights
¶13 Having concluded that the validity of section
555 under the equal protection and due process clauses
of the Virgin Islands Bill of Rights is properly before
this Court, we must now determine to what extent—if
at all—these provisions may be interpreted by this
Court independently of the clauses of the Bill of Rights

of the Bill of Rights of the Revised Organic Act); J.A. 48-49 (citing
and discussing cases that struck down caps on non-economic
damages as violative of state constitutional provisions). And as it
has on appeal, Ranger American also responded to those
arguments and authorities in its opposition to that motion. (See
J.A. 62-63, 67, 69, 72.) Further, at the oral argument in this
matter, counsel for Ranger American engaged in an extended
colloquy with this Court with respect to the effect of section 3 of
the Revised Organic Act, including whether it codifies separate
equal protection and due process provisions from those in the
United States Constitution, whether those separate provisions
could be interpreted the same way as a state constitution, and
whether this Court should resolve the questions under those
separate provisions rather than under the United States
Constitution. Oral Argument at 32:00 – 38:15, Balboni v. Ranger
Am. Inc., S. Ct. Civ. No. 2018-0022, available at
http://www.visupremecourt.org. Significantly, Ranger American’s
counsel did not argue that this Court should not analyze the
question under the Virgin Islands Bill of Rights; rather, Ranger
American only responded that Balboni’s claims could not
withstand a facial challenge. By actually responding to Balboni’s
claims in its filings before both the Superior Court and this Court,
and not asserting waiver at oral argument but instead responding
to questions from this Court on the merits, Ranger American has
exercised its right to be heard. See Salehpour v. Univ. of Tenn.,
159 F.3d 199, 204 (6th Cir. 1998) (holding that it “flies in the face
of logic and reason” to hold that a party’s right to be heard was
violated when it actually filed a response).

17a
to the United States Constitution that contain similar
language. We conclude that this Court is empowered to
independently and definitively interpret the Bill of
Rights provisions of the Revised Organic Act as the
court of last resort for the Virgin Islands. As we shall
explain below, Congress did not model the Virgin
Islands Bill of Rights after the Bill of Rights to the
United States Constitution. Rather, the legislative
history reveals that Congress modelled [sic] the Virgin
Islands Bill of Rights after similar provisions found in
state constitutions, which state courts of last resort
have virtually-uniformly interpreted as conferring
greater rights than those in the Bill of Rights to the
United States Constitution. And while the Virgin
Islands Bill of Rights was enacted by Congress, it was
not enacted pursuant to the general and enumerated
powers vested in Congress in its capacity as a national
legislature through Article I of the United States
Constitution. Instead, Congress enacted the Revised
Organic Act as the organic governing law or
constitution for the Virgin Islands through its power
under the Territorial Clause of Article IV of the United
States Constitution, which effectively authorizes
Congress to enact laws for a territory as if Congress
were a state government. Congress, having also
directed that the relationship between the courts of the
Virgin Islands and the courts of the United States to
mirror the one between state and federal courts,
consequently intended for this Court to exercise the
power to interpret the Virgin Islands Bill of Rights in
the same manner that a state court of last resort may
interpret the Bill of Rights to a state constitution.

18a
1. History of the Revised Organic Act
¶14 The equal protection and due process clauses of
the Virgin Islands Bill of Rights provide as follows:
No law shall be enacted in the Virgin Islands
which shall deprive any person of life, liberty, or
property without due process of law or deny to
any person therein equal protection of the laws.
48 U.S.C. § 1561. This language is specific to the
Virgin Islands and differs from that of the equal
protection and due process clauses of the Fourteenth
Amendment, which instead provides that
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the
United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
U.S. CONST. amend. XIV, § 1. Nevertheless, several
key phrases—such as “due process of law” and “equal
protection of the laws”—appear in both provisions.
¶15 Previously, this Court has recognized that “like
a state constitution, it is possible for the Revised
Organic Act to confer on Virgin Islanders greater
protections than those required by the United States
Constitution.” Todmann v. People, 57 V.I. 540, 546
(V.I. 2012) (citing Murrell v. People, 54 V.I. 338, 351

19a
n.6 (V.I. 2010)). But this Court has also stated that
because the Revised Organic Act was enacted by
Congress, we must consider congressional intent when
determining the meaning of its language. See Bryan v.
Fawkes, 61 V.I. 201, 230-31 (V.I. 2014) (collecting
cases). Therefore, before proceeding further, we must
determine to what extent this Court may interpret the
equal protection and due process clauses of the Virgin
Islands Bill of Rights to provide greater protections
than the equal protection and due process clauses of
the Fourteenth Amendment.
¶16 The legislative history reveals that when
Congress first enacted the Revised Organic Act, it
chose to b o rro w th e B i l l of Rights
provisions—including the equal protection and due
process clauses—from section 34 of the Virgin Islands
Organic Act of 1936. See S. Rep. No. 83-1271 (1954),
reprinted in 1954 U.S.C.C.A.N. 2585, 2593 (“Section 3
provides a bill of rights which is in part similar to the
Bill of Rights in the United States Constitution and
which parallels the bill of rights, in somewhat different
order, contained in the existing Virgin Islands Organic
Act.”). The legislative history for section 34 of the
Organic Act of 1936 reveals that Congress did not
model the Bill of Rights after the United States
Constitution;10 rather, it adopted “familiar provisions
10

That the Bill of Rights adopted as part of the Organic Act
of 1936 was modelled [sic] after state constitutions and other
organic acts, rather than the Bill of Rights to the United States
Constitution, is consistent with the fact that Congress had
previously rejected a draft version prepared by the
Presidentially-appointed governor, and instead enacted a version
that had been drafted by the two democratically-elected Virgin

20a
found in various organic acts and in State constitutions
in relation to the Bill of Rights.”11 80 Cong. Rec. 6609
(1936) (statement of Senator William H. King of
Utah).12 In fact, the United States District Court of the
Islands legislatures with only minor changes. WILLIAM W.
BOYER, AMERICA’S VIRGIN ISLANDS: A HISTORY OF
HUMAN RIGHTS AND WRONGS 185-86 (2d ed. 2010).
11

The dissent characterizes Senator King’s explicit reference
to state constitutions as conveying that section 34 of the Organic
Act of 1936 contained nothing out of the ordinary as compared to
comparable bills of rights in other jurisdictions. If this was
Senator King’s intent, it further supports our conclusion that
Congress did not intend for the Virgin Islands Bill of Rights to
merely be coextensive with the Bill of Rights to the United States
Constitution, since it would have been out of the ordinary—even
at the time of section 34’s adoption—for the equal protection
clause of a state constitution to be interpreted in such a limited
manner. See W.F. Dodd, Implied Powers and Implied Limitations
in Constitutional Law, 29 YALE L. J. 137, 159-60 (1919) (“Of
express limitations in state constitutions, the general ones of most
importance, those of ‘due process’ and ‘equal protection,’ have in
a number of states been applied by state courts with much more
strictness than has the Fourteenth Amendment by either federal
or state courts.”).
12

We decline to accept the dissent’s invitation to disregard
Senator King’s statement because at the time he made those
remarks, the judicial power of the territory was vested in the
District Court of the Virgin Islands. During this time period, the
District Court was viewed not as a federal court, but as a purely
local court of the Virgin Islands, and was treated as such until
the District Court’s exclusive and concurrent jurisdiction over
local matters was terminated in 1994. See Vooys v. Bentley, 901
F.3d 172, 181-82 (3d Cir. 2018) (summarizing the history of the
Virgin Islands legal system and observing that the “dual system
of local and federal judicial review” did not begin until 1991 for
civil cases and 1994 for criminal cases); see also Carty v. Beech

21a
Virgin Islands held that “the Fifth Amendment has
been supplemented in the Virgin Islands by section 34
of the Organic Act [of 1936] which provides a bill of
rights including full guarantees of due process of law
and equal protection of laws.” United States ex rel.
Leguillou v. Davis, 115 F. Supp. 392, 396 (D.V.I. 1953)
(Maris, J.) (emphasis added), overruled on other
grounds, 212 F.2d 691 (3d Cir. 1954). Notably, that
decision was authored by the primary drafter of the
Revised Organic Act, who elected to carry over the
language of section 34 of the Organic Act of 1936
virtually verbatim into the Virgin Islands Bill of
Rights.13 Accord Puerto Rico v. Shell Co., 302 U.S. 253,
266 (1937) (“Those decisions, though not conclusive,
are entitled to great weight, because they dealt with
territorial powers in operation at a time so shortly
before the rendition of the decisions that the judges
who rendered them well may be credited with such
Aircraft Corp., 679 F.2d 1051, 1057 (3d Cir. 1982) (noting that
because the District Court possessed “general original jurisdiction
in all other causes in the Virgin Islands,” “it is more like a state
court of general jurisdiction than a United States district court”);
Clen v. Jorgensen, 265 F. 120, 122 (3d Cir. 1920) (describing the
District Court as a court “with jurisdiction over controversies of
every kind”).
13

See Dolores K. Sloviter, Memorial Tribute to the Honorable
Albert Branson Maris, 62 TEMPLE L. REV. 471, 473 (1989)
(describing Judge Maris’s deep involvement in drafting the
Revised Organic Act of 1954); Resolution Honoring the Honorable
Albert Branson Maris, 1973 V.I. Sess. L. p. 368-69 (“WHEREAS
the Honorable Albert Branson Maris may list among his greatest
contributions to the Virgin Islands ... his participation in and
considerable influence over the formulation and drafting of the
[R]evised Organic Act of the Virgin Islands of 1954.”).

22a
knowledge of the purpose of these powers and their
history and application, as to make these judges
peculiarly competent to decide questions relating
thereto.”).14
¶17 To the extent any doubt remains as to whether
Congress intended for the equal protection and due
process clauses of the Virgin Islands Bill of Rights to
be interpreted independently of the corresponding
provisions of the United States Constitution, it should
be erased by the congressional hearings on the 1968
amendments to the Revised Organic Act. Although the
1968 amendments amended section 3 of the Revised
Organic Act to extend various provisions of the United
States Constitution—including the equal protection
and due process clauses of the Fourteenth
Amendment—to the Virgin Islands, the main purpose
of the legislation was to provide for popular election of
the Governor of the Virgin Islands, and to provide for
14

Although the dissent highlights legislative history with
respect to the drafting of the final paragraph of section 3 of the
Revised Organic Act—conferring certain enumerated provisions
of the United States Constitution to the Virgin Islands “to the
extent that they [had] not been previously extended”—the
relevant inquiry is not the drafting of the last paragraph of
section 3 in the 1968 amendments, but the drafting of the Bill of
Rights provisions that originated in section 34 of the Organic Act
of 1936 and were then copied virtually verbatim into the Revised
Organic Act by Judge Maris. Nevertheless, the addition of the “to
the extent that they [had] not been previously extended”
language renders section 3 wholly consistent with the operations
of state governments, where the applicable provisions of the Bill
of Rights of the United States Constitution serve as a floor that
does not preclude other provisions from being interpreted so as to
confer greater rights.

23a
the reapportionment of the Virgin Islands Legislature
by the Legislature itself. See Public Law 89-548, § 1.
However, during the congressional hearings, numerous
witnesses testified that the decisions of the Supreme
Court of the United States codifying the principle of
“one man, one vote” were not applicable to the Virgin
Islands, even though they were decided based on the
equal protection clause of the Fourteenth
Amendment.15 See Virgin Islands—Elective Governor
and Legislative Redistricting: Hearing on H.R. 11777
& H.R. 13277 Before the H. Comm. on Interior and
Insular Affairs, 89th Cong. 675 (1966) (statement of
Harry R. Anderson, Assistant Secretary of the Interior)
(“[T]he proposed amendment incorporates and makes
applicable to any reapportionment the language of the
equal protection clause of the 14th Amendment of the
Constitution, which language is the basis of the
Supreme Court’s ‘one man-one vote’ decisions. While
those decisions are not for application in the Virgin
Islands, we nevertheless strongly believe in the
correctness of the principle stated and by the foregoing
we would provide for its enforcement in the Virgin
Islands. ...”); 89th Cong. 679 (statement of Ruth Van
Cleve, Director, Office of Territories, Department of the
Interior) (“As the Secretary stated a moment ago, it is

15

While this testimony was made in conjunction with H.R.
13277, pertaining to section 5 of the Revised Organic Act, this is
a distinction without a difference, for if the guarantee of equal
protection in the Bill of Rights of the Revised Organic Act was
wholly equivalent to the right of equal protection in the United
States Constitution, there would be no need to amend either
section 3 or section 5 of the Revised Organic Act to include such
language.

24a
our conclusion that those decisions don’t themselves
apply, because the equal protection language of the
14th Amendment is by its own terms applicable only to
the States.”); 89th Cong. 692 (statement of Dr. Aubrey
A. Anduze, President of the Virgin Islands
Constitutional Convention) (“Although the
constitutional requirement of one man, one vote does
not apply to such provisions as the Congress may see
fit to make for the Virgin Islands, a regard for essential
democratic principles does require that this
constitutional doctrine be extended to the islands. To
the extent that H.R. 13277 advances in such a
direction, it is [a] step which I believe the Congress
ought to take.”). Had Congress intended for the equal
protection clause in the Virgin Islands Bill of Rights to
not have any independent meaning, but to only be
interpreted identically to the equal protection clause of
the Fourteenth Amendment, then the “one man, one
vote” decisions of the United States Supreme Court
premised on the Fourteenth Amendment’s equal
protection clauses would have already been
automatically extended to the Virgin Islands without
the need for any further congressional action.16
16

We recognize that the United States Court of Appeals for
the Ninth Circuit in Guam v. Guerrero, 290 F.3d 1210 (9th Cir.
2002), found that the bill of rights provisions in the Guam
Organic Act were “modeled after the Bill of Rights in the federal
Constitution,” id. at 1214, and that the subsequent extension of
federal constitutional protections to Guam was not superfluous
because it “adds only those provisions not already extended,” and
“[t]herefore, if a provision had been extended ... it was not
duplicated.” Id. at 1218 n.11 (emphasis in original). To the extent
that the Guerrero decision is not inconsistent with the United
States Supreme Court’s later decision in Limtiaco v. Camacho,

25a

549 U.S. 483, 491 (2007), it is not apposite. First, the Ninth
Circuit reached this decision without any analysis of the
legislative history. See Christopher Serkin & Nelson Tebbe, Is
The Constitutional Special?, 101 CORNELL L. REV. 701, 737
(2016) (observing that the reasoning of Guerrero was “based
neither on text, nor on congressional intent, nor on precedent”).
But it is clear from the legislative history of the Virgin Islands
Organic Act of 1936, the original enactment of the Revised
Organic Act of 1954, and the 1968 amendments to the Revised
Organic Act detailed above that Congress did not model the
Virgin Islands Bill of Rights after the federal constitution, and
that Congress extended the equal protection clause of the
Fourteenth Amendment to the Virgin Islands through the 1968
amendments precisely because it believed that the federal equal
protection clause had not already been fully extended to the
Virgin Islands. In addition, the Guerrero decision is highly
unusual in that it was the Government of Guam itself, through
its Attorney General, that argued to the Ninth Circuit that the
Supreme Court of Guam lacked the authority to interpret the
Guam Organic Act in such a manner. Brief of Petitioner Gov’t of
Guam, Guam v. Guerrero, 290 F.3d 1210 (9th Cir. 2002). In
recent cases considering territorial autonomy, courts have
afforded great weight to the position of the territorial government
in such matters, even with respect to whether federal
constitutional guarantees should apply to that territory. See, e.g.,
Tuaua v. United States, 788 F.2d 300, 310 (D.C. Cir. 2015) (“The
imposition of citizenship on the American Samoan territory is
impractical and anomalous at a more fundamental level. We hold
it anomalous to impose citizenship over the objections of the
American Samoan people themselves, as expressed through their
democratically elected representatives.”). To the extent the
position of the Executive Branch is a consideration, the Virgin
Islands Government has not argued in this or any other case that
this Court lacks such authority, and has actually argued in other
cases that questions involving interpretation of the Revised
Organic Act are not federal questions but rather are issues of
local law. See, e.g., Brief for Appellant Gov’t of the V.I., Dunston
v. Governor of the V.I., 672 Fed.Appx. 213 (3d Cir. 2016).

26a
2. Authority of Territorial Courts to Definitively
Interpret their Organic Acts
¶18 Since Congress modelled [sic] the Bill of Rights
provisions after similar language found in state
constitutions and territorial organic acts, and did not
repeal the original Virgin Islands Bill of Rights
provisions when it extended the Fourteenth
Amendment to the Virgin Islands as if it were a state
through the 1968 amendments, “then Congress must
also be presumed to be similarly familiar with the
interpretations and construction given those provisions
by the pertinent ... state courts.”17 People v. Velasquez,
60 V.I. 22, 33 (V.I. Super. Ct. 2014) (citing Ward v.
People, 58 V.I. 277, 283-84 (V.I. 2013)).
¶19 Although virtually all state constitutions contain
language guaranteeing the rights to “equal protection
of the laws” and “due process of law,” it is an ancient
and fundamental principle of United States
jurisprudence “that state courts be left free and
unfettered ... in interpreting their state constitutions.”
17

That the Virgin Islands Legislature had not yet established
this Court as the court of last resort for the Virgin Islands at the
time Congress enacted the relevant provisions does not negate
Congress’s intent or require us to ignore developments in Virgin
Islands law and the structure of the Virgin Islands Judiciary that
have occurred over the last 50 years. See Guam Soc. Of
Obstetricians & Gynecologists v. Ada, 776 F.Supp. 1422, 1427 (D.
Guam. 1990) (rejecting the theory that constitutional law in
Guam was “frozen in time” to what it was in 1968 because
Congress could not have predicted post-1968 decisions of the
United States Supreme Court in the area of substantive due
process and equal protections at the time it extended those
constitutional provisions to Guam through the Guam Organic
Act).

27a
Minnesota v. National Tea Co., 309 U.S. 551, 557
(1940). Pursuant to this principle, state courts of last
resort are not bound to follow the decisions of the
Supreme Court of the United States with respect to
issues of state law, even when a state constitution
contains language that is wholly identical to the
United States Constitution. See Minnesota v. Clover
Leaf Creamery Co., 449 U.S. 456, 461 n.6 (1981) (“A
state court may, of course, apply a more stringent
standard of review as a matter of state law under the
State’s equivalent to the Equal Protection or Due
Process Clauses.”); Cooper v. California, 386 U.S. 58,
62 (1967) (states may “impose higher standards on
searches and seizures than required by the Federal
Constitution”); Baker v. City of Fairbanks, 471 P.2d
386, 402 (Alaska 1970) (“While we must enforce the
minimum constitutional standards imposed upon us by
the United States Supreme Court’s interpretation of
the Fourteenth Amendment, we are free, and we are
under a duty, to develop additional constitutional
rights and privileges under our Alaska Constitution
....”); State v. Russell, 477 N.W.2d 886, 889 (Minn.
1991) (“To harness interpretation of our state
constitutional guarantees of equal protection to federal
standards and shift the meaning of Minnesota’s
constitution every time federal case law changes would
undermine the integrity and independence of our state
constitution and degrade the special role of this court,
as the highest court of a sovereign state, to respond to
the needs of Minnesota citizens.”); State v. Kaluna, 520
P.2d 51, 59 (Haw. 1974) (“[A]s the ultimate judicial
tribunal in this state, this court has final,
unreviewable authority to interpret and enforce the

28a
Hawaii Constitution. We have not hesitated in the past
to extend the protections of the Hawaii Bill of Rights
beyond those of textually parallel provisions in the
Federal Bill of Rights when logic and a sound regard
for the purposes of those protections have so
warranted.”); Serrano v. Priest, 557 P.2d 929, 950 (Cal.
1976); State v. Johnson, 346 A.2d 66, 67 (N.J. 1975). In
fact, 46 states have chosen to do just that, and
interpret the equal protection clause of their state
constitutions to provide greater protections than that
afforded by the equal protection clause of the
Fourteenth Amendment of the United States
Constitution.18
¶20 Nevertheless, it is equally well-established that
the provisions of the United States Constitution
applicable to the states establish a floor below which
states cannot go, notwithstanding the language of their
state constitutions. See Howlett v. Rose, 496 U.S. 356,
367 (1990); State v. Sieyes, 225 P.2d 995, 1003 (Wash.
2010); Arnold v. Cleveland, 616 N.E.2d 163, 169 (Ohio
1993). Consequently, Congress, in enacting the Virgin
Islands Bill of Rights and modelling it after language
18

These states include Alabama, Alaska, Arizona, Arkansas,
California, Colorado, Connecticut, Delaware, Florida, Georgia,
Hawaii, Idaho, Illinois, Indiana, Iowa, Kansas, Kentucky,
Louisiana, Maine, Maryland, Massachusetts, Michigan,
Minnesota, Missouri, Montana, Nebraska, Nevada, New
Hampshire, New Jersey, New Mexico, New York, North Carolina,
North Dakota, Ohio, Oklahoma, Oregon, Pennsylvania, Rhode
Island, Tennessee, Texas, Utah, Vermont, Washington, West
Virginia, Wisconsin, and Wyoming. See JAMES A. KUSHNER,
GOVERNMENT DISCRIMINATION: EQUAL PROTECTION
LAW AND LITIGATION § 1.7: State Constitutional Standards
(2015) (collecting cases).

29a
found in state constitutions, and then subsequently
extending the Fourteenth Amendment to the Virgin
Islands as if it were a state without repealing the
earlier guarantees of the Virgin Islands Bill of Rights,
manifested an intent for the equal protection and due
process clauses of the Fourteenth Amendment to serve
as a floor with respect to what rights are conferred to
the people of the Virgin Islands,19 while preserving the
possibility that the equal protection and due process
clauses of the Bill of Rights—modelled [sic] after
similar state constitutional provisions—could be
construed by a court to confer greater rights to the
people of the Virgin Islands than the minimum
provided for in the United States Constitution.20 To
19

Thus, both this Court and the United States Court of
Appeals for the Third Circuit have held that the 1968
amendments to section 3 had the effect of implicitly repealing
other provisions of the Revised Organic Act that on their face
provided for lesser protections than the provisions of the United
States Constitution that were now extended to the Virgin Islands.
See Murrell v. People, 54 V.I. 338, 352-55 (V.I. 2010) (holding that
the express incorporation of the Sixth Amendment through the
1968 amendments implicitly repealed section 26 of the Revised
Organic Act, which authorized a jury trial in a criminal case only
if demanded by the defendant) (citing Gov’t of the V.I. v. Parrott,
476 F.2d 1058, 1059-60 (3d Cir. 1973)).
20

We recognize that in some of our prior decisions, we stated
that we may presume that Congress is aware of how language
has been interpreted by the United States Supreme Court, and
that we should presume that Congress therefore intended to
reach the same result. See, e.g., Ward, 58 V.I. at 283-84; see also
Rodriguez v. Bureau of Corrections, 58 V.I. 367, 383 (V.I. 2011)
(Hodge, J., concurring). However, we emphasized in other
decisions “that these presumptions are precisely
that—presumptions.” Rivera-Moreno v. Gov’t of the V.I., 61 V.I.

30a
hold otherwise would render the 1968 amendment to
the Revised Organic Act extending the Fourteenth
Amendment to the Virgin Islands completely
superfluous. See Duggins v. People, 56 V.I. 295, 302
(V.I. 2012) (“When interpreting statutes, we must read
the statute, to the extent possible, so that no one part
makes any other portion ineffective.”) (citing Gilbert v.
People, 52 V.I. 350, 356 (V.I. 2009)).
¶21 We recognize that, with respect to interpretation
of the Virgin Islands Bill of Rights, it is arguable that
the power of this Court may be more limited than that
of state courts of last resort interpreting their state
constitutions. Although the Revised Organic Act is the
de facto constitution of the Virgin Islands, it is
simultaneously a federal enactment. Bryan, 61 V.I. at
427. And while this Court is the court of last resort for
the Virgin Islands, we cannot ignore the reality that
the Virgin Islands has not achieved statehood, but
remains an unincorporated Territory of the United
States. We do not conclude, however, that these facts
preclude this Court from adopting an interpretation of
279, 316 (V.I. 2014). As explained above, the legislative history is
clear that Congress did not model the Bill of Rights provisions of
the Revised Organic Act after the Bill of Rights of the United
States Constitution, but instead modelled [sic] it after “familiar
provisions founds in various organic acts and in State
constitutions in relation to the Bill of Rights.” 80 Cong. Rec. 6609
(1936). Therefore, in this particular instance, where the
legislative history demonstrates that Congress used state
constitutional provisions as a model, the appropriate inquiry is
not how these terms had been previously interpreted by the
Supreme Court of the United States in the United States Bill of
Rights, but how they had been interpreted by state courts of last
resort construing those terms in state constitutions.

31a
the equal protection and due process clauses of the
Virgin Islands Bill of Rights that differs from that
accorded to the Fifth and Fourteenth Amendments of
the United States Constitution.
¶22 At the time Congress first enacted the Revised
Organic Act, “the Virgin Islands lacked a fully
developed local judiciary, with the District Court—a
federal court established by Congress rather than the
Legislature and consisting of judges selected by the
President of the United States rather than the
Governor of the Virgin Islands—possessing jurisdiction
over most civil [and criminal] actions.” Banks v. Int’l
Rental & Leasing Corp., 55 V.I. 967, 978 (V.I. 2011).
While “the Virgin Islands local judiciary continued to
expand and receive greater jurisdiction over local
matters in the decades that followed,” the most “pivotal
change occurred ... when Congress subsequently
amended the Revised Organic Act of 1954 to authorize
creation of a local appellate court.” Id. (citing 48 U.S.C.
§ 1613a). As part of those amendments, Congress
divested the federal courts of their authority to review
decisions of the local judiciary, and instead made such
decisions reviewable only by writ of certiorari to the
Supreme Court of the United States, with temporary
certiorari review by the United States Court of Appeals
for the Third Circuit for a period not to exceed 15
years. 48 U.S.C. § 1613.
¶23 Acting pursuant to the authority granted to it by
Congress, the Virgin Islands Legislature created this
Court and vested it with the “supreme judicial power
of the Territory.” 4 V.I.C. § 21. Shortly after this Court
began to exercise such jurisdiction, the Third Circuit

32a
extended to the Virgin Islands several doctrines that
had been adopted to govern the relationships between
federal and state courts. See Edwards v. HOVENSA,
LLC, 497 F.3d 355, 360 (3d Cir. 2007) (“Now that §
1613 mandates that the relations between courts
established by laws of the United States, e.g., the
Revised Organic Act, and courts established by local
law should mirror the relations between state and
federal courts, we conclude that § 1613 makes the Erie
doctrine and the Rules of Decision Act applicable to the
District Court of the Virgin Islands.”). Significantly, in
2012, Congress amended the Revised Organic Act to
eliminate the period of temporary certiorari review,
and enacted legislation clarifying that the Supreme
Court of the United States could only exercise
jurisdiction to review a decision of this Court on the
same basis as the courts of last resort of the 50 states.
See 28 U.S.C. § 1260; see also 48 U.S.C. § 1613 (“[W]ith
respect to appeals, certiorari, removal of causes, the
issuance of writs of habeas corpus, and other matters
or proceedings shall be governed by the laws of the
United States pertaining to the relations between the
courts of the United States, including the Supreme
Court of the United States, and the courts of the
several States in such matters and proceedings.”).
¶24 As a result of these developments, Congress has
proactively chosen to treat the Virgin Islands judiciary
as if it were a state judiciary. See In re Alvis, 54 V.I.
408, 413 (V.I. 2010) (quoting Gov’t ex rel. Robinson v.
Schneider, 893 F. Supp. 490, 495 (D.V.I. 1995)); see
also Water Isle Hotel & Beach Club, Ltd. v. Kon Tiki
St. Thomas, Inc., 795 F.2d 325, 328 (3d Cir.1986)
(“[T]he history of the relationship between the United

33a
States and the Virgin Islands indicates that Congress
desired the territory to have jurisdictional powers
analogous to those of a state.”). This Court, in its
capacity as the court of last resort for the Virgin
Islands authorized to exercise the “supreme judicial
power of the Territory,” 4 V.I.C. § 21, has exercised this
power to hold that “neither this Court nor the Superior
Court is required to follow the United States Supreme
Court’s interpretation of the Federal Rules of Evidence
as binding precedent, since the interpretation of Virgin
Islands evidentiary rules remains a question of Virgin
Islands law even if the local rule that has been adopted
is word-for-word identical to a federal rule.” Antilles
School, Inc. v. Lembach, 64 V.I. 400, 419 (V.I. 2016)
(collecting cases).
¶25 But while Congress has unambiguously decided
to treat the Virgin Islands judiciary as a state court
system, the fact remains that Congress has not
actually made the Virgin Islands a state.
Consequently, “unlike the constitutional federalism
governing the relationship between state and federal
courts, federalism in the Virgin Islands ‘is
administrative rather than constitutional.’ “ See Hodge
v. Bluebeard’s Castle, Inc., 62 V.I. 671, 686 (V.I. 2015)
(quoting Parrott v. Gov’t of the V.I., 230 F.3d 615, 621
(3d Cir. 2000)). Ordinarily, Congress is only
empowered to enact legislation within the scope of its
general and enumerated powers under Article I of the
United States Constitution, such as laws to regulate
interstate commerce. However, pursuant to the
Territorial Clause of Article IV of the United States
Constitution, “[i]n the Territories of the United States,
Congress has the entire dominion and sovereignty,

34a
national and local, Federal and state, and has full
legislative power over all subjects upon which the
legislature of a State might legislate within the State.”
Simms v. Simms, 175 U.S. 162, 168 (1899). As we
explain below, it is well-established in the precedents
of the Supreme Court of the United States and the
federal courts of appeal that whether Congress enacts
legislation pursuant to its Article I or Article IV powers
is of important constitutional significance, for while
laws enacted by Congress in its capacity as a national
legislature pursuant to its Article I powers are
considered “laws of the United States,” laws enacted by
Congress through invocation of its Article IV powers
are not, but rather serve as laws of the territory, with
Congress standing in place of a state government. With
respect to legislation enacted by Congress in its
capacity as a national legislature, both federal and
territorial courts are bound to fully and without
qualification effectuate the intent of Congress.
However, as to legislation enacted by Congress for a
particular territory in its capacity as a state
legislature, the Congressional enactment is to be
treated as a territorial law, with a territorial court of
last resort authorized to interpret it pursuant to the
same principles and authority governing interpretation
of state laws by a state court of last resort. See, e.g.,
Pernell v. Southall Realty, 416 U.S. 363, 368 (1974);
People v. Rubert Hermanos, Inc., 309 U.S. 543, 549-50
(1940). Thus, the fact that principles of federalism
between the courts of the Virgin Islands and courts of
the United States are not constitutionally mandated
does not deprive this Court of the power to exercise its
authority, as the court of last resort for the Virgin

35a
Islands, to interpret the Virgin Islands Bill of Rights
the same way as a state court of last resort may
interpret the bill of rights in its state constitution.
¶26 On several occasions, the Supreme Court of the
United States has been asked to review the
interpretations by non-state courts of last resort of
laws that were technically federal—in that they were
enacted by Congress—but which dealt with pure issues
of local law. With respect to the District of Columbia,
the United States Supreme Court declined to review a
decision of the District of Columbia Court of Appeals
that had interpreted a federal statute pertaining to the
right to a jury trial in the District of Columbia courts.
The United States Supreme Court, after recognizing
that Congress intended to treat the District of
Columbia judiciary as if it were a state court system,
determined that “the same deference is owed to the
courts of the District with respect to their
interpretation of Acts of Congress directed toward the
local jurisdiction” as it provided to state courts of last
resort interpreting state laws. Pernell, 416 U.S. at
367-68; see also Griffin v. United States, 336 U.S. 704,
717 (1949) (“[I]t has become settled practice for this
Court to recognize that the formulation of rules of
evidence for the District of Columbia is a matter of
purely local law to be determined—in the absence of
specific Congressional legislation—by the highest
appellate court for the District.”); Fisher v. United
States, 328 U.S. 463, 476 (1946) (“We express no
opinion upon whether the theory for which petitioner
contends should or should not be made the law of the
District of Columbia. Such a radical departure from
common law concepts is more properly a subject for the

36a
exercise of legislative power or at least for the
discretion of the courts of the District. The
administration of criminal law in matters not affected
by Constitutional limitations or a general federal law
is a matter peculiarly of local concern.”). In fact, the
only time that the Supreme Court of the United States
refused to grant such deference to the District of
Columbia Court of Appeals was in a case where it
“concluded that the customary deference to the District
of Columbia Court of Appeals’ construction of local
federal legislation is inappropriate with respect to the
statutes involved for the reason that the petitioner’s
claim under the Double Jeopardy Clause cannot be
separated entirely from a resolution of the question of
statutory construction.” Whalen v. United States, 445
U.S. 684, 688 (1980). But even in that case, the
Supreme Court of the United States emphasized that
the general rule with respect to “Acts of Congress
applicable only within the District of Columbia” is for
federal courts to “defer to the decisions of the courts of
the District of Columbia.” Id. at 687.21 In fact, the
21

Scholars and others have built on these decisions of the
Supreme Court of the United States by concluding that not every
piece of legislation enacted by Congress should be classified as
“federal law,” since in addition to granting it national legislative
powers, the United States Constitution expressly grants Congress
the power to enact laws for the District of Columbia and for
United States territories. Thus, when enacting statutes such as
the District of Columbia Home Rule Act or a territory’s Organic
Act, Congress is not exercising national legislative powers, but
instead acts as a local sovereign for that particular enclave, which
justifies Article III courts deferring to the decisions of the highest
local court of that jurisdiction with respect to such statutes. See
Guam and the Case for Federal Deference, 130 HARV. L. REV.
1704, 1713 (2017) (“[T]he line between territorial and federal

37a
United States Court of Appeals for the District of
Columbia Circuit has even deferred to the construction
by the District of Columbia Court of Appeals of an Act
of Congress directed only to the District of Columbia
that was word-for-word identical to the federal
Longshoremen’s Act, which the District of Columbia
Court of Appeals nevertheless interpreted differently.
Hall v. C & P Telephone Co., 793 F.2d 1354, 1357 (D.C.
Cir. 1986). In doing so, it emphasized that even though
Congress extended the terms of a national statute to
the District of Columbia, they “were two distinct
statutes passed with different purposes”
notwithstanding the identical language, which would
justify applying the statute directed to the District of
Columbia differently from how the national statute
was applied with respect to other United States
jurisdictions. Id. at 1358.
¶27 More recently, the United States Supreme
Court, in reviewing a decision of the Supreme Court of
Guam interpreting the Guam Organic Act, extended
Pernell, Whalen, and similar decisions by “accord[ing]
deference to territorial courts over matters of purely
local concern.” Limtiaco v. Camacho, 549 U.S. 483, 491
statutes is blurrier than one might think. On the one hand, all
territorial law is, in some sense, of a federal character .... On the
other hand, organic acts, popularly enacted constitutions, and
certainly local territorial laws do not resemble traditional federal
enactments.”); Note, Federal and Local Jurisdiction in the
District of Columbia, 92 YALE L.J. 292, 296-312 (1982); United
States v. Cohen, 733 F.2d 128, 144 (D.C. Cir. 1984) (Mikva, J.,
concurring) (emphasizing that Congress is exercising a different
constitutional power when it enacts a statute pertaining to the
District of Columbia as opposed to when it enacts national
legislation).

38a
(2007). Although the United States Supreme Court
declined to defer to the Guam Supreme Court in that
case, it did so because the provision of the Guam
Organic Act at hand, which limited the amount of debt
the Guamanian government could incur, “protect[ed]
both Guamanians and the United States from the
potential consequences of insolvency” and “[t]hus ...
[wa]s not a matter of purely local concern.” Id. at 492.
Nevertheless, the United States Supreme Court
emphasized that “decisions of the Supreme Court of
Guam, as with other territorial courts, are instructive
and are entitled to respect when they indicate how
statutory issues, including the Organic Act, apply to
matters of local concern.” Id. (emphasis added). See
also Guam and the Case for Federal Deference, 130
HARV. L. REV. 1704, 1719 (2017) (“The promise of
independent Guamanian institutions means little if
the Guam Supreme Court’s decisions regarding those
institutions’ authority can be cast aside by any federal
court that prefers a different outcome.”).
¶28 That Congress’s purpose in enacting a statute
affects its fundamental character and how it should be
interpreted by the courts is further supported by
several holdings of the Supreme Court of the United
States. In United States v. Pridgeon, 153 U.S. 48
(1894), Congress had passed an act providing for
establishment of a territorial government for the
Territory of Oklahoma, and in the same act provided
for the Criminal Code of the state of Nebraska to serve
as the criminal laws of the Territory of Oklahoma until
the adjournment of the first session of the territorial
legislature. Although the federal government took the
position that violations of the Nebraska Criminal Code

39a
in the Oklahoma Territory were “offense[s] against the
United States” over which federal courts could exercise
jurisdiction, the United States Supreme Court rejected
the argument and held that the federal courts lacked
jurisdiction because the fact that it was Congress’s
intent for the Nebraska Criminal Code to serve as the
temporary criminal laws of the Oklahoma Territory
only until the territorial legislature enacted its own
laws rendered them local offenses, rather than federal
offenses.22 Id. at 51-55.
¶29 The Supreme Court of the United States reached
a similar result with respect to the Organic Act of the
then-Territory of New Mexico. In Santa Fe Central Ry.
Co. v. Friday, 232 U.S. 694 (1914), a defendant
challenged the jurisdiction of a territorial court that
entered a judgment against it, based on an argument
that a provision in the New Mexico Organic Act, as
well as another act of Congress, had transferred
exclusive jurisdiction over the case to a different court.
The United States Supreme Court summarily affirmed
the construction of those federal enactments by the
Supreme Court of New Mexico, holding that “[w]e
should not decide against the local understanding of a
matter of purely local concern unless we thought it
clearly wrong.” Id. at 700. This was consistent with a
prior ruling of the United States Supreme Court in
22

Notably, the Revised Organic Act of 1954 is itself a
temporary enactment, in that Congress authorized the
Legislature of the Virgin Islands to call for a constitutional
convention to enact a Virgin Islands Constitution, which once
duly-enacted would serve as the new the charter of local
government for the Territory and result in the repeal of the
Revised Organic Act. See Public Law 94-584.

40a
which it held that it lacked jurisdiction to review a
decision of the Supreme Court of the then-Territory of
Utah that “involved the construction of the organic law
and the scope of the authority to legislate conferred
upon the territorial legislature” because the matter
was not one in which a “statute of the United States ...
was drawn in question,” Linford v. Ellison, 155 U.S.
503, 508 (1894), as well as an earlier decision where
the United States Supreme Court held that it lacked
jurisdiction to review a decision of the former Supreme
Court of the District of Columbia interpreting an act of
Congress applicable to the District of Columbia
because “mere judicial construction” of that enactment
by the District of Columbia court was not equivalent to
questioning its validity. Baltimore & P.R. Co. v.
Hopkins, 130 U.S. 210, 226 (1889).

¶30 More recently, the Supreme Court of the United
States considered a virtually identical issue with
respect to the Puerto Rico Organic Act of 1917. Section
39 of the Puerto Rico Organic Act had placed
limitations upon the corporate ownership of land. In
People v. Rubert Hermanos, Inc., 309 U.S. 543 (1940),
the United States Supreme Court considered an appeal
from a decision of the United States Court of Appeals
for the First Circuit in which it found that a Puerto
Rico statute was inconsistent with section 39, and
therefore void. In doing so, the First Circuit had
overturned a decision of the Puerto Rico Supreme
Court that had found that the statute in question was
not inconsistent with the Organic Act. The First
Circuit had exercised jurisdiction to review the

41a
Supreme Court of Puerto Rico on the ground that “the
Organic Act is a federal law.”Rubert Hermanos, Inc. v.
People, 106 F.2d 754, 759 (1st Cir. 1939). Ultimately,
the Supreme Court, after looking at the purpose for
which Congress enacted section 39 of the Organic Act,
held that the federal courts lacked jurisdiction to
adjudicate a claim that a Puerto Rico statute is void
under section 39 because “section 39 of the Organic Act
is not one of ‘the laws of the United States’ “ but rather
“is peculiarly concerned with local policy” and thus
should be adjudicated in the courts of Puerto Rico
rather than in the courts of the United States. 309 U.S.
at 550. This decision was consistent with a prior
decision of the United States Supreme Court in which
it held that an act of Congress that authorized the
treasurer of Puerto Rico to enforce the collection of a
tax by a suit at law was not a “law of the United
States” and could not sustain federal-question
jurisdiction in the federal courts. People of Puerto Rico
v. Russell & Co., 288 U.S. 476, 483 (1933). See also
Tonje v. People of Puerto Rico, 187 F.2d 1020, 1021 (1st
Cir. 1951) (holding that whether a warrant was
supported by oath as required by section 2 of the
Puerto Rico Organic Act presented “no substantial
federal question”); Campose v. Central Cambalache,
Inc., 157 F.2d 43, 43 (1st Cir. 1946) (“The only
substantial question presented by these appeals
having even a savor of federal law is whether violation
of the restrictions upon corporate ownership and
control of land ... embodied in § 39 of the Organic Act
of March 2, 1917—the so called ‘500 Acre Law’—gives
rise to an action by a grantor against a corporation for
annulment of the latter’s title to land conveyed to and

42a
held by it in excess of the limitations imposed. Upon
analysis, however, this is not a question of federal law
....”) (internal citations omitted); Succession of Tristani
v. Colon, 71 F.2d 374, 375-76 (1st Cir. 1934) (denying
federal question jurisdiction when appellant claimed
that a decision of the Supreme Court of Puerto Rico
was inconsistent with section 2 of the Puerto Rico
Organic Act, which provided that no law shall deprive
any person of life, liberty, or property without due
process of law).
¶31 Four decades later, the Supreme Court of the
United States reaffirmed the principle that the mere
fact that a federal statute was enacted by Congress
does not make that statute a “statute of the United
States.” In Key v. Doyle, 434 U.S. 59 (1977), the United
States Supreme Court initially accepted jurisdiction to
review a decision of the District of Columbia Court of
Appeals interpreting an act of Congress pertaining
solely to the District of Columbia, but ultimately
dismissed the appeal for lack of jurisdiction after
concluding that the Congressional enactment was not
a “statute of the United States.” Id. at 61. Although
there was “no reference to possible distinctions
between federal statutes of solely local concern and
those of broader scope” in the legislative history, the
United States Supreme Court concluded that “[t]he
omission is understandable” because “[t]he question
had not arisen before the 1970 reorganization [of the
District of Columbia court system] because § 1257 then
applied only to state courts, which seldom if ever
confronted federal statutes of wholly local application.”
Id. at 66. In the absence of any legislative history on
that particular issue, the United States Supreme Court

43a
considered the overall Congressional purpose in
creating the District of Columbia court system, and
concluded that treating federal statutes directed solely
to the District of Columbia as “statutes of the United
States”—and thus conferring jurisdiction on the
United States Supreme Court to review local courts’
construction of those federal statutes—would have
been inconsistent with the intent of Congress in
establishing the equivalent of a state-court system for
the District of Columbia:23
Indeed, the purposes of the 1970 Act strongly
imply the contrary. As we noted in Palmore,
Congress intended “to establish an entirely new
court system with functions essentially similar
to those of the local courts found in the 50
States of the Union with responsibility for
trying and deciding those distinctively local
controversies that arise under local law,
including local criminal laws having little, if
any, impact beyond the local jurisdiction.” 411
U.S., at 409
This Court’s mandatory appellate
jurisdiction over state-court judgments under §
1257 is reserved for cases threatening the
supremacy of federal law. When state courts
23

As we shall explain in greater detail below, it is this that
distinguishes the instant case from Kepner v. United States, 195
U.S. 100 (1904) and Weems v. United States, 217 U.S. 349 (1910),
in that—like for the District of Columbia—Congress has
manifested a clear intent for the Virgin Islands judiciary to serve
as the equivalent of a state-court system, whereas it had no such
intent for the local courts of the former Territory of the Philippine
Islands. See Boumediene v. Bush, 553 U.S. 723, 757 (2008).

44a
invalidate state statutes on federal grounds,
uniformity of national law is not threatened and
there is no automatic right of appeal to this
Court. From the analogy of the local D.C. courts
to state courts drawn by Congress in the 1970
Act, it follows that no right of appeal should lie
to this Court when a local court of the District
invalidates a law of exclusively local application
Key, 434 U.S. at 67-68. See also United States v.
Edmond, 924 F.2d 261, 263 (D.C. Cir. 1991) (deferring
to local construction of “an Act of Congress applicable
exclusively to the District of Columbia”).
¶32 Even more recently, the United States Court of
Appeals for the Ninth Circuit adopted a similar rule
with respect to decisions of the Supreme Court of the
Commonwealth of the Northern Mariana Islands
(“CNMI”). The statute granting the Ninth Circuit
temporary jurisdiction to review decisions of the CNMI
Supreme Court limited that jurisdiction only with
respect to “cases involving the Constitution, treaties, or
laws of the United States.” 48 U.S.C. § 1824. Although
the CNMI had enacted its own constitution, a
Congressional enactment known as the Covenant
continued to govern the relationship between the
CNMI and the United States and set forth certain
limitations on the CNMI government. 48 U.S.C. § 1801
et seq. In Milne v. Hillblom, 165 F.3d 733 (9th Cir.
1999), the appellant claimed that the Ninth Circuit
could exercise jurisdiction to review a decision of the
CNMI Supreme Court interpreting Article XII of the
CNMI Constitution because it was purportedly
inconsistent with a provision in the federal Covenant

45a
pertaining to land alienation, and therefore raised a
federal question. Although it recognized that the
Covenant was enacted by Congress and codified as a
federal statute, the Ninth Circuit nevertheless
emphatically rejected this argument, holding that “[i]f
this court were to exercise jurisdiction every time an
appellant referenced the Covenant, the distinction
between the local law of CNMI and federal law would
be meaningless” and advising that future litigants
“should be discouraged from arguing that section 805
[of the federal Covenant] provides federal jurisdiction
over a CNMI decision involving Article XII of the
CNMI Constitution.” Id. at 737. See also Republican
Party of Guam v. Gutierrez, 277 F.3d 1086, 1090 (9th
Cir. 2002) (“Nor is federal question jurisdiction
conferred by the plaintiffs seeking a declaration that
the Governor failed to faithfully execute the laws of
Guam as required under the Organic Act.”); Sonoda v.
Cabrera, 189 F.3d 1047, 1051 (9th Cir. 1999) (stating
that a claim that an interpretation of CNMI local law
violated the separation of powers clause of the federal
Covenant would not raise a federal question). This
result is consistent with how the Supreme Court of the
United States rejected a similar argument that
provisions of the federal treaty that ceded the
Philippine Islands to the United States could be cited
to create jurisdiction for federal courts to review
decisions of that former territory. See Compania
General de Tabacos de Filipinas v. Alhambra Cigar &
Cigarette Mfg. Co., 249 U.S. 72 (1919) (rejecting
argument that a decision of the Supreme Court of the
Philippine Islands was reviewable by the U.S.
Supreme Court as involving a “treaty of the United

46a
States” because it purportedly violated provision of
treaty between United States and Spain that required
property rights to continue to be respected in the
Philippines); Miners’ Bank of Dubuque v. State of Iowa,
53 U.S. 1 (1851) (rejecting the argument that a bank’s
charter should be regarded as federal in nature when
Congress passed an act amending provisions of the
charter after it had been passed by the territorial
legislature of Wisconsin).
¶33 Similarly, the United States Court of Appeals
for the First Circuit has just this year held that the
federal enactments providing for elected governors in
all unincorporated territories—including the Virgin
Islands—are not “laws of the United States” but rather
“laws of the territory.” In Aurelius Investment, LLC v.
Commonwealth of Puerto Rico, 915 F.3d 838 (1st Cir.
2019), the First Circuit considered a challenge to the
constitutionality of the appointments of the members
of the Financial Oversight and Management Board
created by the Puerto Rico Oversight, Management,
and Economic Stability Act (“PROMESA”). The United
States contended that if the First Circuit were to find
that members of the PROMESA board must be selected
by presidential nomination and Senate confirmation,
“such a ruling will invalidate the present-day
democratically elected local governments of Puerto
Rico and the other unincorporated territories because
the officers of such governments took office without the
Senate’s advice and consent.” Id. at 857. The First
Circuit rejected this argument by emphasizing that the
elected governors and legislators of all the territories
are not federal officers because they do not derive their
authority from “laws of the United States,” but rather

47a
“they exercise authority pursuant to the laws of the
territory.” Id. at 859. In doing so, the First Circuit
recognized that the elected governor’s power
“ultimately depends on the continuation of a federal
grant,” but found this insufficient to transform those
laws into “laws of the United States,” for to do so would
result in every local claim posing a federal question.24
24

We recognize that the authorities cited herein, which
collectively hold that the portions of a territory’s organic act that
are concerned with exclusively local interests do not raise a
federal question, may at first glance appear in tension with the
decision of the United States Court of Appeals for the Third
Circuit in Thorstenn v. Barnard, 883 F.2d 217, 218 (3d Cir. 1989),
where it stated that the United States District Court of the Virgin
Islands could exercise federal-question jurisdiction because the
Revised Organic Act is a federal statute, and which has been cited
uncritically in subsequent cases. As a threshold matter, the
Thorstenn decision did not address any of the authorities cited
above—in fact, it made its jurisdictional statement in passing,
without citing to any legal authority other than the
federal-question jurisdiction statute—and the District Court’s
jurisdiction was not contested by the parties. Thus, the
jurisdictional holding in Thorstenn is akin to an unstated
assumption on a non-litigated issue that is not a precedential
holding that should bind future decisions. Sakamoto v. Duty Free
Shoppers, Ltd., 764 F.2d 1285, 1288 (9th Cir. 1985).But even
more importantly, the relationship between the courts of the
Virgin Islands and the courts of the United States when
Thorstenn was decided 30 years ago is not the same as it is today.
Thirty years ago, the Virgin Islands lacked an appellate court of
last resort, for the Legislature had not yet acted on the 1984
amendments to the Revised Organic Act to establish the Supreme
Court of the Virgin Islands. Instead, the only court of the Virgin
Islands was the Territorial Court of the Virgin Islands, a trial
court whose decisions were appealable as of right to the United
States District Court and then further appealable as of right to
the Third Circuit. See Gov’t of the V.I. v. Hodge, 359 F.3d 312, 323

48a
Id. The provisions of the Revised Organic Act’s Bill of
Rights at issue in this case—the equal protection and
due process clauses—do not affect any federal
interests, but, like the federal law pertaining to jury
trials in the District of Columbia at issue in Pernell or
the portion of the Puerto Rico Organic Act governing
corporate land ownership, is of a purely local concern
by granting rights to the people of the Virgin Islands
relative to the Government of the Virgin Islands. See
Whyte v. Bockino, S. Ct. Civ. No. 2017-0024, __ V.I. __,
2018 WL 4191523, at *4 (V.I. Aug. 29, 2018) (“[E]very
provision found in section 3 either confers rights upon
persons in the Virgin Islands ... or outlines the powers
and responsibilities of the Virgin Islands Government
(3d Cir. 2004) (discussing the “two-tier appellate review as of
right” from the Territorial Court). This is in stark contrast to the
judicial structure in Puerto Rico, Guam, the CNMI, the District
of Columbia, and the pre-statehood territories in which the
Supreme Court of the United States and the lower federal courts
found the absence of federal-question jurisdiction or ordered
deference to the territory’s court of last resort as to local
provisions of the organic act or other governing document – it
should go without saying that the federal courts cannot defer to
a territorial court of last resort with respect to the portions of a
territorial organic act of local concern if no such court of last
resort exists. Regardless of what may have been the case in the
Virgin Islands prior to the assumption of jurisdiction by this
Court on January 29, 2007, or the signing of Public Law 112-226
on December 28, 2012, the relationship between the courts of the
Virgin Islands and the courts of the United States as to
interpretation of provisions of the Revised Organic Act which are
of purely local concern has necessarily changed, just as it has in
numerous other areas. See, e.g., Bryan v. Fawkes, 61 V.I. 416
(V.I. 2014); Banks v. Int’l Rental & Leasing Corp., 55 V.I. 967
(V.I. 2011); Defoe v. Phillip, 702 F.3d 735, 743-44 (3d Cir. 2012);
Edwards v. HOVENSA, LLC, 497 F.3d 355, 361 (3d Cir. 2007).

49a
....”). And as noted earlier, Congress—like it has for the
District of Columbia, Puerto Rico, and Guam—has
expressed a clear intent to treat the Virgin Islands
judiciary as if it were a state court system.25 See 48
25

The dissent places great emphasis on the decisions of the
Supreme Court of the United States in Kepner v. United States,
195 U.S. 100 (1904) and Weems v. United States, 217 U.S. 349
(1910), which it cites for the proposition that when Congress uses
familiar language of the U.S. Constitution in crafting a territory’s
bill of rights, it intends to confer only coextensive rights to the
territory’s inhabitants. However, the Kepner and Weems decisions
do not stand for such a broad proposition. As a threshold matter,
the Kepner and Weems cases both involved situations where the
local courts of the Philippines had interpreted the pertinent
provisions of its organic act as providing lesser protections than
similar provisions in the United States Constitution. Moreover,
the Philippines Organic Act is structured differently from the
Revised Organic Act of the Virgin Islands, in that unlike section
3 of the Revised Organic Act, the Philippines Organic Act did not
contain any language that also explicitly extended the first to
ninth amendments of the United States Constitution in addition
to including free-standing double jeopardy and cruel-and-unusual
punishment provisions.Importantly, the dissent ignores the
maxim that “[t]he simple words of the opinions ... are not as
important as the contexts in which those cases were decided.”
King v. Morton, 520 F.2d 1140, 1147 (D.C. Cir. 1975). Unlike the
Virgin Islands at the time of adoption of the Organic Act of 1936
and Revised Organic Act of 1954, Congress manifested no intent
for the government of the Philippine Islands to be treated as if it
were a state government. Significantly, the Kepner decision
pointed to specific evidence indicating that the President of the
United States had directed that the Bill of Rights of the
Philippine Islands be modelled [sic] after the Bill of Rights of the
United States Constitution. 195 U.S. at 122-24. This is in stark
contrast to the Virgin Islands Bill of Rights, which the legislative
history reflects were modelled [sic] not after the Bill of Rights of
the United States Constitution, but after similar provisions found
in state constitutions. See UC Health v. N.L.R.B., 803 F.3d 669,

50a

683 (D.C. Cir. 2015) (Edwards, J., concurring) (“[T]he
precedential value of a decision is defined by the context of the
case from which it arose. If, in light of that context, the decided
case is materially or meaningfully different from a superficially
similar later case, the holding of the earlier case cannot control
the latter.”).The reason that Congress declined to model the Bill
of Rights of the Philippine Islands after state constitutions is
clear. In its most recent decision examining the doctrine of
territorial incorporation, the Supreme Court of the United States
distinguished its early-20th century precedents originating from
the Philippines because “[a]t least with regard to the Philippines,
a complete transformation of the prevailing legal culture would
have not only been disruptive but also unnecessary, as the United
States intended to grant independence to that Territory.”
Boumediene v. Bush, 553 U.S. 723, 757 (2008); see also An Act To
declare the purpose of the people of the United States as to the
future political status of the people of the Philippine Islands, and
to provide a more autonomous government for those islands
(Jones Act), 39 Stat. 545 (noting that “it was never the intention
of the people of the United States in the incipiency of the War
with Spain to make it a war of conquest or for territorial
aggrandizement” and that “it is, as it has always been, the
purpose of the people of the United States to withdraw their
sovereignty over the Philippine Islands and to recognize their
independence as soon as a stable government can be established
therein”). In fact, the Philippine Organic Act had been drafted at
a time when the United States was involved in a years-long
armed conflict with Filipino nationalists that had assumed actual
control over much of that territory, “a war that led to thousands
of U.S. causalities and over 100,000 civilian deaths, many more
than in the entire Spanish-American War.” Igartua-De La Rose v.
United States, 417 F.3d 145, 166 n.36 (1st Cir. 2005) (Torruella, J.,
dissenting) (citing Brian McAllister Linn, THE PHILIPPINE WAR,
1899–1902 (2000)).
In contrast, the Virgin Islands was proactively purchased by
the United States, with absolutely no indication that the United
States ever intended to withdraw its sovereignty. On the
contrary, Congress has repeatedly conferred greater local

51a
U.S.C. § 1613 (“The relations between the courts
established by the Constitution of the United States
and the courts established by local law ... shall be
governed by the laws of the United States pertaining
to the relations between the courts of the United States
....”).
¶34 That the Supreme Court of the United States
has granted great deference to judgments of the
District of Columbia Court of Appeals and the
Supreme Court of Guam as to federal statutes of
purely local concern,26 and held that federal courts
lacked jurisdiction to review the Supreme Court of
Puerto Rico with respect to a part of the Organic Act of

autonomy to the Virgin Islands government, to the point where
it has expressly decreed that the Virgin Islands Judiciary be
treated as if it were a state court system. See48 U.S.C. § 1613.
26

The dissent characterizes our citation to these decisions as
irrelevant because the standard of review that the Supreme
Court of the United States may apply to this Court’s
interpretation of the Virgin Islands Bill of Rights is purportedly
of no assistance. However, these authorities are of the highest
importance because they directly address the question of whether
the provisions of the Virgin Islands Bill of Rights constitute
federal law or local law. It is unquestioned that this Court is
bound to follow decisions of the Supreme Court of the United
States on federal law, but is free to establish the law of the Virgin
Islands. Hughley, 61 V.I. at 337-38. The United States Supreme
Court has concluded that the fact that a law was enacted by
Congress, in and of itself, does not make it a federal law, and has
demonstrated this by either deferring to the decisions of courts of
last resort for the territories and the District of Columbia with
respect to those Congressional enactments, or holding that it
lacks jurisdiction to review those decisions at all.

52a
purely local concern,27 is fully consistent with how the
United States Supreme Court has conferred similar
deference with respect to the interpretation of federal
statutes by agencies and instrumentalities of the
federal government. The Supreme Court of the United
States has held that agencies and instrumentalities of
the federal government are entitled to deference from
courts when interpreting federal statutes that are
silent, ambiguous, or have implicit or explicit gaps that
necessarily need to be filled.28 See Chevron U.S.A., Inc.
v. Natural Res. Def. Council, Inc., 467 U.S. 837, 843
(1984). Specifically, it has found that it is the intent of
Congress for the interpretations of such federal
agencies of federal statutes to be “given controlling
weight unless they are arbitrary, capricious, or

27

That the Supreme Court of the United States has granted
such deference to the District of Columbia Court of Appeals with
respect to its interpretation of the District of Columbia Home
Rule Act—a statute enacted by Congress without the approval of
the people of the District of Columbia—as well as to other
terr ito r ial su pr eme courts interpreting their
Congressionally-enacted organic acts, demonstrates that
enactment of a Virgin Islands Constitution is not the only way for
the people of the Virgin Islands to obtain the protections afforded
to residents of the states whose constitutions contain the same
language as the Virgin Islands Bill of Rights.
28

That Congress labelled the governing document of the
Virgin Islands an “organic act,” the same term of art in
administrative law used to describe the federal statute which is
within an agency’s jurisdiction to interpret, and to which
deference must be owed, is itself evidence of Congressional intent
to treat the Virgin Islands government similarly to an
administrative agency. See BLACK’S LAW DICTIONARY 1544
(9th ed. 2009).

53a
manifestly contrary to the statute.”29 Id. at 844.
¶35 It is well-established that the Virgin Islands,
Guam, Puerto Rico, and other territories are not
separate sovereigns. Rather, they draw their authority
from a single source of power: the federal government.
Puerto Rico v. Sanchez Valle, 136 S. Ct. 1863, 1871
(2016); Bryan v. Fawkes, 61 V.I. 416, 438 (V.I. 2014);
Sakamoto v. Duty Free Shoppers, Ltd., 764 F.2d 1285,
1286 (9th Cir. 1985) (“Since Guam is an
unincorporated territory enjoying only such powers as
may be delegated to it by the Congress in the Organic
Act of Guam, the Government of Guam is in essence an
instrumentality of the federal government.”). In other
words, each act of the Virgin Islands
Government—and the three branches thereof—is
effectively an act of the federal government.30 See Gov’t
29

In Bryan v. Fawkes, 61 V.I. 201 (V.I. 2014), this Court
declined to extend the Chevron standard to decisions of Virgin
Islands administrative agencies. However, in Bryan the question
before this Court was whether the Virgin Islands Legislature
intended to confer this power on every Virgin Islands
administrative agency that it had created, given that on
numerous occasions it had explicitly codified standards of review
that in some cases were more deferential, and in other cases were
less deferential, than that required by Chevron. Bryan, 61 V.I. at
227. Consequently, the issue of whether a state or territorial
court must grant Chevron deference to a federal agency or
instrumentality that had been created or authorized by Congress
was not implicated in Bryan.
30

Thus, the question of sovereignty is wholly irrelevant to the
question of whether this Court is authorized to interpret the Bill
of Rights of the Revised Organic Act in the same manner as a
state court of last resort may interpret similar provisions in a
state constitution. If sovereignty were a prerequisite to such

54a
of the V.I. v. Christensen, 673 F.2d 713, 716 (3d Cir.
1982) (holding that the Government of the Virgin
Islands acts as “an arm of the federal government”).
¶36 When it enacted the Revised Organic Act, the
United States Congress not only delegated certain
powers to the Government of the Virgin Islands, but
also established a system of separation of powers
within its branches, with executive functions vested in
the Executive Branch, legislative functions vested in
the Legislative Branch, and judicial functions vested in
the Judicial Branch. Kendall v. Russell, 572 F.3d 126,
135 (3d Cir. 2009). Interpretation of a
statute—including provisions of the Revised Organic
Act—is unquestionably within the jurisdiction of the
Judicial Branch of the Virgin Islands, see Bryan, 61
V.I. at 213 (citing Zivotofsky v. Clinton, 132 S. Ct.
1421, 1427 (2012))—within which this Court serves as
the court of last resort. See 48 U.S.C § 1613a(d); 4
V.I.C. §§ 2, 21. See also, e.g., Marbury v. Madison, 5
U.S. (1 Cranch) 137, 177 (1803) (discussing role of the
judiciary under separation of powers, and concluding
that “[i]t is emphatically the province and duty of the
judicial department to say what the law is”). Since
Chevron establishes a default rule for interpretation of
federal statutes by federal agencies tasked with their
interpretation, entities ranging from the United States
Environmental Protection Agency with respect to the

authority, the federal courts would not defer to the District of
Columbia Court of Appeals with respect to its interpretation of
the District of Columbia Home Rule Act, and would not defer to
any executive branch agency’s interpretation of its own enabling
statute under Chevron.

55a
federal Clean Water Act, to the Legal Services
Corporation as to its interpretation of the federal Legal
Services Corporation Act, are required to receive
deference even as to questions of law.31

¶37 The Supreme Court of the United States has
extended Chevron deference—or a concept similar to
Chevron deference32 —to decisions of non-Article III
31

Significantly, the Legal Services Corporation—similar to
the Government of the Virgin Islands—has been established in
such a manner so as to minimize political interference from the
federal government, and unlike the Government of the Virgin
Islands “is not deemed an agency, department, or instrumentality
of the federal government,” but is nevertheless entitled to
deference with respect to its interpretation of the Legal Services
Corporation Act. See Texas Rural Legal Aid, Inc. v. Legal
Services Corp., 940 F.2d 685, 679 (D.C. Cir. 1991).
32

We recognize that the rule announced in Chevron with
respect to deference to administrative agencies has come under
significant criticism, with several jurists and scholars calling for
it to be reconsidered or overturned. See, e.g., Perez v. Mortg.
Bankers Ass’n, 135 S.Ct. 1199, 1211-12 (2015) (Scalia, J.,
concurring in the judgment) (stating that Chevron “did not
comport with the APA”); Michigan v. EPA, 135 S.Ct. 2699, 2712
(2015) (Thomas, J., concurring) (observing that Chevron raises
concerns under Articles I and III of the United States
Constitution). In fact, this Court, when asked to apply Chevron
deference to Virgin Islands administrative agencies, declined to
do so. Bryan v. Fawkes, 61 V.I. 201, 225-26 (V.I. 2014).
Nevertheless, we find these cases instructive, not just because
they constitute additional—and perhaps the most
common—instances of the federal courts declining to engage in
plenary review of Congressionally-enacted legislation and instead
deferring to a Congressionally-created entity, but because
Chevron was decided contemporaneously with the enactment of

56a
courts with respect to decisions they render concerning
the federal statutes within their subject-matter
expertise. As noted above, the United States Supreme
Court has granted such deference to the District of
Columbia Court of Appeals and the Supreme Court of
Guam with respect to their interpretations of the
federal statutes that form the basis for the District of
Columbia and Guam governments. Limtiaco, 549 U.S.
at 491; Pernell, 416 U.S. at 367-68. It has also granted
similar deference to decisions of the United States
Court of Appeals for the Armed Forces with respect to
the Uniform Code of Military Justice and other federal
laws within that court’s jurisdiction. Middenhorf v.
Henry, 425 U.S. 25, 44 (1976) (when “[d]ealing with
areas of law peculiar to the military branches,” the
judgments of the United States Court of Appeals for
the Armed Forces “are normally entitled to great
deference”); Burns v. Wilson, 348 U.S. 137, 140 (1953)
(holding that even though military law is federal in
origin, “[m]ilitary law, like state law, is a
jurisprudence which exists separate and apart from
the law which governs in our federal judicial
establishment. This Court has played no role in its
development; we have exerted no supervisory power
over the courts which enforce it ....”). It has even called

the 1984 amendments to the Revised Organic Act authorizing the
creation of a Virgin Islands Supreme Court. Importantly, several
of the strongest criticisms against application of the Chevron
doctrine, even if credited, would not preclude similar deference
being granted to territorial governments. See, e.g., Aurelius
Investment, LLC, 915 F.3d at 852 (explaining that the
nondelegation doctrine would not preclude substantial delegation
of power from Congress to territorial governments).

57a
for deference to the decisions of the United States Tax
Court with respect to its interpretation of federal tax
laws. Dobson v. Comm’r, 320 U.S. 489, 502 (1943)
(holding that decisions of the United States Tax Court
must stand absent “a clear-cut mistake of law” and
that “[w]hile its decisions may not be binding
precedents for courts dealing with similar problems,
uniform administration would be promoted by
conforming to them where possible.”); Vukasovich, Inc.
v. Comm’r, 790 F.2d 1409 (9th Cir. 1986) (holding that
judgments of the Tax Court “in its field of expertise are
always accorded a presumption that they correctly
apply the law”). The Supreme Court of the United
States has even declined to exercise supervisory power
over the United States District Court of the Virgin
Islands in a case involving a federal issue that was
nevertheless intertwined with what was primarily a
local interest. Barnard v. Thorstenn, 489 U.S. 546,
551-52 (1989).
¶38 The granting of such deference to arms of the
Government of the Virgin Islands’ interpretation of the
Revised Organic Act with respect to purely local issues
is consistent with the rules of construction that the
United States Court of Appeals for the Third Circuit
has utilized to interpret the Revised Organic Act. In
one of its very first decisions requiring an
interpretation of the then-newly-enacted Revised
Organic Act, the Third Circuit had to determine
whether the Virgin Islands Legislature was authorized
to direct one of its legislative committees to institute
an investigation of the expenditures of the Executive
Branch—even though at the time the Executive
Branch was presided over by a governor appointed by

58a
the President of the United States and confirmed by
the United States Senate—and allow that
investigation to continue even after the Legislature
adjourned sine die. Before conducting any analysis, the
Third Circuit noted that “a lawyer-like opinion might
be drafted pointing to the conclusion that Congress
must have ‘intended’, in passing the Revised Organic
Act, to withhold this investigatory power” because it
failed to explicitly grant such power. In re Fin. Comm.
of Legislature, 242 F.2d 902, 903 (3d Cir. 1957).
However, the Third Circuit concluded that the failure
of Congress to expressly grant a power in the plain text
of the Revised Organic Act was not grounds for holding
that it intended to withhold the power. Rather, the
Third Circuit held that in the absence of language that
conclusively resolves the issue, “we are inclined to
adopt an interpretation which we believe to be more in
harmony with the declared purpose of the Congress to
‘give a greater degree of autonomy, economic as well as
political, to the people of the Virgin Islands.’ “33 Id.
33

That Congress unambiguously intended for each successive
organic act to provide the Virgin Islands with greater autonomy
than the last is fatal to any claim that the 1968 amendments to
the Revised Organic Act—enacting the last paragraph of section
3—effectively made the Bill of Rights provisions of the Revised
Organic Act coextensive with similar provisions in the Bill of
Rights of the United States Constitution, given that the
guarantees of equal protection and due process found in the
Revised Organic Act were modelled [sic] after state constitutions
that routinely conferred greater equal protection and due process
rights than under the United States Constitution. In addition to
rendering the Bill of Rights provisions mere surplusage—a highly
disfavored practice—the dissent’s interpretation of the 1968
amendments would effectively overrule the precedent that the
United States Bill of Rights “has been supplemented in the Virgin

59a
(quoting S. Rep. No. 1271, 83rd Cong., 2d Sess., April
29, 1954, 2 U.S. Code Cong. & Ad. News 2586).
Perhaps most importantly, the Third Circuit
emphasized the “contemporaneous interpretation” of
the pertinent provision of the Revised Organic Act by
the Legislature, and further held—similar to what
would later be known as Chevron deference—that “in
a doubtful case the interpretation given to the Act by
such agencies is entitled to considerable respect.” Id.
(citing Fleming v. Mohawk Co., 331 U.S. 111, 116
(1947)). Accord, Romero v. Int’l Terminal Operating
Co., 358 U.S. 354, 365 n.20 (1959) (“[J]urisdictional
statutes are not to be read literally, and are not to be
construed as abstract collections of words, but derive
their meaning from their setting in history and
practice, with due regard to the consequences of the
construction given them.”)
¶39 Given this overwhelming authority, we cannot
discern any legitimate reason for why Congress would
wish to withhold equivalent authority from the
Judicial Branch of the Virgin Islands with respect to
the provisions of the Revised Organic Act that are of
purely local concern and are within the jurisdiction of
the local courts to administer. That Congress specified
in the Revised Organic Act that the relations between
the courts of the Virgin Islands and the courts of the
United States shall be the same as that of the
relationship between the courts of the fifty states and
the courts of the United States, see 48 U.S.C. § 1613,
Islands” by the Bill of Rights of the Revised Organic Act,
Leguillou, 115 F. Supp. at 396, by effectively displacing the local
Bill of Rights

60a
and the Supreme Court of the United States has
expressly granted equivalent deference to other
non-Article III courts with respect to their
interpretations of federal statutes that are within their
authority to administer, is impressive evidence that
Congress did in fact intend for this Court to exercise
the authority to independently interpret the provisions
of its de facto constitution34 that are of purely local
34

While both federal and local courts have repeatedly
described the Revised Organic Act as the “de facto constitution”
for the Virgin Islands, the reason for referring to the Revised
Organic Act in such terms has not been fully explained. The
phrase “de facto” means “actual; existing in fact.” See Wolf v.
Gardner, 386 F.2d 295, 299 n.2 (6th Cir. 1967); In re Parentage
of M.F., 228 P.3d 1260, 1276 (Wash. 2010). Thus, describing the
Revised Organic Act as the “de facto constitution” of the Virgin
Islands should not in any way imply that it is any less of a
constitution than—for instance—the Constitution of Puerto Rico.
Characterizing the Revised Organic Act—as well as its
predecessor, the Organic Act of 1936—as a “de facto constitution”
is supported by the historical record. Although several other
insular territories became part of the United States involuntarily
as spoils of war, the population of the Virgin Islands supported
becoming part of the United States. While the Virgin Islands
officially became part of the United States upon their purchase
from Denmark on March 31, 1917, an unofficial referendum on
the sale of the islands to the United States passed with a vote of
4,727 in favor and only seven against. Isaac Dookhan, Changing
Patterns of Local Reaction to the United States Acquisition of the
Virgin Islands, 1865-1917, 15 CARIBBEAN STUDIES 50, 69
(1975). See also N.Y. TIMES, Aug. 18, 1916, p.1, col. 5. And on
August 24 and 28, 1916, respectively, the elected Colonial
Councils of St. Thomas-St. John and St. Croix unanimously
passed resolutions in support of annexation of the islands by the
United States. Dookhan, 15 CARIBBEAN STUDIES at 69. Thus,
the people of the Virgin Islands—whether directly through the
unofficial referendum, or indirectly through their duly-elected

61a
concern, including the Virgin Islands Bill of Rights.35
local government—had in fact overwhelmingly supported their
change in political status.
But perhaps even more importantly, the Organic Act of 1936
and the Revised Organic Act were not unilaterally imposed on the
Virgin Islands by Congress. When Congress first considered
establishing a permanent government for the Virgin Islands, the
Chair of the Senate Committee on Territories and Insular
Possessions—Senator Millard E. Tydings—rejected a draft
o r g an ic ac t th at h ad be e n p r e p a r e d by th e
Presidentially-appointed governor, and instead demanded that
another bill be drafted “which would meet with approval of the
local people.” U.S. House of Representatives, Committee on
Insular Affairs, Hearings on H.R. 11751 to Provide a Civil
Government for the Virgin Islands of the United States, 74th
Cong., 2d sess. (1936), p.1. In response, the two
democratically-elected Virgin Islands legislatures existing at that
time drafted the bill that would, with only minor changes,
eventually become the Virgin Islands Organic Act of 1936.
WILLIAM W. BOYER, AMERICA’S VIRGIN ISLANDS: A
HISTORY OF HUMAN RIGHTS AND WRONGS 185-86 (2d ed.
2010). In other words, the first charter and de facto constitution
of the Virgin Islands, which includes the Bill of Rights provisions
at issue in this case, was not solely drafted by Congress, but
was—like the Constitution of Puerto Rico and the CNMI
Constitution—drafted by representatives elected directly by the
people of the Virgin Islands, and then subsequently approved by
Congress.
Likewise, the adoption of the Revised Organic Act and the
subsequent amendments thereto had also not been initiated
unilaterally by Congress. Rather, those enactments were spurred
by local referendums on several subjects, including a desire to
combine the two legislatures into a single legislature. Id. at 234.
In other words, like the Constitution of Puerto Rico, both the
Virgin Islands Organic Act of 1936 and the Revised Organic Act
of 1954 were adopted with the consent of the people of the Virgin
Islands either directly or through their democratically-elected
representatives and then made official through the acquiesce of
Congress.

62a
¶40 For these reasons, we conclude that this Court
has the power to interpret the equal protection and due
process clauses found in the Bill of Rights to the
Revised Organic Act in accordance with how those
provisions have been interpreted by state courts of last
resort interpreting their state bills of rights.36 The Bill
of Rights provisions in the Revised Organic Act are
local law rather than federal law, in that though
enacted by Congress, the protections apply only within
the borders of the Virgin Islands and were never
designed to have general protection throughout the
35

Notably, the Revised Organic Act itself provides that any
statutes enacted by the Virgin Islands Legislature which are
inconsistent with it shall not have any force or effect. 48 U.S.C.
§ 1574(c). As a practical consequence of the 1984 amendments
authorizing the expansion of the jurisdiction of Virgin Islands
local courts and the corresponding divestment of jurisdiction from
the United States District Court of the Virgin Islands, the
overwhelming majority of cases implicating exclusively local
interests—including those in which the validity of a statute is
called into question—are necessarily filed in the Superior Court
of the Virgin Islands in the first instance and reviewed on appeal
by this Court. See Vooys v. Bentley, 901 F.3d 172, 193 (3d Cir.
2018) (noting that “as of 2014, there were over 6,000 pending
cases in the Virgin Islands courts”).
36

We disagree with the dissent’s characterization of this
holding as “revolutionary,” for as we have set forth above, it is a
natural extension of numerous decisions rendered by the
Supreme Court of the United States, the federal courts of appeals,
and other courts over the past century. And while it may be true
that no court has had occasion to interpret the equal protection
clause of any territory’s bill of rights, “[t]he absence of an ‘all
fours’ decision need not dismay us” because “[t]here must always
be a first time for every legal rule,” for “[t]hat is the way the law
grows.” Kroese v. General Steel Castings Corp., 179 F.2d 760, 765
(3d Cir. 1950).

63a
United States. Rubert Hermanos, Inc., 309 U.S. at
549-50. The legislative history reflects that Congress
modelled [sic] the Bill of Rights after state
constitutions, and not on the United States
Constitution.37 Congress—both at the time it originally
adopted the Virgin Islands Bill of Rights, as well as
when it amended section 3 in 1968 to incorporate the
Fifth and Fourteenth Amendments—was certainly
aware of how state courts of last resort had interpreted
provisions in their state bill of rights differently than
the United States Constitution.38 Gerace, 65 V.I. at
37

It is for this reason that we reject the proposition that
treating the Virgin Islands Bill of Rights as a territorial law
would do nothing to advance this case. Congress, in modelling the
equal protection clause in the Virgin Islands Bill of Rights after
similar provisions in state constitutions, has manifested an intent
for the equal protection clause of the Virgin Islands Bill of Rights
to be interpreted similarly to how such clauses have been
interpreted by state supreme courts interpreting similar or
identical provisions in their state constitutions. As we explain in
the following section, the vast majority of state supreme courts
have interpreted the equal protection clauses of their state
constitutions to require heightened rational basis review, a
significantly higher standard than that used by the United States
Supreme Court to interpret the equal protection clause of the
United States Constitution.
38

The dissent repeatedly attempts to distinguish our
interpretation of the Virgin Islands Bill of Rights from a state
court interpreting a state constitution because the Revised
Organic Act was not popularly ratified. As explained earlier, we
do not believe this is an appropriate characterization, given the
legislative history demonstrating that the critical provisions of
the Organic Act of 1936 and the Revised Organic Act were either
drafted by locally-elected officials or approved by local
referendum. However, whether the Virgin Islands Bill of Rights
was popularly ratified is ultimately irrelevant to the question of

64a
305. And in enacting the 1968 amendments to section
3 to extend the Fifth and Fourteenth Amendments to
the Virgin Islands, Congress chose not to repeal the
Revised Organic Act’s equal protection and due process
clauses, even though that language is also found in
section 3. The logical inference from this action is that
Congress intended for the enumerated provisions in
the Virgin Islands Bill of Rights to serve as the
equivalent of a bill of rights to a state constitution,
notwithstanding the extension of certain federal
constitutional rights to the Virgin Islands.39 See
whether that Bill of Rights constitutes a law of the Virgin Islands
or a law of the United States. The organic acts and federal
statutes at issue in Pridgeon, Friday, Linford, Hopkins, Rubert
Hermanos, Pernell, and Key were all unilaterally imposed on the
pertinent territories and the District of Columbia by Congress
without a popular vote, and yet in each instance the Supreme
Court of the United States deferred to the local court’s
construction of the federal enactment.
39

This Court, in one of its earliest decisions, interpreted a
provision in the Virgin Islands Bill of Rights as “mandat[ing] that
Virgin Islands judges grant bail in sufficient sureties to all
defendants other than those charged with first degree murder
where the proof is evident or the presumption great.” Tobal v.
People, 51 V.I. 147 (V.I. 2009). In reaching this conclusion, this
Court relied on decisions of state courts of last resort interpreting
similar or identical language in their state constitutions.
However, the Excessive Bail Clause of the Eighth Amendment to
the United States Constitution has been interpreted by the
Supreme Court of the United States to permit preventive
detention and otherwise withhold bail if the court fears that the
accused is a danger to the community. United States v. Salerno,
481 U.S. 739 (1997). Thus, our holding in Tobal that the Virgin
Islands Bill of Rights provides greater protection than the
Excessive Bail Clause of the Eighth Amendment is wholly
inconsistent with the dissent’s conclusion that the extension of

65a
Haynes v. Ottley, 61 V.I. 547, 564 (V.I. 2014)
(recognizing that the rules of statutory construction
presume that when a legislative body adopts a law, the
intent is for the entire statute to be effective). To hold
otherwise would effectively write those clauses out of
the Revised Organic Act’s Bill of Rights.40 See Duggins,
certain federal constitutional rights to the Virgin Islands through
the 1968 amendments to the Revised Organic Act made the
provisions in the Virgin Islands Bill of Rights coextensive with
the rights afforded in the United States Bill of Rights.
40

We note that the portion of the 1968 amendments to the
Revised Organic Act which, among other things, extended the
pertinent provisions of the Fourteenth Amendment to the Virgin
Islands, also provided that:All laws enacted by Congress with
respect to the Virgin Islands and all laws enacted by the
territorial legislature of the Virgin Islands which are inconsistent
with the provisions of this subsection are repealed to the extent
of such inconsistency.Public Law 90-496, § 11 (emphasis added).
While the use of the word “subsection” could potentially imply
that the earlier language in the Bill of Rights—which is found in
the same section as the 1968 amendment—was implicitly
repealed, a footnote was added to the pertinent language in the
United States Code reflecting that this was a typographical error,
and that Congress intended to use the word “section” rather than
“subsection.” See 48 U.S.C. § 1561 n.2. With that clarification
made, it is clear that Congress did not intend for this clause to
repeal any earlier portions of section 3 itself—such as the equal
protection clause of the Bill of Rights—but only to repeal other
statutes that were inconsistent with section 3. See Murrell v.
People, 54 V.I. 338, 354-55 (V.I. 2010) (noting that the repealer
language of the 1968 amendments had implicitly repealed 48
U.S.C. § 1616, given its inconsistency with the Sixth Amendment
of the United States Constitution) (citing Gov’t of the V.I. v.
Parrott, 476 F.2d 1058, 1060 (3d Cir. 1973)); Browne v. People, 50
V.I. 241 (V.I. 2008) (applying “bailable by sufficient sureties”
language found in the Bill of Rights portion of section 3
notwithstanding the extension of the Eighth Amendment to the

66a
56 V.I. at 3 02 (“When interpreting statutes, we must
read the statute, to the extent possible, so that no one
part makes any other portion ineffective.”) (citing
Gilbert, 52 V.I. at 356). Consequently, we conclude that
the equal protection and due process clauses of the
Virgin Islands Bill of Rights have meaning
independent of the equal protection and due process
clauses found in the Fifth and Fourteenth
Amendments to the United States Constitution,41 and
may be interpreted by this Court in the same manner
as a state court of last resort interpreting a provision
in a state constitution’s bill of rights.42
Virgin Islands through the 1968 amendments to section 3).
41

We emphasize that our holding in this regard is limited
solely to the Virgin Islands Bill of Rights found in section 3 of the
Revised Organic Act, and not to each and every provision of the
Revised Organic Act. Like the Guam Organic Act, certain
provisions in the Revised Organic Act affect the rights and
obligations of the federal government in relation to the Virgin
Islands, and thus are not provisions of purely local concern.
Limtiaco, 549 U.S. at 492.
42

In reaching this decision, we do not question the authority
of the Supreme Court of the United States to adopt a contrary
interpretation of the Revised Organic Act, if it were to exercise its
discretion to do so. While the United States Supreme Court has
emphasized that it will grant deference to the District of
Columbia Court of Appeals, the Supreme Court of Guam, the
United States Court of Appeals for the Armed Forces, and other
courts with respect to their interpretation of federal enactments
within their jurisdiction, it has nevertheless found that such
“Congressional Acts ... like other federal laws, admittedly come
within this Court’s Art[icle] III jurisdiction, and we are therefore
not barred from reviewing the interpretations of those Acts [by
the non-state court of last resort] in the same jurisdictional sense

67a
D. Equal Protection Clause of the Revised
Organic Act
¶41 On its face, section 555 clearly implicates the
equal protection clause of the Virgin Islands Bill of
Rights, in that it treats certain classes of people
differently based on their characteristics. Individuals
who suffer injuries due to automobile accidents are
treated less favorably than other personal injury
victims. For example, had Balboni fallen into an open
hole on the same sidewalk and suffered identical
injuries, Virgin Islands law would not preclude him
from seeking unlimited non-economic damages against
the contractor or any other responsible party. But
because Balboni was hit by an automobile, section 555
precludes him from obtaining more than $100,000 in
noneconomic damages. Likewise, section 555 treats
victims of automobile accidents differently depending
on the severity of their injuries. While an individual
who receives a minor injury after being hit by an
automobile—such as a mere ankle sprain—may fully
recover all of their noneconomic damages, an
individual such as Balboni who has undergone
that we are barred from reconsidering a state court’s
interpretation of a state statute.” Pernell, 416 U.S. at 368.
Although we can discern no reason why this Court should not be
granted the same deference provided by the United States
Supreme Court to the District of Columbia Court of Appeals, the
Supreme Court of Puerto Rico, the Supreme Court of Guam, and
other non-Article III courts, we recognize that such deference is
a matter of discretion rather than jurisdiction. See Guerrero, 290
F.3d at 1216 (rejecting argument that the Guam Supreme Court,
and not the United States Supreme Court, has the “final
construction” over the territorial bill of rights found in the Guam
Organic Act).

68a
multiple surgeries and claims “unimaginable” harm “is
only able to collect [$100,000, which is] a fraction of
what he might otherwise be awarded” and will “never
be made whole.” (Appellant’s Br. 5.)
¶42 That section 555 treats classes of individuals
differently, so as to implicate the equal protection
clause of the Virgin Islands Bill of Rights, is only the
very first part of our analysis. While several courts
have acknowledged that the equal protection clause of
the Virgin Islands Bill of Rights, providing that “[n]o
law shall be enacted in the Virgin Islands which shall
... deny to any person therein equal protection of the
laws,” 48 U.S.C. § 1561, is a distinct substantive
enactment from the equal protection clause of the
Fourteenth Amendment, see, e.g., Brown, 7 V.I. at 551,
no court has set forth what standard a Virgin Islands
court must apply to determine whether a Virgin
Islands statute violates this provision. Nevertheless,
this Court is not without guidance. To determine the
meaning of the “bailable by sufficient sureties”
clause—another provision of the Virgin Islands Bill of
Rights—this Court considered how other state courts
of last resort had interpreted similar or identical
language in their state constitutions. See Browne, 50
V.I. at 259. Therefore, to guide our analysis, we
consider what legal standard other state courts of last
resort have applied in the context of interpreting the
equal protection clause of their state constitutions.
¶43 State courts of last resort have almost-uniformly
interpreted their state equal protection clause to confer
greater rights than the federal equal protection clause,
with 46 states expressly adopting a more stringent

69a
test.43 This was the case even before Congress adopted
the predecessor to the Revised Organic Act’s equal
protection clause as part of the Organic Act of 1936.
See W.F. Dodd, Implied Powers and Implied
Limitations in Constitutional Law, 29 YALE L. J. 137,
159-60 (1919) (“Of express limitations in state
constitutions, the general ones of most importance,
those of ‘due process’ and ‘equal protection,’ have in a
number of states been applied by state courts with
much more strictness than has the Fourteenth
Amendment by either federal or state courts.”).
¶44 While states courts of last resort have generally
endorsed the tiered-scrutiny approach utilized by the
Supreme Court of the United States to adjudicate
federal equal protection claims,44 they have
overwhelmingly rejected the test the United States
Supreme Court applies for the lowest tier of scrutiny:
rational basis review. To satisfy rational basis review
under federal equal protection, the statute need only
further a legitimate state interest. See Minnesota v.
Clover Leaf Creamery Co., 449 U.S. 456, 461 (1981).
However, federal rational basis review has been
criticized as being a “virtual rubber-stamp of truly
43

44

See KUSHNER, supra note 18, at § 1.7 (collecting cases).

Under this standard, a court applies strict scrutiny when a
statute implicates a fundamental right or discriminates against
a suspect class, applies intermediate scrutiny when a statute
implicates a non-fundamental right or discriminates against
certain non-suspect classes such as gender or alienage, and
applies rational basis review in all other cases. See Turner
Broadcasting System, Inc. v. FCC, 512 U.S. 622, 662 (1994); Clark
v. Jeter, 486 U.S. 456, 461 (1988); City of New Orleans v. Dukes,
427 U.S. 297 (1976).

70a
minimal review,” LAURENCE H. TRIBE, AMERICAN
CONSTITUTIONAL LAW § 16–32, at 1610 (2d. ed.
1988)). Consequently, many state courts of last resort
have substituted for rational basis review a higher
standard, often described as “heightened rational
basis,” “rational basis with bite,” or “rational basis with
teeth.” While rational basis review under the equal
protection clause of the United States Constitution is
highly deferential and requires a challenger to “negate
every conceivable basis that might support” the
classification, see McIntosh v. People, 57 V.I. 669, 686
n.15 (V.I. 2012), heightened rational basis review
under state equal protection clauses is substantially
less deferential, and requires a court to analyze the
actual justification for the statute, rather than engage
in speculation by considering any and all possible
reasons for its enactment. See, e.g., State v. Garcia, 683
N.W.2d 294, 299 (Minn. 2004) (“The key distinction
between the federal and Minnesota tests is that under
the Minnesota test we have been unwilling to
hypothesize a rational basis to justify a classification,
as the more deferential federal standard requires.
Instead, we have required reasonable connection
between the actual, and not just the theoretical, effect
of the challenged classification and the statutory
goals.”) (internal quotation marks omitted); Ferdon ex
rel. Petrucelli v. Wisconsin Patients Comp. Fund, 701
N.W.2d 440, 460 (Wisc. 2005) (“ ‘Rational basis with
teeth’ ... focuses on the legislative means used to
achieve the ends. This standard simply requires the
court to conduct an inquiry to determine whether the
legislation has more than a speculative tendency as the
means for furthering a valid legislative purpose.”);

71a
Rodriguez v. Brand West Dairy, 378 P.3d 13, 25 (N.M.
2016) (noting that the “ ‘modern articulation’ of the
rational basis test” adopted by the New Mexico
Supreme Court “requires the challenger to
demonstrate that the classification created by the
legislation is not supported by a firm legal rationale or
evidence in the record”) (internal quotation marks
omitted).
¶45 While the precise legal standard for heightened
rational basis review has been given many different
articulations by courts, scholars who have reviewed the
case law have identified three types of heightened
rational review analysis:
(1) “ends analysis,” in which classifications have
been invalidated for seeking impermissible
purposes;
(2) “means analysis,” in which the constitutional
deficiency arises from the lack of a sufficient
connection between the governmental
classification and legitimate purposes; and
(3) “combination analysis,” wherein the
classification was declared unconstitutional
because some of the governmental purposes
were impermissible and the classification was
insufficiently related to other legitimate
purposes.
Preston C. Green & Bruce D. Baker, Circumventing
Rodriguez: Can Plaintiffs Use the Equal Protection
Clause to Challenge School Finance Disparities Caused
by Inequitable State Distribution Policies?, 7 TEX. F.
ON C.L. & C.R. 141, 159 (2002) (citing Robert C.

72a
Farrell, Successful Rational Basis Claims in the
Supreme Court from the 1971 Term Through Romer v.
Evans, 32 IND. L. REV. 357, 370 (1999)). If a statute
fails review under ends analysis, means analysis, or
combination analysis, the statute will fail heightened
rational basis review.
¶46 We agree, for the reasons articulated by other
state courts of last resort that have considered the
issue noted above, that heightened rational basis
review represents the appropriate standard for
determining the validity of a Virgin Islands statute
under the equal protection clause of the Virgin Islands
Bill of Rights. Therefore, we turn to the final part of
our analysis: whether the $100,000 cap on
non-economic damages codified in section 555 survives
heighted rational basis review.45
¶47 Several state courts have had the opportunity to
apply this heightened rational basis standard to
statutes imposing caps on damages in certain types of
cases. Under this standard, the factor typically found
to be determinative is whether the damages cap is
reasonable given the legislative purpose identified by
the government. See, e.g., Moore v. Mobile Infirmary
45

Thus, we do not find persuasive the decision of the United
States Court of Appeals for the Third Circuit in Davis v.
Omitowoju, 883 F.2d 1155 (3d Cir. 1989)—in which it held that
a Virgin Islands statute imposing a cap on non-economic damages
in medical malpractice cases did not violate the equal protection
clause of the Fourteenth Amendment—since that decision was
predicated on applying the significantly more deferential rational
basis standard, rather than the heightened rational basis
standard we adopt to review claims under the equal protection
clause of the Virgin Islands Bill of Rights.

73a
Ass’n, 592 So.2d 156, 166 (Ala. 1991); Johnson v. St.
Vincent Hospital, Inc., 404 N.E.2d 585, 597 (Ind. 1980);
Mayo v. Wisconsin Injured Patients & Families Comp.
Fund, 914 N.W.2d 678, 692 (Wisc. 2018); Carson v.
Maurer, 424 A.2d 825, 830 (N.H. 1980); Prendergast v.
Nelson, 256 N.W.2d 657, 667-68 (Neb. 1977) (quoting
Taylor v. Karrer, 244 N.W. 2d 201 (Neb. 1976)).
However, unlike federal rational basis review, courts
are not obligated to simply take the government at its
word; rather, courts are authorized to disregard
justifications that are speculative, or that are too
attenuated or otherwise fail to demonstrate an actual
connection between the damages cap and the
legislative purpose. See, e.g., Ferdon, 701 N.W.2d at
460; Garcia, 683 N.W.2d at 299.
¶48 In their briefs, Ranger American and the
Government cite to both federal and state case law
with respect to Balboni’s equal protection challenge.
Because the federal cases are inapposite to our inquiry,
due to the different standard of review we apply to an
equal protection claim under the Virgin Islands Bill of
Rights,46 we look to the state cases in which courts
have applied the heightened rational basis review
standard.
¶49 Applying the heightened rational basis
standard, courts have consistently upheld damage caps
against equal protection challenges when the
46

For example, Ranger American relies on the Third Circuit’s
decision in Davis rejecting a challenge under the equal protection
clause of the Fourteenth Amendment to a damages cap in the
Virgin Islands Medical Malpractice Act. But as noted earlier, this
decision did not apply heightened rational basis review.

74a
government has pointed to clear legislative findings as
to the purpose of the legislation—combined with at
least a modicum of evidence indicating that the cap
serves that purpose—but have not hesitated to hold
such statutes unconstitutional in the absence of a clear
legislative purpose, or when the connection between
the cap and the legislative purpose is based on pure
speculation. For example, the Wisconsin Supreme
Court recently upheld, on state equal protection
grounds, the constitutionality of a $750,000 cap on
non-economic damages in medical malpractice cases.
Mayo, 914 N.W.2d at 695. The Wisconsin Supreme
Court arrived at this decision by pointing to numerous
findings in the legislation itself—including the need to
contain health care costs—that were supported with
actuarial studies, documentary evidence, and
testimony demonstrating a connection between a cap
and that purpose. Id. at 693. Significantly, the
Wisconsin Supreme Court emphasized that the
legislature did not arrive at the $750,000 cap on
non-economic damages arbitrarily, but deliberately
chose that number because it “is neither too high nor
too low to accomplish the goals of affordable and
accessible health care.” Id. at 694. Other courts have
upheld damage caps when similar demonstrations of
concrete linkage between the express purpose of
legislation and particular statutory terms with
targeted factual circumstances were present. See, e.g.,
Evans ex rel. Kutch v. State, 56 P.3d 1046, 1053
(Alaska 2002) (noting that legislative goals were
“explicitly stated” in the legislation, and that a damage
cap was directly related to the stated goals of
decreasing the costs of litigation, fostering a positive

75a
business environment, and encouraging personal
responsibility and self-reliance).
¶50 In contrast, just a decade earlier, the Wisconsin
Supreme Court had found unconstitutional a similar
$350,000 cap on non-economic damages because the
legislature had failed to show any reasonable
connection between a $350,000 cap and its stated
intention of reducing medical malpractice insurance
premiums. Ferdon, 701 N.W.2d at 468. Notably, the
Wisconsin Supreme Court had emphasized that the
$350,000 cap had been enacted in 1975, and that even
if evidence supported that cap then, the passage of
literally decades without amendment or
re-examination could render the cap invalid under
heightened rational basis review, for the need to
address “[a] past crisis does not forever render a law
valid.” Id. at 630. Other courts of last resort have held
damages caps to violate state constitutional equal
protection clauses in similar circumstances. See, e.g.,
North Broward Hosp. District v. Kalitan, 219 So.3d 49,
58 (Fla. 2017) (holding that $750,000 and $1,500,000
caps on non-economic damages failed heightened
rational basis review because the caps were arbitrary
and the claim that the caps were necessary to reduce
insurance premiums was speculative); Wright v.
Central Du Page Hosp. Ass’n, 347 N.E.2d 736 (Ill.
1976) (holding a $500,000 cap on medical malpractice
damages unconstitutional in the absence of any
evidence to support the claim that the cap was related
to the goal of lowering insurance premiums and
lowering medical care costs for all recipients of medical
care).

76a
¶51 We conclude that the cap on non-economic
damages codified in section 555 fails to satisfy
heightened rational basis review. Section 555 was
enacted as part of Act No. 6287—titled the “Short
Term Revenue Enhancement Act of 1999"—and
introduced in the 23rd Legislature as Bill No. 23-0082.
The very title of the enactment implies that the
Legislature found that such changes need only be short
term, or temporary, which calls into doubt the
reasonableness of continuing the cap 20 years later.
See Ferdon, 701 N.W.2d at 630 (“A past crisis does not
forever render a law valid.”). More importantly, except
for the implied finding in the title—and unlike the
damage caps found to be constitutional in other
jurisdictions—neither Bill No. 23-0082 nor Act No.
6287 contains any legislative findings whatsoever with
respect to any of its provisions, let alone any
pertaining to the non-economic damages cap codified in
section 555. Consequently, we can—at best—only
speculate as to why the 23rd Legislature sought to
create distinctions between classes of injured people by
enacting the cap.47
47

Ranger American speculates in its appellate brief that
section 555 “serves a similar purpose to other statutory
limitations on damages in the Virgin Islands, such as the
comparative fault statute (5 V.I.C. § 1451) and the $75,000
limitation on injury actions against the Virgin Islands Port
Authority (29 V.I.C. § 556).” (Appellee’s Br. 10.) However, we do
not see how any of these statutes are even remotely analogous to
section 555. The statute placing limitations on recovery against
the Virgin Islands Port Authority was enacted in accordance with
the provision of the Revised Organic Act that provides that “no
tort action shall be brought against the government of the Virgin
Islands ... without the consent of the legislature,” 48 U.S.C. §

77a
¶52 In their briefs, both the Government and Ranger
American maintain that the Legislature enacted
section 555 to stabilize the automobile insurance
market in the Virgin Islands. But as noted above, the
Legislature made no legislative findings to that effect
when it first enacted section 555.48 In fact, the
legislative history for Act No. 6287 contains absolutely

1541(b), with the Legislature granting such consent with respect
to the Port Authority contingent on damages being limited to
$75,000. And unlike section 555, the comparative fault statute
does not create distinctions between classes of injured people—in
that it applies equally to all plaintiffs with respect to all causes of
action—and in fact is not a “cap” at all.
48

Ranger American further asserts, without citing to any
legal authority, that section 555 “plays a similar role to worker’s
compensation statutes by limiting a plaintiff’s available recovery”
and noting that “[w]orker’s compensation statutes are routinely
found constitutional.” (Appellee’s Br. 10.) However, both federal
and state courts have repeatedly refused to draw analogies
between workers’ compensation statutes and damage caps,
because workers’ compensation statutes are fundamentally
different in that they “provide a quid pro quo” in which
“[w]orkers compensation statutes eliminate the claimant’s burden
of proving fault in return for protection to the employer.”
McBride v. General Motors Corp., 737 F.Supp. 1563, 1575 (M.D.
Ga. 1990); see also Kansas Malpractice Victims v. Bell, 757 P.2d
251, 259 (Kan. 1988) (rejecting reliance on case law upholding
workers’ compensation and no-fault insurance statutes because
the plaintiff receives nothing in return for the limitation on the
damages he may recover); Wright v. Central Du Page Hospital,
347 N.E.2d 736, 742 (Ill. 1976) (holding that the analogy to
workers’ compensation statutes fails because a cap on medical
malpractice damages does not provide any benefits to malpractice
victims and thus is not part of a quid pro quo).

78a
no discussion of the cap whatsoever,49 let alone any
evidence that would tend to show a connection between
establishing a cap on non-economic damages and
making automobile insurance both available and
affordable.50
49

In its appellate brief, Ranger American states that “[t]he
Legislature passed the Act with the cap on non-economic
damages to encourage insurance companies to return to the
Virgin Islands market,” and as support cites a statement made by
Senator James during debate. (Appellee’s Br. 6-7.) However, the
statement from Senator James that Ranger American cites was
made as part of the debate on Bill No. 27-0149 nearly a decade
later, and thus cannot provide evidence of actual legislative
intent at the time the cap was instituted as required under
heightened rational basis review.
50

Ranger American incorrectly cites to a statement by
Senator Cole during the Committee on Finance hearing on Act
No. 6287, in which he states that he’s “glad that there’s a cap in
there,” and that he “hope[s] that the providers in this community,
insurance providers, will provide affordable insurance so we can
have the drivers and operators on the roads of the Virgin Islands
being insured against casualty and all of that sort.” (Appellee’s
Br. 7 (citing J.A. 123).) However, Ranger American neglects to
note that Act No. 6287 established multiple caps, and that
Senator Cole made this statement in response to a question he
directed to Senator David, as to whether “we’ll be able to hold
compulsory automobile insurance liability to a certain level that
we can afford to pay for it,” to which Senator David responded,
“[a]s the bill stands, Senator, it’s capped at three hundred dollars,
which it’s less than a dollar a day for insurance coverage.” (J.A.
122.) It is only in response to that statement by Senator David
that Senator Cole responded that he is “glad that there’s a cap in
there.” Consequently, it is clear that Senator Cole was not
speaking to the cap on non-economic damages in automobile
accident lawsuits, but was instead referencing a completely
unrelated cap on the cost of compulsory automobile insurance
policies.

79a
¶53 While there was no discussion of the cap when
Act No. 6287 was debated by the 23rd Legislature in
1999, such a discussion did take place in 2007 when
the 27th Legislature considered Act No.
6998—introduced as Bill No. 27-0149—which amended
section 555 to raise the cap on non-economic damages
from $75,000 to $100,000. Although no senator voted
against the measure, very different reasons were given
for their support of the bill. Senators James,
Figueroa-Serville, and Malone stated that eliminating
the cap would cause the insurance industry to collapse
or for premiums to rise but cited no evidence to support
that claim. (J.A. 311, 322.)
¶54 Those three senators, however, were the only
ones who cited concerns about the insurance industry
as the purported reason for the cap. Others expressed
support for caps on reasons that had nothing to do with
the insurance industry. For instance, Senator Ottley
stated that he supported the cap due to his belief that
non-economic damages are subjective and difficult to
calculate. (J.A. 325.) Similarly, Senator Jean-Baptiste
supported a cap because he “ha[s] known cases where
persons feigned all kinds of injuries and pains and
hardships, came into the courthouse, barely clothed,
got huge awards from a jury that were moved by the
act that was put on,” and then “shortly after they were
awarded huge awards, next thing you saw that person
running up and down the streets, driving cars,
climbing mountains and what have you, after having
feigned intense injury and pain.” (J.A. 347-48.)
Likewise, Senator Weber maintained that “the Virgin
Islands is known as the ‘plaintiff’s paradise’ “ even
with the cap, and implied that the only reason to

80a
remove the cap would be to provide a windfall for
certain attorneys. (J.A. 356.)
¶55 Senator Davis also believed a cap was necessary
to limit “greedy” personal injury attorneys whose
“purse[s] would [otherwise] be a little fatter” if “the
door [regarding non-economic damages] is [wide] open
and you can sue for whatever.” (J.A. 338.) Notably,
despite supporting a cap, Senator Davis stated that he
did not believe the cap influenced the insurance
industry, since he “do[es]n’t believe that the insurance
companies are going to write any insurance policy
beyond $100,000 unless you take out a special policy.”
(J.A. 338.)
¶56 In contrast, Senators Russell and Dowe stated
that they opposed the cap entirely, for reasons ranging
from the fact that the Virgin Islands judiciary is
equipped to handle excessive verdicts, to there not
being any evidence that the cap would have any effect
on the insurance industry. (J.A. 313, 336.) Still others,
such as Senators Hill, Wesselhoft, White, and
Williams, provided no reasons at all in support or
opposition to the cap.
¶57 The “ends analysis” and “combination analysis”
of the heightened rational basis standard require this
Court to consider the actual legislative purpose,
Garcia, 683 N.W.2d at 699, rather than the federal
practice of “negat[ing] every conceivable basis that
might support” the legislation even if the alternative
basis did not actually motivate the Legislature,
McIntosh, 57 V.I. at 686 n.15. Here, Ranger American
and the Government’s contention that the Legislature
enacted the cap in order to stabilize the automobile

81a
insurance market is—at best—pure speculation.
Neither Act No. 6287 nor Act No. 6998 contain any
legislative findings. No member of the 23rd Legislature
even mentioned the cap in the debate on Act No. 6287.
And while three members of the 27th Legislature
identified the insurance market as a reason for
continuing the cap, a larger number of senators
provided reasons that had absolutely nothing to do
with insurance. To the contrary, the debate on Act No.
6998 would equally support a finding that the
Legislature endorsed the cap out of an animus for
personal injury attorneys and plaintiffs—a clearly
illegitimate purpose. That many senators expressly
stated their animus towards these groups on the record
in justifying the cap in itself may cause the cap to fail
the “ends analysis” test of heightened rational basis
review, since such naked discrimination—even against
a non-protected class—is not a legitimate
governmental purpose. See United States Dep’t of
Agric. v. Moreno, 413 U.S. 528, 534-35 (1973) (holding,
with respect to a measure denying food stamps to
“hippies,” that “if the constitutional conception of
‘equal protection of the laws’ means anything, it must
at the very least mean that a bare congressional desire
to harm a politically unpopular group cannot
constitute a legitimate governmental interest”); Wesley
W. Horton & Brendon P. Levesque, Kelo is Not Dred
Scott, 45 CONN. L. REV. 1405, 1418 (2016) (noting
that “the rational-basis-with-a-bite test” provides that
“judges should look for warning signs—suspicion of
improper influence, backroom dealings, discrimination,
vague or hasty planning—that should force them to
take a closer look”) (citing Kelo v. New London, 545

82a
U.S. 469, 493 (2005) (Kennedy, J., concurring)). At a
minimum, the fact that a substantial minority of
senators were influenced by an improper purpose
would require a higher showing that the cap is related
to a legitimate purpose. But even if we were to accept
the contention that the Legislature enacted the cap on
non-economic damages for the legitimate purpose of
stabilizing the automobile insurance market, the cap
will only survive heightened rational basis review
under the “means analysis” and the “combination
analysis” if the cap is a reasonable method of
implementing that purpose. In other words, there must
be some actual connection (other than mere
speculation) between the cap actually selected and the
goal of stabilizing the insurance market. See
Rodriguez, 378 P.3d at 25; Ferdon, 701 N.W.2d at 460.
¶58 We conclude that there is no such connection
between the cap in section 555 and this goal, whether
under the more deferential “means analysis” test or the
more liberal “combination analysis.” As a threshold
matter, the amount of the cap on non-economic
damages—$75,000 as originally enacted by Act No.
6287, and $100,000 after the passage of Act No.
6998—is purely arbitrary, and is not based on any
studies, actuarial analysis, or other evidence.51 In fact,
Senator Malone—one of the three senators to suggest
the insurance market as the reason for the
cap—implied that such evidence had not yet been
considered, since he stated that “as we review the issue
more closely, as we look at the statistics, we can begin
51

It appears that the $100,000 cap on non-economic damages
is the lowest such cap in the United States.

83a
to justify over time, a steady increase if it’s warranted.”
(J.A. 363.) Compare North Broward Hosp. Dist., 219
So.3d at 58 (holding that a cap violated equal
protection when the amount of the cap was purely
arbitrary), with Mayo, 914 N.W.2d at 695 (holding that
a cap did not violate equal protection when legislative
findings established that the amount of the cap was
not an arbitrary number but was specifically chosen to
serve the legislative purpose).
¶59 More importantly, there is no evidence that a
cap on non-economic damages—in any amount—will
have any effect on the automobile insurance market in
the Virgin Islands. Virgin Islands law does not compel
insurance companies to issue unlimited insurance
policies. On the contrary, the statutes providing for
compulsory automobile liability insurance for private
passenger vehicles and motorcycles only require
minimum insurance coverage in the amount of $10,000
for bodily injury for one person, $20,000 for bodily
injury for two or more people, and $10,000 for property
damage.52 See 20 V.I.C. § 703. While insurance
companies may elect to issue policies in excess of these
amounts, such a decision is purely discretionary. See
20 V.I.C. § 704(d). As Senator Davis stated in the
debate on Act No. 6998, there is absolutely nothing
preventing an insurance company from simply refusing
to write an automobile insurance policy to cover
noneconomic damages greater than $100,000. Such a
52

The minimum compulsory insurance coverage is largely the
same for taxicabs, trucks, and buses, except that minimum
compulsory insurance for bodily injury for two or more persons
rises to $25,000 for taxicabs and trucks and $50,000 for buses. See
20 V.I.C. § 703.

84a
practice would have the same effect for the insurance
company as the statutory cap on non-economic
damages but would allow automobile accident victims
to seek redress from other responsible parties (such as
the vehicle’s driver) without negatively impacting the
insurance company. And such a result would be due to
the actions of private market actors, rather than
unsupportable discriminatory legislation enacted by
the government.
¶60 Given the lack of a sufficient connection between
the cap and the goal of making automobile insurance
available in the Virgin Islands, section 555 is invalid
under both the “means analysis” and “combination
analysis” tests. But our holding would remain the
same even if we were to accept—which we do not—that
a cap on non-economic damages could have a positive
effect on the automobile insurance market in the
Virgin Islands. Like other state courts to consider the
issue, “we fail to see how singling out the most
seriously injured [automobile accident] victims for less
than full recovery bears any rational relationship to
the Legislature’s allegedly stated goal of alleviating the
financial crisis in the [automobile] insurance
industry.”53 North Broward Hosp. Dist., 219 So.3d at
53

Additionally, as this case illustrates, the cap on
non-economic damages disproportionately places the burden of
stabilizing the automobile insurance market in the Virgin Islands
on individuals who do not participate in that market. Balboni is
not a resident of the Virgin Islands, but simply a visitor to the
Territory. Moreover, he was not injured as a result of driving a
vehicle on a Virgin Islands road; rather, he was a pedestrian who
was struck by a vehicle while walking on the sidewalk. We can
discern no rational reason why the burden of stabilizing the

85a
58 (internal quotation marks omitted). Importantly,
the only arguable justification for allocating this
burden to the most severely injured—that these
individuals contribute to a disproportionate amount of
the costs—does not withstand scrutiny, since “society,
through the courts, has developed a remedy to secure
itself from the ills of a ‘run-away’ jury that has
imposed a disproportionately high award,” in the form
of judicial review of the verdict.54 Brannigan v. Usitalo,
587 A.2d 1232, 1236 (N.H. 1991). For these reasons, we
conclude that the cap on non-economic damages
codified in section 555 violates the equal protection
clause of the Revised Organic Act, and therefore a
$100,000 cap on non-economic damages does not apply
to this case. Consequently, we reverse the portion of
the January 24, 2018 opinion in which the Superior
Court held that Balboni’s non-economic damages could
not exceed $100,000.55

market for automobile insurance in the Virgin Islands should be
disproportionately shouldered by pedestrians who have been
severely injured.
54

See Antilles School, 64 V.I. at 437-38 (noting that a
damages verdict may be set aside by a judge “if it is not supported
by sufficient evidence in the record, or if a reduction is compelled
under the United States Constitution”).
55

Because we conclude that section 555 is invalid pursuant to
the equal protection clause of the Virgin Islands Bill of Rights, we
need not decide whether it also violates the due process clause of
the Virgin Islands Bill of Rights, or if it is unconstitutional under
the Fifth, Seventh, or Fourteenth Amendments to the United
States Constitution.

86a
III. CONCLUSION
¶61 Although the Superior Court certified four
questions to this Court relating to whether section 555
violates the Fifth, Seventh, and Fourteenth
Amendments of the United States Constitution, the
doctrine of constitutional avoidance compels us to
examine whether Balboni may obtain the same
relief—a declaration that section 555 is
invalid—without resolving the federal constitutional
questions. Because the Virgin Islands Bill of Rights
guarantees a right to equal protection under the laws
that is separate and independent from the equal
protection clause of the Fourteenth Amendment, this
Court may analyze the validity of section 555 pursuant
to that provision. Since section 555 treats certain
classes of people differently but is not reasonably
related to a legitimate legislative purpose, we conclude
that the $100,000 cap on non-economic damages in
automobile accident cases violates the equal protection
clause of the Virgin Islands Bill of Rights. Accordingly,
we reverse the January 24, 2018 opinion and order,
and remand this matter to the Superior Court for
further proceedings.
Dated this 3rd day of June, 2019.

ATTEST:
VERONICA J. HANDY, ESQ.
Clerk of the Court
By: [signed]
Deputy Clerk

BY THE COURT:
[signed]
RHYS S. HODGE
Chief Justice

Dated: 6/3/19

87a
CABRET, Associate Justice, dissenting.
¶62 Because I disagree with the majority’s
determination that we have the authority to
independently interpret the provisions of section 3 of
the Revised Organic Act to provide greater protection
than the nearly identical provisions of the U.S.
Constitution—an issue that was neither raised by the
parties nor considered by the Superior Court—I
respectfully dissent. Specifically, I conclude that the
majority’s position is expressly foreclosed by
longstanding precedent of the Supreme Court of the
United Sates, highly persuasive precedent of the
federal circuit courts of appeal, and the previous
decisions of this Court. Furthermore, it is my opinion
that this line of cases, considered in light of the
relevant legislative history, compels the conclusion
that Congress intended for the due process and equal
protection clauses of section 3 to confer upon the people
of the Virgin Islands rights coextensive with the
analogous provisions of the Fourteenth Amendment;
and that this Court may not interpret these provisions
in any manner other than that provided by the
Supreme Court of the United States. Finally, I
conclude, like the trial court, that 29 V.I.C. § 555
withstands traditional rational basis scrutiny and does
not violate either the Fifth, Seventh, or Fourteenth
Amendment to the U.S. Constitution.
I. THE MAJORITY’S REFORMULATION OF
BALBONI’S ARGUMENT
¶63 Appellant Frederic Balboni argues that 20 V.I.C.
§ 555, which limits the recovery of non-economic
damages in motor vehicle collision cases to $100,000,

88a
violates the Fifth, Seventh and Fourteenth
Amendments of the U.S. Constitution, as applicable to
the Virgin Islands through the “bill of rights” found in
section 3 of the Revised Organic Act. After
unsuccessfully arguing at the trial court level that
section 555 is unconstitutional, Balboni moved the
Superior Court to certify several constitutional issues
for immediate interlocutory appeal to this court under
title 4, section 33(c) of the Virgin Islands Code.1 While
the Superior Court certified four questions to this
court, the majority chose to dispose of them by
reformulating the questions certified and only
considering whether section 555 violated the equal
protection and due process clauses of the Revised
Organic Act.

1

The Superior Court certified the following four questions to
this court regarding the constitutionality of Section 555:
(1) Whether 20 V.I.C. § 555 impermissibly invades into the
province of the jury in violation of the Seventh Amendment;
(2) Whether treating automobile accident victims differently
based upon the severity of their noneconomic injuries violates
the equal protection clause of the Fourteenth Amendment;
(3) Whether treating automobile accident victims and their
injuries differently from victims of other types of accidents
violates the equal protection clause of the Fourteenth
Amendment;
(4) Whether § 555 unconstitutionally infringes on Due
Process rights provided for in the Fifth and Fourteenth
Amendments made applicable through the Revised Organic
Act of 1954, including the substantive due process rights not
to be deprived [ ] arbitrarily of life, liberty or property.
(J.A. 19.)

89a
¶64 The majority argues that the inclusion of
separate due process and equal protection provisions in
section 3 of the Revised Organic Act reflects Congress’s
intent to empower this Court to interpret the Act—the
Territory’s de facto constitution—like a state would its
own constitution, including the authority to construe
the rights in the Act under a heightened standard of
review. After determining that this Court possesses the
power to depart from the federal interpretations of the
equal protection and due process clauses, the majority
relies on this theory of independent interpretation to
subject section 555 to a heightened rational basis
standard of review adapted from the jurisprudence of
various state courts of last resort. Under this
heightened standard of review, the majority concludes
that section 555 violates the equal protection clause of
section 3 of the Revised Organic Act.
¶65 As a threshold matter, I must strenuously object
to the majority’s decision to resolve this case on the
basis of an issue never raised by the parties and never
considered by the Superior Court: Whether this Court
may interpret the “bill of rights” provisions of the
Revised Organic Act as extending greater protection to
the people of the Virgin Islands than substantially
similar provisions of the United States Constitution.
The majority claims that “because the authorities
pertinent to our analysis of the “Bill of Rights”
provisions—such as the decisions of state courts of last
resort striking down caps on non-economic damages
pursuant to due process and equal protection clauses
found in state constitutions—were cited in Balboni’s
principal brief, “Ranger American and the Government
have had the opportunity to respond to these

90a
arguments in their response briefs, as well as at oral
argument.” This statement strains credulity. Reading
closely, one notices that the majority does not, and
indeed cannot, contend that Balboni argued that this
Court should apply the heightened standard of review
applied in the cited cases. Instead, the majority claims
only that Balboni cited certain cases pertinent to “our
analysis;” that is, the analysis of an issue raised by the
majority sua sponte, without the benefit of any
argument or briefing from any party. Yet incredibly,
the majority asserts that Balboni’s references to these
cases cited in support of an entirely different argument
somehow provided Appellees an opportunity to respond
to “these arguments,” that are in fact raised for the
first time, sua sponte, in the majority opinion.
¶66 Indeed, while some of the cases Balboni cited in
his brief featured state courts applying heightened
scrutiny to the provisions of their own state
constitutions to find similar caps unconstitutional,
Balboni never argued, either in his brief or at oral
argument, that we should adopt this type of
heightened standard. Rather, Balboni argues that we
should apply strict scrutiny because the right to a civil
jury trial is a fundamental right. (Appt’s Br. At 11).
Alternatively, Balboni argues that even if the right to
a jury trial is not a fundamental right, section 555 does
not withstand traditional rational basis test scrutiny
either, because it bears no rational relationship to a
permissible governmental purpose. (Appt’s Br. At 19).
Even in discussing state court cases striking down caps
as violative of their own equal protection clauses,
Balboni does not attempt to distinguish between
traditional, federal rational basis review and the

91a
heightened review applied by those state courts, let
alone affirmatively argue that this Court should adopt
such a heightened standard. At best it was “only
adverted to in a perfunctory manner [and]
unsupported by argument,” and should therefore be
considered waived under V.I. R. APP. P. 22(m).
¶67 Similarly, in its attempt to conjure from the
Revised Organic Act civil rights above and beyond
those guaranteed by the U.S. Constitution, the
majority claims that “Balboni does not limit his
arguments solely to the United States Constitution,”
but that he also argues “that section 555 is invalid
pursuant to the first sentence of the ‘Bill of Rights.’ “2
Nowhere in his appellate brief, however, does Balboni
even mention the separate guarantees of due process
and equal protection found in the opening lines of
section 3, let alone attempt to draw a distinction
between the protections afforded by these purportedly
separate rights to due process and equal protection and
those guaranteed by the Fourteenth Amendment as
applicable through the final paragraph of section 3.
While Balboni does assert in the first sentence of the
relevant section of his brief that “[s]ection 555 violates
the Equal Protection Clause of the Fourteenth
Amendment and The Revised Organic Act of 1954,”
this threadbare statement is a far cry from the
majority’s reformulation of the argument that the
Revised Organic Act contains a separate and distinct
2

“No law shall be enacted in the Virgin Islands which shall
deprive any person of life, liberty, or property without due
process of law or deny to any person therein equal protection of
the laws.” 48 U.S.C. § 1521

92a
due process clause imposing heightened requirements
beyond those of the Fourteenth Amendment.
(Appellant’s Br. at 17.) In my opinion, Balboni’s simple
assertion that the damage cap violates both the
Fourteenth Amendment and the Revised Organic Act,
stands for nothing more than the unremarkable
proposition that a violation of the Fourteenth
Amendment would, necessarily, constitute a violation
of the Revised Organic Act—the statute establishing
the applicability of the Fourteenth Amendment in the
Virgin Islands. This straight-forward interpretation of
Balboni’s position is supported by the concluding
sentence of his equal protection argument which prays
only that “this Court ... determine that section 555
impermissibly invades individual liberties in violation
of the Equal Protection Clause of the Fourteenth
Amendment,” with no mention of the either the
Revised Organic Act or any additional right found
therein. (Appellant’s Br. at 23.) In short, the idea that
the first sentence of section 3 imposes a separate
guarantee of due process and equal protection does not
originate from the parties and is simply another
argument raised sua sponte by the majority.3
3

The majority asserts that “Ranger American actually
responded to Balboni’s claims” and that this response “defeats any
claim that Balboni waived these issues, since Ranger American
effectively ‘waived waiver’ by responding on the merits.”
However, Ranger American’s brief, much like Balboni’s brief,
cites these state law cases considering challenges to damage cap
statutes only to establish the number of jurisdictions that have
upheld or struck down such statutes, with absolutely no
discussion of the heightened rational basis standard of review
applied by those courts, let alone any argument that this Court
should adopt that standard for the Virgin Islands.

93a
¶68 I have scoured the parties’ briefs in vain for any
mention of heightened rational basis review or other
language indicating the parties’ intent to argue that
this Court should—or should not—adopt a standard of
constitutional review from state courts that is yet
unknown in the law of the Virgin Islands. However,
this argument appears nowhere in the parties’ briefs
and is instead raised, for the first time, in the majority
opinion.4
¶69 Critically, the majority’s determination to focus
the decision upon such a novel, paradigm-shifting
issue sua sponte raises myriad due process and
fairness concerns. Brunn v. Dowdye, 59 V.I. 899, 905
(V.I. 2013) (“Since the Superior Court sua sponte
raised and adjudicated this issue in its October 20,
2009 Opinion, it committed error by depriving Brunn
of her right to be heard.”). We have consistently held
that it is error for a court to decide an issue raised sua
sponte without first providing all parties to the case
with notice and opportunity to be heard on the issue.
See, e.g., Malloy v. Reyes, 61 V.I. 163, 175 (V.I. 2014)
(“[R]ais[ing] and decid[ing] [an] issue sua sponte,
without providing notice to the parties or an
opportunity to brief this issue... in itself constitutes
error because in raising and deciding an issue without
providing notice or a chance to respond, the [court]
denie[s] [the parties their] right to be heard.”); Instead
of engaging in such judicial activism, we should
address the issues as presented to ensure that the
4

The parties’ briefs are available to the public through the
Court’s electronic docket at:
https://efile.visupremecourt.org/public/caseSearch.do

94a
parties have had the opportunity to brief and respond
to the issues and arguments upon which this Court
bases its decision. We should not strike down a statute
duly enacted by the Legislature on constitutional
grounds without the benefit of full adversarial briefing
and argument. See Whorton v. Dixon, 214 S.W.3d 225,
228 (Ark. 2005) (“This court will not strike down a
legislative act on constitutional grounds without first
having the benefit of a fully developed adversary
case.”). By depriving Appellees of any opportunity to be
heard on these novel and deeply important issues, the
majority deprives them of the guarantees of due
process from whatever source derived.5
¶70 However, even considering the majority’s
arguments on the merits, I still conclude this Court
lacks the authority to interpret the Revised Organic
Act as if it were a popularly ratified constitution rather
than a federal statute because the contrary
position—that adopted by the majority—is expressly
foreclosed by the cannons of statutory interpretation,
by the decisions of every federal appellate
court—including the Supreme Court of the United
States—that has considered the issue, and by the past
5

The majority invokes the doctrine of constitutional
avoidance to explain its sua sponte decision to engage in
independent interpretation of section 3 of the Revised Organic
Act. However, constitutional avoidance of this kind is only
possible if we assume from the outset that this Court has the
authority to engage in such independent interpretation. However,
as discussed below, the relevant decisions of the Supreme Court
of the United States, the federal circuit courts of appeal, and this
Court foreclose us from exercising such authority, and therefore
the doctrine of constitutional avoidance is not applicable to this
matter

95a
decisions of this Court.
II. SECTION 3 OF THE REVISED ORGANIC
ACT
¶71 The U.S. Virgin Islands is an unincorporated
territory of the United States established under Article
IV of the U.S. Constitution. U.S. CONST. Art. IV, § 3,
Cl 2. As an unincorporated territory, the Virgin Islands
enjoys the rights and privileges explicitly extended to
it by the U.S. Congress under its Article IV powers. Id.
(“The Congress shall have Power to dispose of and
make all needful Rules and Regulations respecting the
Territory or other Property belonging to the United
States.”). Virgin Islanders enjoy the protections of
some of the U.S. Constitution, but not all of the
protections afforded to U.S. citizens living in the
several states. Murrell v. People of the V.I., 54 V.I. 338,
350 (V.I. 2010); see also Balzac v. Porto Rico, 258 U.S.
298 (1922). And, even where Congress does not
explicitly confer rights by statute, certain fundamental
constitutional rights nonetheless extend to the Virgin
Islands. Examining Bd. of Eng’rs, Architects &
Surveyors v. Flores De Otero, 426 U.S. 572, 599 n.30
(1976); Balzac v. Porto Rico, 258 U.S. 298, 312-13
(1922); Terr. Court of the V.I. v. Richards, 673 F. Supp.
152, 158 (D.V.I. 1987) (“[O]nly the most fundamental
constitutional rights extend to this territory where
Congress is silent on the subject.”). While specific
protections of the U.S. Constitution extend to Virgin
Islanders, the territory lacks its own constitution on
similar footing with those of the several states or the

96a
Puerto Rico Constitution.6 Instead, the Virgin Islands’
government is organized under the Revised Organic
Act of 1954. 48 U.S.C. § 1561. This federal statute sets
forth the Territory’s governmental structure and
functions as its de facto constitution. Bryan v. Fawkes,
61 V.I. 201, 232 (V.I. 2014) (“[T]he Revised Organic Act
serves as the de facto constitution for the Virgin
Islands.”) (citing Todmann v. People, 57 V.I. 540, 546
(V.I. 2012)). Section 3 of this Act is titled the “Bill of
Rights” and outlines specific rights and prohibitions
applicable to the Territory. Id. at § 3. In 1968,
Congress amended his section also to explicitly extend
certain provisions and amendments of the United
States Constitution to the Virgin Islands. Id.
(extending “the first to ninth amendments inclusive;
the thirteenth amendment; the second sentence of
section 1 of the fourteenth amendment; and the
fifteenth and nineteenth amendments” to the Virgin
Islands).
¶72 While the Revised Organic Act of 1954 may
serve as the functional equivalent of a territorial
constitution, it remains a federal statute and is not a
popularly ratified constitution. Gov’t of the V.I. v.
Rivera, 333 F.3d 143, 145 (3d Cir. 2003). This is a
critical distinction, because while sovereign states are
free to interpret the provisions of their own
6

However, Congress has prescribed a path for the Territory
to enact its own constitution. See Act to Provide for the
Establishment of Constitutions for the Virgin Islands and Guam,
Pub. L. 94-584, 90 Stat. 2899 (1976). The Territory has yet to
adopt a constitution despite holding five constitutional
conventions to date. Hodge v. Bluebeard’s Castle, Inc., 62 V.I.
671, 682 n.4 (V.I. 2015).

97a
constitutions to impose heightened protections beyond
those found in the U.S. Constitution, we are bound to
interpret federal statutes according to the canons of
statutory construction, with the main purpose of giving
effect to Congress’s intent in enacting the statute. See
Guam v. Guerrero, 290 F.3d 1210, 1217 (9th Cir. 2002)
(“Not even a sovereign State may interpret a federal
statute or constitutional provision in a way contrary to
the interpretation given it by the U.S. Supreme
Court.”).
A. Controlling Authority
¶73 First, it is most telling that the majority, in its
lengthy, circuitous opinion, does not reference a single
decision in which a territorial high court—or federal
court sitting as high court of a territory—interpreted a
right conferred by Congress in an organic act to be
more protective than its analog in the U.S.
Constitution.7 Indeed, every federal appellate court to
consider the issue, including the Supreme Court of the
7

Of course, I recognize that Congress, in various organic acts,
has expressly conferred certain rights that have no analog in the
U.S. Constitution. For example, the Revised Organic Act provides
for a right to bail under most criminal charges despite the
absence of any similar protection in the U.S. Constitution. Tobal
v. People, 51 V.I. 147, 160 (2009) (“[S]ection 3 of the [Revised
Organic Act] mandates that Virgin Islands judges grant bail in
sufficient sureties to all defendants other than those charged with
first degree murder where the proof is evident or the presumption
great.”). But these cases are inapposite to the issue presented
here: whether Congress, in using phrases with well-defined
meanings in U.S. Constitutional law such as “due process” and
“equal protection” in the Revised Organic Act intended for those
phrases to carry that same meaning, or some other unknown
meaning to be later defined by the territorial courts.

98a
United States, has reached the opposite conclusion:
that when Congress uses well known constitutional
language in the bill of rights of a territorial organic act,
it intends that the protection afforded by that right be
coextensive with the protection afforded by its analog
in the U.S. Constitution.
¶74 In Guam v. Guerrero, 290 F.3d 1210 (9th Cir.
2002), the Ninth Circuit considered an issue nearly
identical to that raised by the majority in this case:
“whether the Supreme Court of Guam was within its
authority to interpret [its organic act] as providing
more protection for religious freedom than its federal
counterpart.” Id. at 1216. The structure of the bill of
rights of Guam’s organic act is nearly identical to that
of our own. Compare 48 U.S.C. § 1421b with 48 U.S.C.
§ 1561. In their original versions, each consisted
simply of a list of enumerated rights with no explicit
reference to the U.S. Constitution. However, in 1968
both provisions were amended to insert identical
language expressly extending the protections of certain
clauses of, and amendments to, the U.S. Constitution
to each territory. See Pub. L. No. 90-496, 82 Stat. 839
(1968). It is therefore unsurprising that Guerrero made
precisely the same argument propounded by the
majority in this case: that “subsection (u)... extends to
the people of Guam rights found in the federal
constitution—it is a floor below which the Guam
legislature cannot dip—whereas subsection (a) is
analogous to a free exercise clause found in a state
constitution that the Supreme Court of Guam may
interpret more broadly.” Guerrero, 290 F.3d at 1216.

99a
¶75 The Ninth Circuit’s reasoning in rejecting this
argument is worth repeating here:
Of course, Guam is not a state, has no locally
adopted constitution, and its “Bill of Rights” was
passed not by its citizens, but rather by
Congress. While § 1421b might function as a
constitution, Haeuser v. Dep’t of Law, 97 F.3d
1152, 1156 (9th Cir.1996) (“The Organic Act
serves the function of a constitution for Guam.”),
it remains quite unlike a constitution of a
sovereign State. Guam is a federal
instrumentality, enjoying only those rights
conferred to it by Congress, and its “Bill of
Rights” is a federal statute. Not even a
sovereign State may interpret a federal statute
or constitutional provision in a way contrary to
the interpretation given it by the U.S. Supreme
Court. We are powerless to delegate authority to
the Supreme Court of Guam to interpret
matters of federal law in a manner other than
that provided by the federal judiciary.
This principle is not newly minted. As far back
as 1904, the U.S. Supreme Court recognized
that local courts in the Philippines, which was
then under the control of a U.S. military
government, could not interpret the double
jeopardy clause in the statutory bill of rights
enacted by Congress for the Philippines
differently than the construction given by the
U.S. Supreme Court to its analogous provision
in the Fifth Amendment of the federal
Constitution. Kepner v. United States, 195 U.S.

100a
100, 123–24, 24 S.Ct. 797, 49 L.Ed. 114 (1904).
The Court said:
“These words [in the Philippines’s statutory bill
of rights] are not strange to the American
lawyer or student of constitutional history. They
are the familiar language of the Bill of Rights,
slightly changed in form, but not in substance,
as found in the first nine amendments to the
Constitution.... How can it be successfully
maintained that these expressions of
fundamental rights, which have been the
subject of frequent adjudication in the courts of
this country, and the maintenance of which has
been ever deemed essential to our government,
could be used by Congress in any other sense
than that which has been placed upon them in
construing the instrument from which they were
taken?” Id. (emphasis added).
The U.S. Supreme Court reaffirmed this
principle only six years later in Weems v. United
States, 217 U.S. 349, 30 S.Ct. 544, 54 L.Ed. 793
(1910), holding that the provision of the
Philippines’s statutory bill of rights that
prohibited the infliction of cruel and unusual
punishment must have the same meaning as the
Eighth Amendment of the federal Constitution.
Id. at 367, 30 S.Ct. 544; see also United States v.
Husband R., 453 F.2d 1054, 1058 (5th Cir.1971)
(holding that the “statutory bill of rights enacted
by Congress for an unincorporated territory
such as the Canal Zone is to be given the same
construction as that accorded the equivalent

101a
provisions of the Constitution”); South Porto
Rico Sugar Co. v. Buscaglia, 154 F.2d 96, 100
(1st Cir. 1946) (“When Congress by the Organic
Act enacted for Puerto Rico provisions similar to
those contained in our ‘Bill of Rights’ it intended
them to have the same purport as the like
provisions of our Constitution.”).
Id. at 1216-17.
¶76 Taken together, the Guerrero court observed,
these cases establish that “a territorial court lacks the
authority to interpret a federal statute or federal
constitutional provision contrary to the interpretation
the U.S. Supreme Court has given it.” Thus, the Ninth
Circuit held that “it was error for the Supreme Court
of Guam to conclude that ‘[d]espite the similarity of the
two provisions, [the Supreme Court of Guam] can
reach its own conclusions on the scope of the
protections of section 1421b(a) and may provide
broader rights than those which have been interpreted
by federal courts under the United States
Constitution.’ “ Id. at 1217.8
8

In People v. Moses, 2016 Guam 17, the Supreme Court of
Guam construed the Ninth Circuit’s Guerrero decision as “leaving
open the possibility that we could interpret the Organic Act to be
more protective, if the provision were substantively different than
the federal version.” Id. at 21. However, the court concluded that
the double jeopardy language of Guam’s Organic Act was “nearly
identical” to the language of the Fifth Amendment, and therefore
“fails to offer sufficient cause to recognize a source of greater
protection in our case law.” Id. Likewise, as discussed below, the
first sentence of the section 3 of the Revised Organic Act is nearly
identical to the analogous language of the Fourteenth
Amendment.

102a
¶77 Moreover, our own precedent addressing this
line of federal caselaw compels the same conclusion. In
Ward v. People, 58 V.I. 277 (V.I. 2013), the defendant
argued that Congress’ inclusion of the express
prohibition against double jeopardy in section 3 of the
Revised Organic Act was intended to confer a separate,
more protective right than that conferred by the Fifth
Amendment as applied to the Virgin Islands by the
final paragraph of section 3. We noted, however, that
such an interpretation was explicitly foreclosed by the
United States Supreme Court decision in Kepner cited
above. We further explained that “[s]ince the Gavieres
and Kepner decisions were issued before Congress
adopted the Revised Organic Act—and, in fact,
pre-date the transfer of the Virgin Islands to the
United States in 1917—we may infer that Congress, by
including this language in the Revised Organic Act
and being aware of how that same language had been
interpreted by the United States Supreme Court,
intended to reach the same result with respect to the
Virgin Islands.” Ward, 58 V.I. at 283-84; see also
Rodriguez v. Bureau of Corrections, 58 V.I. 367, 383
(V.I. 2011) (Hodge, J., concurring) (“It is appropriate to
presume that Congress intended that the meaning of
the habeas provision it included in our Revised
Organic Act would be consistent with the Supreme
Court’s interpretation of the habeas provision of the
U.S. Constitution.”) (citing United States v. Wells, 519
U.S. 482, 495 (1997) (presuming “that Congress
expects its statutes to be read in conformity with
[Supreme Court] precedents”)).
¶78 It is true that the U.S. Supreme Court has not
had occasion to interpret the equal protection clause of

103a
any territory’s statutory bill of rights, and therefore we
cannot infer that Congress had direct knowledge of any
specific interpretation of such language prior to the
enactment of section 3. However, we must infer that, at
the time of the enactment of section 3, Congress was
familiar, not merely with the final result of the
Supreme Court’s decision in Kepner, but also with the
principle of statutory interpretation upon which that
decision was based: that when Congress uses the
familiar language of the U.S. Bill of Rights in
fashioning a territory’s statutory bill of rights, it
intends to confer upon the people of that territory
rights coextensive with those enshrined in the
corresponding provisions of the U.S. Constitution. And
while Kepner, Guerrero, and Ward dealt with other
provisions of territorial bills of rights and did not
directly address the equal protection clause at issue in
this case, the principles of statutory construction
articulated in those cases are equally applicable here.
¶79 Just like Guam, or the Philippines at the turn of
the last century, the Virgin Islands “is not a state, has
no locally adopted constitution, and its “Bill of Rights”
was passed not by its citizens, but rather by Congress.”
See Guerrero, 290 F.3d at 1216. The Virgin Islands
remains a “federal instrumentality, enjoying only those
rights conferred to it by Congress, and its ‘Bill of
Rights’ is a federal statute.” See id. And just as in
Kepner, the Revised Organic Act’s guarantee that “
‘[n]o law shall be enacted in the Virgin Islands which
shall deprive any person of life, liberty, or property
without due process of law or deny to any person
therein equal protection of the laws,’ is hardly strange
to lawyers or students of constitutional law,” consisting

104a
of nothing more than “the familiar language of the Bill
of Rights, slightly changed in form, but not in
substance.” See Kepner, 195 U.S. at 123. Thus, binding
precedent from the Supreme Court of the United
States, persuasive precedent from the federal Circuit
Courts, and our own decision in Ward all compel the
same two conclusions: (1) that Congress intended for
the guarantees of due process and equal protection in
the first sentence of section 3 of the Revised Organic
Act to confer upon the people of the Virgin Islands
rights coextensive with those enshrined in the due
process and equal protection clauses of the Fourteenth
Amendment; and (2) that this Court lacks the
authority to interpret these provisions of the Revised
Organic Act in any manner other than that provided
by the Supreme Court of the United States.
B. Legislative History
¶80 The majority employs a variety of arguments in
its attempt to circumvent application of this line of
cases and the principles of statutory interpretation for
which they stand. Ultimately though, none of these
arguments is sufficiently persuasive to justify
departure from the result compelled by the controlling
precedent discussed above.
¶81 First, the majority argues that we are free to
interpret the provisions of section 3 as a state court
would interpret its own constitution because the
legislative history concerning its enactment
purportedly reveals that section 3 was patterned on
bills of rights found in other organic acts and state
constitutions rather than the Bill of Rights of the U.S.
Constitution. Specifically, the majority relies on the

105a
statement of Senator William H. King of Utah that
section 34 of the Virgin Islands Organic Act of
1936—the predecessor to section 3 of the Revised
Organic Act—“contains familiar provisions founds in
various organic acts and in State constitutions in
relation to the Bill of Rights.” 80 Cong. Rec. 6609
(1936). According to the majority, this demonstrates
that Congress modeled section 3 after other organic
acts and state constitutions rather than on the Bill of
Rights of the U.S. Constitution. Therefore, the majority
argues, Congress must have intended for section 3 to
function like the bill of rights of a state constitution,
with this Court concomitantly being free to
independently interpret the provisions of section 3 to
provide for protection greater than that afforded by
analogous provisions of the U.S. Constitution.
¶82 However, the Senator’s simple statement that
section 34 contains familiar provisions also found in
other organic acts and in state constitutions is not, as
the majority contends, the equivalent of a statement
that congress adopted the provisions of section 34 from
organic acts and state constitutions and not from the
U.S. Bill of Rights.9 The former statement merely
conveys the impression that section 34 contains
nothing out of the ordinary as compared to comparable
bills of rights in other jurisdictions, whereas the later
implies that the provisions of section 34 have specific
origins in other organic acts and state constitutions.
9

It is notable that the majority selectively omits the word
“contains” from its quotation of the Senator’s statement, replacing
it with the word “adopted,” thereby changing the apparent
implication of the language that follows.

106a
¶83 Yet, even if we accept, for the sake of argument,
that section 34 was modeled after similar provisions of
other organic acts and state constitutions, there is no
logical connection between this simple observation and
the revolutionary proposition urged by the majority
that this Court has the power to independently
interpret the provisions of our statutory bill of rights in
the same manner as the high court of a sovereign state
may interpret its popularly ratified state constitution.
Indeed, when the Senator made these remarks in 1936,
the territorial judiciary as we now know it did not yet
exist and the judicial power of the territory was
instead vested in the District Court of the Virgin
Islands. See Carty v. Beech Aircraft Corp., 679 F.2d
1051, 1055 (3d Cir. 1982) (“The judicial power of the
Virgin Islands shall be vested in a court to be
designated ‘the District Court of the Virgin Islands’....”)
(quoting Act of June 22, 1936, ch. 699, s 25, 49 Stat.
1807). It was not until the enactment of the Revised
Organic Act in 1954 that Congress first authorized the
creation of a local appellate court. See Banks v. Int’l
Rental & Leasing Corp., 55 V.I. 967, 978 (V.I. 2011)
(citing 48 U.S.C.§ 1613a). Thus, the assertion that
Congress, in 1936, intended to confer such awesome
power upon a non-existent court—a court that
Congress would not first conceive of until 1954 and
that would not, in fact, be established until 2004—is,
to say the least, unconvincing.
¶84 Next, the majority places great emphasis on
certain statements offered during the congressional
hearings on the 1968 amendments to the Revised
Organic Act. The majority goes so far as to say that
“any doubt” that Congress intended for this Court to

107a
exercise the authority to independently interpret the
provisions of section 3 “should be erased” by these
remarks. The three statements referenced in the
majority opinion—from Harry R. Anderson, Assistant
Secretary of the Interior; Ruth Van Cleve, Director of
the Office of Territories of the Department of the
Interior; and Dr. Aubrey A. Anduze, President of the
Virgin Islands Constitutional Convention of 1965—all
expressed concern that the recent “one man-one vote”
decisions of the Supreme Court of the United States
were not, by their own terms, applicable to the Virgin
Islands and encouraged the House Committee on
Interior and Insular Affairs to adopt statutory
language ensuring that any reapportionment of the
Virgin Islands Legislature would conform to this
principle.
¶85 However, these statements are irrelevant in
determining the Congressional intent behind the
language of section 3 for two critical reasons. First,
these are the not the statements of members of
Congress at all, but rather of two executive branch
officials and one prominent Virgin Islands citizen
testifying in support of legislation. And without any
statement from an actual member of Congress
adopting or at least indicating some agreement with
these statements, the legal opinion reflected in these
statements—that the Fourteenth Amendment
guarantee of equal protection does not apply in the
Virgin Islands—cannot be directly ascribed to
Congress.
¶86 But more importantly, the statements quoted by
the majority were not made during the committee

108a
hearing on H.R. 11777—the bill providing for an
elected governor and amending section 3 of the Revised
Organic Act—but were, in fact, made the following day
during the committee hearing on H.R. 13277, in
support of including specific equal protection language
in section 5 of the Revised Organic Act. That section
reads in relevant part: “The apportionment of the
legislature shall be as provided by the laws of the
Virgin Islands: Provided, That such apportionment
shall not deny to any person in the Virgin Islands the
equal protection of the law. ...” 48 U.S.C. § 1571. Thus,
the statements of Anderson, Van Cleve, and Anduze,
while undoubtedly illustrative of the general
socio-political climate at the time of the 1968
amendments, have no direct relevance to our
interpretation of section 3 of the Revised Organic Act.
¶87 Ultimately, the majority invokes the remarks of
Senator King together with the testimony of the three
witnesses just discussed to support its argument that
we must interpret the due process and equal protection
clauses of the first sentence of section 3 as establishing
separate rights open to independent interpretation by
this Court because, according to the majority, to hold
otherwise would render the final paragraph of section
3 superfluous. However, a close examination of
relevant legislative history reveals that the drafters of
the 1968 amendment to section 3 recognized this same
issue, and ultimately resolved it by carefully crafting
the amendment to extend to the Virgin Islands various
specific provisions of the U.S. Constitution only “to the
extent that they [had] not previously been extended.
...”

109a
¶88 Interestingly, the congressional record reflects
that the final version of the 1968 amendment to section
3 was not drafted by any member of Congress, but
rather by the United States Attorney General’s Office.
As initially proposed before the House Committee on
Interior and Insular Affairs, the amendment to section
3 provided: “The provisions of paragraph 1 of section 2
of Article IV and section 1 of Amendment XIV of the
Constitution of the United States shall have the same
force and effect within the territory of the Virgin
Islands as in the United States or in any State of the
United States.” See Virgin Islands—Elective Governor
and Legislative Redistricting: Hearings before the
Subcommittee on Territorial and Insular Affairs on
H.R. 11777 and H.R. 13277, 89th Cong. 2, 3 (1966).
Subsequently, the House substantially amended the
proposed language to read as follows: “To the extent
not inconsistent with the status of the Virgin Islands
as an unincorporated territory of the United States,
the provisions of the Constitution of the United States
of America and all its amendments shall have the
same force and effect within the Virgin Islands as in
the United States.” 90 Cong. Rec. 23, 049.
¶89 Prior to taking up the bill for consideration in
the Senate, Senator Quentin N. Burdick, Chairman of
the Subcommittee on Territories, wrote to the Attorney
General “requesting his views on the possible effects”
of the proposed amendment to section 3 as well an
identical proposed amendment to the corresponding
section of the Organic Act of Guam being considered

110a
simultaneously.10 90 Cong. Rec. 23,046. In response,
the Deputy Attorney General, on behalf of the Attorney
General, identified several problems with the proposed
amendment, noting that “the effects of the amendment
are doubtful,” as it was “not certain whether and to
what extent the amendments [would] actually benefit
the inhabitants of Guam and the Virgin Islands.” Id. at
23,047.
¶90 The Deputy’s letter explained that the Attorney
General’s Office was primarily concerned with the
language extending provisions of the Constitution only
“to the extent not inconsistent with the status of the
Virgin Islands as an unincorporated territory.”
At its narrowest, the general effect of the House
amendment may well fail to confer any benefit
upon the inhabitants of [the Virgin Islands].
Many, if not most, of the provisions of the
Constitution relate to the States and
inhabitants of States. Hence, it could be said
that the extension to [the Virgin Islands] of any
Constitutional provision relating to States
would be inconsistent with the status of [the
Virgin Islands] as an unincorporated territory,
since [the Virgin Islands] is not a State.
10

The responsive letter, authored by the Deputy Attorney
General, began by explaining: “For the sake of simplicity our
comments are limited generally to [the relevant section of] the
Guam bill. However, they would apply equally to [the relevant
section of the Virgin Islands bill]. That section is identical to [the
corresponding section of the Guam bill] except for its reference to
the Virgin Islands.” 90 Cong. Rec. 23,046. I follow the same
approach in my analysis, referring only to the Virgin Islands
rather than Guam where appropriate.

111a
Therefore the language of the amendment
would render such provisions inapplicable to
[the Virgin Islands].
Id. However, the Deputy’s letter also “pointed out that
the Virgin Islands already enjoy the benefits of due
process and equal protection clauses analogous to those
contained in the Fourteenth Amendment,” and
“[h]ence, the reference to the Fourteenth Amendment
in [the proposed amendment to section 3] would appear
to have been unnecessary.” Id.
¶91 In order to resolve the “technical question raised
by the House amendment,” 90 Cong. Rec. 23,692, the
Office of the Attorney General drafted the language
that would ultimately become the last paragraph of
section 3, making two critical revisions from the
previous version. First, the revised amendment
eliminated the troublesome language conditioning the
applicability of constitutional rights upon their
consistency with the Virgin Islands’ status as an
unincorporated territory and replaced it with a list of
specific articles and amendments to be applied “with
the same force and effect” as they would in any
sovereign state. But more importantly for our
purposes, to address the problem of the apparently
redundant guarantees of due process and equal
protection in section 3, the Attorney General’s Office
also inserted new prefatory language to clarify that the
amendment would extend the enumerated rights to the
Virgin Islands only “to the extent that they [had] not
been previously extended.” Thus, in order to address
the concerns raised in the Deputy’s letter, Congress
adopted this final version of section 3, as “drafted by

112a
and approved by the Department of Justice,” with the
additional “endorsement of the Department of the
Interior.” 90 Cong. Rec. 23,047.
¶92 Even without the benefit of any analysis of the
legislative history, the Ninth Circuit in Guerrero
rejected the same argument against superfluidities
now propounded by the majority based solely on the
plain meaning of the relevant language in the nearly
identical provisions of the bill of rights in the Guam
Organic Act. The court reasoned:
Guerrero argues that our reading will render
provisions of the Organic Act’s “Bill of Rights”
redundant and superfluous. If subsection (u)
was merely extending rights that had not
previously been extended, and subsection (a)
already provided the federal level of free
exercise protection, why did Congress mention
the First Amendment again in subsection (u)?
Thus, he argues, the free exercise portions of
subsections (a) and (u) must be subject to
different interpretations. Or, put differently,
Congress provided Guam two layers of religious
protection, one federal and one subject to local
interpretation that cannot fall beneath the floor
of federally protected rights. While Guerrero’s
reading is not unreasonable, we find that the
interplay of subsections (a) and (u) is less
convoluted. Had Congress wanted to add a
separate layer of constitutional protections,
simpler language would have sufficed, for
example, “in addition” or “also.” In any case,
subsection (u) adds only those provisions not

113a
already extended. Therefore, if a provision had
been extended, like free exercise of religion, it
was not duplicated by subsection (u).
Guerrero, 290 F.3d at 1218 n.11. This same reasoning
applies with equal force to the due process and equal
protection language of the first sentence of section 3 of
the Revised Organic Act.
¶93 Thus, the legislative history clearly confirms the
interpretation, suggested by the plain language of
section 3 itself, that the 1968 amendment to section 3
is not superfluous because it only operates to extend
the Fourteenth Amendment guarantees of due process
and equal protection “to the extent that they [had] not
been previously extended.”
C. Federal Court Jurisdiction and Standards
of Review
¶94 Perhaps in recognition of the limited persuasive
value of its argument on the primary issue of statutory
interpretation, and aware of the possibility of future
certiorari review by the Supreme Court of the United
States, the majority devotes nearly fifteen pages of its
opinion to a discussion of federal caselaw addressing
the limits of federal court jurisdiction to review
decisions of territorial high courts,11 as well as the
11

See, e.g., United States v. Pridgeon, 153 U.S. 48, 54 (1894)
(holding that a violation of the Criminal Code of Nebraska, which
temporarily served as the criminal code of the territory of
Oklahoma by act of Congress, was not an “offense against the
United States” over which the federal could exercise jurisdiction);
Linford v. Ellison, 155 U.S. 503, 508 (1894) (finding that a
territorial court decision involving “construction of the organic
law and the scope of the authority to legislate conferred upon the

114a
deferential standard of review sometimes applied in
such cases.12 And while this exploration of the nuances
of federal review of territorial court decisions is
certainly interesting as an academic exercise, see
Guam and the Case for Federal Deference, 130 HARV.
L. REV. 1704 (2017), it is also wholly irrelevant to the
resolution of this case. Knowing what standard of
review the Supreme Court of the United States may
apply to a potential challenge to our interpretation of
the Revised Organic Act does not, in any way, assist us
in interpreting the Revised Organic Act in the first
instance. The deferential approach of the federal courts
tells us nothing of Congress’ intent in enacting section
3 or the 1968 amendments. Instead, these cases are
territorial legislature” did not present a challenge to the validity
of a statute of the United States sufficient to invoke federal court
jurisdiction under the relevant jurisdictional statute); People v.
Rubert Hermanos, Inc., 309 U.S. 543, 550 (1940) (holding that
“section 39 of the Organic Act [of Puerto Rico] is not one of ‘the
laws of the United States’ within the meaning of [the relevant
jurisdictional provision of the Judicial Code]”); In re Tristani v.
Colon, 71 F.2d 374, 375 (1st Cir. 1934) (holding that no federal
question jurisdiction existed upon a finding that the questions
presented did not “in any way” involve “the construction or
application of the provisions of sections 25 and 37 and section 2
of the Organic Act”).
12

See, e.g., Pernell v. Southall Realty, 416 U.S. 363, 369
(1974) (acknowledging the Court’s “longstanding practice of not
overruling the courts of the District on local law matters ‘save in
exceptional situations where egregious error has been committed’
“) (citing Fisher v. United States, 328 U.S. 463, 476 (1946); Griffin
v. United States, 336 U.S.704, 718 (1949)); Santa Fe Central Ry.
Co. v. Friday, 232 U.S. 694, 700 (1914) (holding that “[w]e should
not decide against the local understanding of a matter of purely
local concern unless we thought it clearly wrong”).

115a
only relevant insofar as they discuss the standard of
review that would be applied to our interpretation of
section 3 if one or more of the parties involved in this
case successfully petitioned for review of our decision
by writ of certiorari to the Supreme Court of the
United States.
¶95 The majority attempts to distill from these cases
a general rule: that when Congress enacts legislation
“in its capacity as a national legislature, both federal
and territorial courts are bound to fully and without
qualification effectuate the intent of Congress,” but
when Congress steps into the role of the territorial
legislature and enacts legislation specifically directed
at a particular territory, “the Congressional enactment
is to be treated as a territorial law, with a territorial
court of last resort authorized to interpret it pursuant
to the same principles and authority governing
interpretation of state laws by a state court of last
resort.”13 However, none of the language of this
13

Even if we accept for the sake of argument the doctrine
advanced by the majority, it brings us no closer to resolving this
case. Let us assume that section 3 of the Revised Organic Act is
a “territorial law” enacted by Congress sitting in place of the
territorial legislature, and further assume that we may “interpret
it pursuant to the same principles and authority governing
interpretation of state laws by a state court of last resort.” Of
course, when interpreting state laws enacted by state
legislatures, state courts of last resort apply the principles of
statutory construction with the primary goal of giving effect to
the legislature’s intent in enacting the law. So, applying the
approach propounded by the majority, we wind up with nothing
more than the unremarkable conclusion that our task in
interpreting section 3 of the Revised Organic Act is to apply the
principles of statutory construction to ascertain and give effect to

116a
suggested standard, or anything resembling it, can be
found in any of the decisions referenced by the
majority. In fact, these federal cases are more notable
for what they omit than for what they contain. None of
these cases concern the interpretation of a territory’s
statutory bill of rights. And none of these cases
mention, let alone address, the primary issue raised by
the majority— whether Congress intended for this
Court, or any territorial high court, to exercise the
authority to independently interpret its statutory bill
rights as state high courts interpret their own
constitutions.
¶96 The majority points to the concluding paragraph
of the Supreme Court’s relatively recent decision in
Limtiaco v. Camacho, 549 U.S. 483, 491 (2007), noting
that “decisions of the Supreme Court of Guam, as with
other territorial courts, are instructive and are entitled
to respect when they indicate how statutory issues,
including the Organic Act, apply to matters of local
concern.”14 Critically though, the majority omits the
very next sentence of the opinion in which the Court
explained that, “[o]n the other hand, the Organic Act
is a federal statute, which we are bound to construe
the legislature’s intent—in this case Congress’ intent—in
enacting section 3.
14

In a footnote, the majority baldly asserts, without
explanation, that the Ninth Circuit’s decision in Guerrero is
“inconsistent” with the Supreme Court’s observations in Limtiaco.
However, as with every other case cited by the majority, Limtiaco
did not involve the interpretation of a territory’s statutory bill of
rights, and is only relevant to the extent it informs us of the
standard of review that might be applied to a future challenge to
the decision we reach here today.

117a
according to its terms.” Id. The Limtiaco opinion does
not even mention, let alone limit or overturn, the
Court’s longstanding decisions in Kemper [sic] and
Weems. Nor does the opinion discuss Guerrero or the
other decisions of the federal circuit courts upholding
the principle of statutory construction first announced
in Kemper [sic]: that when Congress uses the familiar
language of the U.S. Constitution in crafting a
territory’s statutory bill of rights, Congress intends to
confer upon the people of that territory rights
coextensive with those enshrined in the analogous
provisions of the U.S. Constitution. See Kemper [sic],
195 U.S. at 123.
D. The Path to Independent Interpretation of
Individual Rights in the Virgin Islands
¶97 In the end, the majority opinion is built upon a
misguided interpretation of an incomplete picture of
the legislative history surrounding section 3 of the
Revised Organic Act. Moreover, the majority wholly
ignores the binding precedent of the Supreme Court of
the United States in Kemper [sic], the highly
persuasive decisions of the federal circuit courts of
appeal in cases like Guerrero, and this Court’s own
decision in Ward. These cases, considered in the
context of the full body of relevant legislative history,
lead inexorably to the conclusion that Congress
intended for the due process and equal protection
clauses of section 3 of the Revised Organic Act to confer
rights coextensive with those enshrined in the
corresponding provisions of the Fourteenth
Amendment; and that this Court may not interpret
these provisions in any manner other than that

118a
provided by the Supreme Court of the United States.
¶98 Yet, as convinced as I am of the error of the
majority’s approach, I am equally convinced that
Congress has, in fact, expressed a clear intent for this
Court to one day exercise the authority to
independently interpret the provisions of our own
“Virgin Islands Bill of Rights” just as state courts of
last resort interpret the provisions of their respective
state constitutions. Unfortunately, this bill of rights is
not found in section 3 of the Revised Organic Act or, at
present, anywhere because the “Virgin Islands Bill of
Rights” has yet to be written. The majority correctly
observes that, at least since the enactment of the
Revised Organic Act in 1954, Congress has granted the
people of the Virgin Islands an ever-increasing degree
of autonomy and self-determination in their
government. Examples include legislation providing
for the popular election of the Governor of the Virgin
Islands and specifying that the relations between the
courts of the Virgin Islands and the courts of the
United States shall be the same as that of the
relationship between the courts of the fifty states and
the courts of the United States. See 48 U.S.C. §§ 1591,
1613.
¶99 Consistent with this historical trend, in 1976
Congress enacted Pub. L. No. 94-584, authorizing the
Legislature to call a constitutional convention to draft
“a constitution for the local self-government of the
people of the Virgin Islands.” See Act to Provide for the
Establishment of Constitutions for the Virgin Islands
and Guam, Pub. L. No. 94-584, 90 Stat. 2899 (1976). In
the act, Congress expressly required, among other

119a
things, that any constitution produced by such a
convention “contain a bill of rights.” Id. This draft
constitution would only take effect upon final approval
by “not less than a majority of the voters” participating
in an islandwide referendum “to be conducted as
provided under the laws of the Virgin Islands.” Id.
¶100 With respect to this constitution, I have no doubt
that Congress intended for this Court to exercise the
full authority to interpret it in the same manner as
state courts of last resort interpret their own respective
constitutions; including the authority to interpret the
provisions of its bill of rights to provide for greater
protection than analogous provisions of the federal Bill
of Rights. It would then be our solemn duty to
interpret our “Virgin Islands Bill of Rights” to give
effect to the intent of its framers rather than the intent
of Congress as we must when interpreting the
statutory bill of rights of the Revised Organic Act.
However, our authority to engage in such independent
interpretation is conditioned upon the people of the
Virgin Islands first exercising their authority to draft
and adopt a true “Virgin Islands Constitution”
containing a “Virgin Islands Bill of Rights” emanating
from the will of the people and adopted by the consent
of the governed. But unless and until this happens, our
task is one of statutory rather than constitutional
construction and we remain bound to give effect to the
intent of Congress as interpreted by the Supreme
Court of the United States.

120a
III. BALBONI’S CLAIMS UNDER THE U.S.
CONSTITUTION
¶101 Having determined that this court lacks the
power to impose the heightened scrutiny the majority
urges, I next turn to the Superior Court’s certified
questions. Because Balboni brings a facial challenge in
this matter, he has the burden of establishing that no
set of circumstances exist where 29 V.I.C. § 555 would
be valid. United States v. Salerno, 481 U.S. 739, 745
(1987) (“A facial challenge to a legislative Act is, of
course, the most difficult challenge to mount
successfully, since the challenger must establish that
no set of circumstances exists under which the Act
would be valid.”). Balboni must show that the statute
is unconstitutional in all of its applications. Id. “[A]
facial challenge must fail where the statute has a
‘plainly legitimate sweep.’ “ Wash. State Grange v.
Wash. State Republican Party, 552 U.S. 442, 449
(2008) (citing Washington v. Glucksberg, 521 U.S. 702,
739-40 & n.7 (1997) (Stevens, J., concurring in
judgments)). “In determining whether a law is facially
invalid, we must be careful not to go beyond the
statute’s facial requirements and speculate about
‘hypothetical’ or ‘imaginary’ cases.” Wash. State
Grange, 552 U.S. at 449-50.
A. The Seventh Amendment Right to Civil
Jury Trial
¶102 The first question the Superior Court certified
for review is whether section 555 impermissibly
invades the province of a jury in violation of the
Seventh Amendment of the U.S. Constitution.
Appellant Balboni argues that by capping

121a
non-economic damages at $100,000, section 555
unconstitutionally intrudes upon his right to have
these damages decided by a jury, as required by the
Seventh Amendment.15 To determine whether section
555 is unconstitutional, we first examine the scope of
the Seventh Amendment’s guarantee of a right to a
jury trial and whether this right implicates caps on
non-economic damages in motor vehicle collisions, like
the one in section 555.
¶103 The Seventh Amendment
Constitution guarantees that

of

the

U.S.

[i]n Suits at common law, where the value in
controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved, and no
fact tried by a jury, shall be otherwise
reexamined in any Court of the United States,
than according to the rules of the common law.
U.S. CONST. amend. VII. Congress expressly extended
the Seventh Amendment to the Virgin Islands in the
1968 amendments to the Revised Organic Act. 48
U.S.C. § 1561; Antilles School, Inc. v. Lembach, 64 V.I.
400, 432 (V.I. 2016) (“Although the Seventh
15

In his brief on appeal, Balboni references a number of state
court decisions concluding that legislative caps on damages
violate their respective state constitutional rights to trial by jury
and access to courts. See, e.g., Smith v. Dep’t of Ins., 507 So. 2d
1080 (Fla. 1987); Watts ex rel. Watts v. Lester E. Cox Med. Ctrs.,
376 S.W.3d 633 (Mo. 2012). However, as discussed extensively
above, this Court lacks the authority to independently interpret
section 3 of the Revised Organic Act in the manner that state
courts may interpret their own popularly ratified constitutions,
and these decisions are therefore irrelevant to our Seventh
Amendment analysis.

122a
Amendment has not been extended to the several
States by incorporation through the Fourteenth
Amendment, Congress, through the Revised Organic
Act, expressly extended the Seventh Amendment to the
Virgin Islands.”); Samuel v. United Corp., 64 V.I. 512,
521 (V.I. 2016) (“The right to a jury trial in a civil suit
in the Virgin Islands is guaranteed by section 3 of the
Revised Organic Act of 1954.”); see also 5 V.I.C. § 321
(“The right of trial by jury as declared by the Seventh
Amendment to the Constitution of the United States
shall apply in civil actions in the District Court of the
Virgin Islands, except as otherwise provided by law.”).
This right extends to matters in the Superior Court as
well. Samuel, 64 V.I. at 521-22 (citing 5 V.I.C. § 321).
¶104 While the Seventh Amendment right to civil jury
trial applies in the Virgin Islands, section 555 does not
violate this right. The Seventh Amendment does at
least two things. First, it guarantees the right to have
a jury sit as factfinder in civil cases where the amount
in controversy is at least twenty dollars. U.S. CONST.
amend. VII. Second, it proscribes reexamination of any
fact tried by a jury. Id. Balboni claims that section 555
violates the Seventh Amendment by capping
noneconomic damages at $100,000 thus impermissibly
invading the province of the jury. (Appt.’s Br. 8.) But
the Seventh Amendment does not restrain the
legislature from enacting recovery caps like the one in
section 555. Instead, it restricts a court from
interfering with a jury’s verdict. Davis v. Omitowoju,
883 F.2d 1155, 1165 (3d Cir. 1989) (“Where it is the
legislature which has made a rational policy decision
in the public interest, as contrasted with a judicial
decision which affects only the parties before it, it

123a
cannot be said that such a legislative enactment
offends either the terms, the policy or the purpose of
the Seventh Amendment.”); see also Boyd v. Bulala,
877 F.2d 1191, 1196 (4th Cir. 1989); Smith v. Botsford
Gen. Hosp., 419 F.3d 513, 519 (6th Cir. 2005); Schmidt
v. Ramsey, 860 F.3d 1038, 1046 (8th Cir. 2017).
¶105 Further, Balboni argues that the Seventh
Amendment’s guarantee to a jury trial is a
fundamental right and therefore subject to strict
scrutiny review. The Supreme Court has incorporated
several of the rights found in the U.S. Constitution’s
Bill of Rights through the Fourteenth Amendment’s
Due Process Clause because it found that these rights
are fundamental. De Jonge v. Oregon, 299 U.S. 353,
364 (1937) (“Freedom of speech and of the press are
fundamental rights which are safeguarded by the due
process clause of the Fourteenth Amendment of the
Federal Constitution.”); McDonald v. City of Chicago,
561 U.S. 742, 749 (2010) (the Second Amendment is
fully applicable to the States); Duncan v. Louisiana,
391 U.S. 145, 149 (1968) (“[T]he Fourteenth
Amendment guarantees a right of jury trial in all
criminal cases which -- were they to be tried in a
federal court -- would come within the Sixth
Amendment’s guarantee.”). But, the Seventh
Amendment’s guarantee to a right to jury trial in civil
matters is not one of these fundamental rights.
Instead, the Seventh Amendment is one of the few
Amendments that the Supreme Court has declined to
extend to the states by way of incorporation through
the Fourteenth Amendment. Minneapolis & St. Louis
R.R. Co. v. Bombolis, 241 U.S. 211, 217 (1916) (“[T]he
7th Amendment applies only to proceedings in courts

124a
of the United States, and does not in any manner
whatever govern or regulate trials by jury in state
courts, or the standards which must be applied
concerning the same.”). McDonald v. City of Chicago,
561 U.S. 742, 867 (2010) (Stevens, J. dissenting)
(pointing out that “we have declined to apply several
provisions to the States in any measure.”).
¶106 Additionally, the First Circuit recently reversed
a Puerto Rico District Court decision that attempted to
extend the Seventh Amendment right to civil jury trial
to the territory as a fundamental right incorporated
through the Fourteenth Amendment.
Gonzalez-Oyarzun v. Caribbean City Builders, Inc., 27
F. Supp. 3d 265 (D.P.R. 2014). As the First Circuit
explained on appeal, “[t]he Supreme Court has
consistently held that states are not constitutionally
required to provide a jury trial in civil cases.”
González-Oyarzun v. Caribbean City Builders, Inc., 798
F.3d 26, 29 (1st Cir. 2015) (collecting cases). Similarly,
while this court has recognized that the right to a jury
trial is a fundamental right in a criminal trial, we have
never found the civil right to jury trial to be
fundamental. Murrell v. People, 54 V.I. 338, 355 (V.I.
2010). Accordingly, because the right to a civil jury
trial under the Seventh Amendment is not a
fundamental right under U.S. Supreme Court
precedent, it is not a fundamental right in the Virgin
Islands subject to strict scrutiny analysis.
¶107 While we are only bound by decisions of the U.S.
Supreme Court interpreting the Seventh Amendment,
decisions of the Circuit Courts of Appeal addressing
this issue are also highly persuasive. Hughley v. Gov’t

125a
of the V.I., 61 V.I. 323, 337-38 (V.I. 2014) (“[I]t is well
established that the court of last resort for a state or
territory is not bound by decisions of its regional
federal court of appeals or any other lower federal
court — even those interpreting the United States
Constitution — but need only follow the United States
Supreme Court.”). It is worth noting that Balboni does
not point to a single case in which a federal court has
found that a cap on damages violates the U.S.
Constitution. Indeed, federal courts have consistently
upheld similar caps, particularly caps on noneconomic
damages in medical malpractice cases. See, e.g., Davis
v. Omitowoju, 883 F.2d 1155 (3d Cir. 1989). In Davis,
the Third Circuit applied the rational basis test to the
Virgin Islands law capping noneconomic damages in a
malpractice verdict at $250,000 and determined that
the cap was constitutional. Id. at 1158 (“[T]he Virgin
Island’s decision to curb, through legislation, the high
costs of malpractice insurance and thereby promote
quality medical care to the residents of the islands,
provides a rational basis for capping the amount of
damages that can be awarded a plaintiff.”).
¶108 Several other Circuit Courts have reached
similar conclusions. For instance, in Boyd v. Bulala,
the Fourth Circuit determined that Virginia’s cap on
damages of $750,000 for medical malpractice jury
verdicts did not violate the Seventh Amendment. 877
F.2d at 1196. The Boyd court pointed to two reasons for
rejecting the trial court’s holding that found the cap
unconstitutional. First, the court distinguished
between the role of juries as factfinders and the role of
the legislature to “mandate compensation as a matter
of law.” Id. Accordingly, while the jury makes findings

126a
of facts regarding damages, the legislature possesses
the power to determine that damages over a certain
limit are not compensable. Id. Thus, the court held
that the Virginia legislature acted within its authority
when it capped damages in medical malpractice cases
at $750,000, reasoning that “[i]f a legislature may
completely abolish a cause of action without violating
the right of trial by jury, we think it permissibly may
limit damages recoverable for a cause of action as
well.” Id.
¶109 The Sixth Circuit similarly upheld a damages
cap in Smith v. Botsford General Hospital, 419 F.3d
513, 515 (6th Cir. 2005). In that case, the court cited
Boyd v. Bulala and determined that Michigan’s
malpractice damages cap did not implicate any
protected jury rights and therefore did not violate the
Seventh Amendment. Id. at 519. The Eighth Circuit
similarly found that Nebraska’s damages cap did not
violate the Seventh Amendment. Schmidt v. Ramsey,
860 F.3d 1038 (8th Cir. 2017). That court relied on the
Boyd and Smith decisions in determining that
Nebraska’s recovery cap did not run afoul of the U.S.
Constitution’s right to a jury trial. Id. at 1046. Other
federal courts have similarly upheld caps on
noneconomic damages challenged on other grounds.
Patton v. TIC United Corp., 77 F.3d 1235, 1247 (10th
Cir. 1996) (determining that a cap did not violate the
Due Process Clause of the U.S. Constitution because it
“rationally furthers the state’s interests”); Hoffman v.
United States, 767 F.2d 1431 (9th Cir. 1985)
(upholding a cap on noneconomic damages challenged
under the Equal Protection Clause); Lucas v. United
States, 807 F.2d 414 (5th Cir. 1986) (upholding a cap

127a
on nonmedical damages because the cap did not violate
the Due Process or Equal Protection Clauses of the
U.S. Constitution).
¶110 Thus, because we lack the power to impose our
own heightened standard of review and remain bound
to follow Supreme Court precedent, I would not
evaluate Balboni’s claim under heightened scrutiny as
the majority urges. Instead, I would follow the
decisions of the federal Circuit Courts of Appeal
holding that similar caps do not violate the Seventh
Amendment.16 Section 555 neither abrogates the right
to a jury trial nor imposes a reexamination of a jury
award in violation of the Seventh Amendment. The cap
therefore represents a permissible exercise of
legislative authority and does not invade the province
of the jury. Section 555’s cap simply limits the
damages available to a claimant who has had its day
in court. Accordingly, I would answer the first certified
question in the negative and hold that section 555 is a
permissible legislative cap on noneconomic damages
that does not violate the Seventh Amendment.
B. Equal Protection
¶111 Next, I will consider the second and third
certified questions together because they implicate the
same constitutional right and they are largely related.
The second question asks whether treating automobile
16

Appellees point out in their brief that thirty-nine states
have enacted caps on noneconomic damages. (Appellee’s Br. At
16). Further, nineteen states have upheld statutory caps against
constitutional challenges. Id. Eight states have struck down caps,
while ten states have apparently never had their statutes
challenged. Id.

128a
accident victims differently based upon the severity of
their noneconomic injuries violates the equal
protection clause, while the third asks whether
treating automobile accident victims differently than
victims of other types of accidents violates that same
clause. The Equal Protection Clause of the Fourteenth
Amendment bars any state from “deny[ing] to any
person within its jurisdiction the equal protection of
the laws.” U.S. CONST. amend. XIV. The Revised
Organic Act of 1954 specifically extends the
Fourteenth Amendment’s Equal Protection Clause to
the Virgin Islands. 48 U.S.C. § 1561 (extending “the
second sentence of section 1 of the fourteenth
amendment” to the Territory).
¶112 “The Equal Protection Clause guarantees United
States citizens a ‘right to be free from invidious
discrimination in statutory classifications and other
governmental activity.’ “ Fleming v. Cruz, 62 V.I. 702,
716 (V.I. 2015) (citing Harris v. McRae, 448 U.S. 297,
322 (1980)). “The Equal Protection Clause of the
Fourteenth Amendment ‘is essentially a direction that
all persons similarly situated should be treated alike.’
“ Webster v. People, 60 V.I. 666, 673 (2014) (citing
Lawrence v. Texas, 539 U.S. 558, 579 (2003)).
¶113 To answer certified questions two and three we
must first determine what level of scrutiny to apply to
section 555. When a law is challenged under the equal
protection clause, “[t]he general rule is that legislation
is presumed to be valid and will be sustained if the
classification drawn by the statute is rationally related
to a legitimate state interest.” City of Cleburne v.
Cleburne Living Ctr., 473 U.S. 432, 440 (1985)

129a
(citations omitted). Exceptions to this general rule
include statutes that draw classifications based in
race, alienage, and national origin, as well as laws that
bear upon fundamental rights. Id. Laws that fall under
any of these exceptions will instead be analyzed under
strict scrutiny. “To successfully withstand strict
scrutiny review, the government must show that the
law advances a compelling state interest that is
narrowly tailored to restrict the fundamental right to
the least extent necessary to meet the compelling state
interest.” Beaupierre v. People, 55 V.I. 623, 631-32 (V.I.
2011) (citation omitted). Laws not subject to strict
scrutiny are presumed valid and need only be
rationally related to some legitimate government
interest. Heller v. Doe, 509 U.S. 312, 319 (1993) (“For
these reasons, a classification neither involving
fundamental rights nor proceeding along suspect lines
is accorded a strong presumption of validity.”).
¶114 Accordingly, I next consider whether section 555
implicates a protected class, requiring strict scrutiny
review. If it does not, the rational basis test applies.
Minnesota v. Clover Leaf Creamery Co., 449 U.S. 456,
461-63 (1981). Generally, “the Court has held that the
Fourteenth Amendment permits the States a wide
scope of discretion in enacting laws which affect some
groups of citizens differently than others.” McGowan v.
Maryland, 366 U.S. 420, 425 (1961). Balboni has failed
to show that victims of car collisions are a suspect
class—i.e. a classification based on race, national
origin, religion, or alienage. See, e.g., Cont’l Ins. Co. v.
Ill. Dep’t of Transp., 709 F.2d 471, 475 (7th Cir. 1983)
(“[P]ersons who have the misfortune to be the victims
of a tort committed by the State of Illinois or its

130a
employees other than by means of a motor vehicle—are
not the kind of vulnerable minority for which the equal
protection clause as interpreted by the Supreme Court
expresses a special solicitude, [and therefore] the test
of constitutionality is simply whether there is some
rational basis for the different treatment.”); Hoffman
v. United States, 767 F.2d 1431, 1435 (9th Cir. 1985)
(“Since malpractice victims with noneconomic losses
that exceed $250,000 do not constitute a suspect class
and the right to recovery of tort damages is not a
fundamental right, strict scrutiny is not appropriate in
this case.”).
¶115 Because this dispute does not implicate a
suspect class and because this court does not have the
power to impose heightened rational basis review, I
would instead apply traditional rational basis review.
Under the rational basis test, “a law will be sustained
if it can be said to advance a legitimate government
interest, even if the law seems unwise or works to the
disadvantage of a particular group, or if the rationale
for it seems tenuous.” Romer v. Evans, 517 U.S. 620,
632 (1996). Furthermore, “to satisfy equal protection
concerns under rational basis review, the Constitution
does not require the government ‘to draw the perfect
line nor even to draw a line superior to some other line
it might have drawn,’ but ‘only that the line actually
drawn be a rational line.’ “ Moses v. Fawkes, 66 V.I.
454, 469 (V.I. 2017) (quoting Armour v. City of
Indianapolis, 566 U.S. 673, 685 (2012)).
¶116 To answer the questions certified to us by the
Superior Court we must determine whether section
555’s cap on noneconomic damages—a cap that treats

131a
automobile accident victims differently based upon the
severity of their noneconomic injuries and treats
automobile accident victims differently than victims of
other types of accidents—fails the rational basis test.
To support its holding that section 555 fails heightened
rational basis review, the majority cites arguments
made for and against the cap when it was debated by
the Legislature. According to the majority, the reasons
given by the legislators who supported the bill do not
withstand the heightened review the majority argues
is appropriate in this case. Specifically, the majority
concluded that there is no connection between the cap
and the goal of stabilizing the automobile insurance
market in the territory. I disagree.
¶117 The bill that introduced the cap in section 555
was debated in committee and during regular session,
and arguments were made for and against the cap
during these debates. (J.A. 111-34; 307-75.) For
example, Senator David argued that compulsory
coverage would better protect Virgin Islanders and
visitors. (J.A. 116-17.) David also argued that
compulsory coverage would reduce the number of
unsafe cars from the roadways. (J.A. 118.) Senator
Berry offered several arguments for the bill’s passage
as well. She argued that compulsory coverage would
help ensure that victims of motor vehicle collisions can
receive treatment for their injuries. (J.A. 197.) Another
Senator argued that this legislation would make car
insurance affordable in the territory and cause more
insurers to write affordable policies as well. (J.A.
204-05.) The original cap of $75,000, which has since
been changed to $100,000, represents an apparent
political bargain struck by Senators who championed

132a
the bill to ensure insurance was available and
affordable in the territory. (J.A. 311.) (Senator James
explaining that “I could say this: While you don’t want
no cap, no cap could also mean no insurance at all. So
let us do the balancing act and do the right thing
here.”); (J.A. 322.) (Senator Figueroa-Serville arguing
“we have to create a balance where you could protect
the people of the Virgin Islands by ensuring the
stability of the insurance industry.”). Another Senator
supported the cap because of the subjectivity of
noneconomic losses compared with other more objective
losses that are easier to calculate and that are not
capped. (J.A. 325.) Others supported the cap to keep
jury awards in check. (J.A. 347.) Still another Senator
supported the cap as a foil to the notion that the Virgin
Islands are well known for being a “plaintiff’s
paradise” and other losses are not capped by the
measure. (J.A. 356.) When the cap was raised to
$100,000 certain Senators argued against such an
increase for various reasons, while others supported it
based on cost of living increases and for other reasons.
(J.A. 346.)
¶118 Again, under rational basis review, a statute
like section 555 is entitled to a strong presumption of
validity. F.C.C. v. Beach Commc’ns, 508 U.S. 307, 314
(1993). And as we have explained, “it is not the
function of this Court to substitute its judgment for
that of the Legislature.” Brady v. Gov’t of the V.I., 57
V.I. 433, 443-44 (V.I. 2012). And more importantly,
Balboni has not carried his substantial burden of
proving that section 555 has no rational basis related
to a legitimate government interest. F.C.C., 508 U.S. at
314 (explaining that “those attacking the rationality of

133a
the legislative classification have the burden ‘to
negative every conceivable basis which might support
it”). Here, Balboni has failed to establish that no set of
circumstances exists under which the Act would be
valid as he has failed to demonstrate that the Act
would serve no rational basis in any of its applications.
¶119 Thus, applying the proper rational basis test,
the reasons proffered by the Senators in support of the
cap withstand scrutiny. I would hold that the
justifications for the cap offered by the Senators in
committee and during regular session are reasonably
related to the government’s interest in ensuring the
availability of affordable automobile insurance in the
territory. Accordingly, I would answer both questions
two and three in the negative and hold that section 555
does not violate the Equal Protection Clause.
C. Substantive Due Process
¶120 The final question the Superior Court certified
is whether section 555 unconstitutionally infringes on
the substantive due process rights in the Fifth and
Fourteenth Amendments as applicable to the Virgin
Islands through the section 3 of the Revised Organic
Act of 1954, including substantive due process rights
to not be arbitrarily deprived of life, liberty or
property. The Fifth Amendment states that “[n]o
person shall ... be deprived of life, liberty, or property,
without due process of law.” U.S. CONST. amend. V.
The Fourteenth Amendment’s due process clause
similarly holds that “nor shall any State deprive any
person of life, liberty, or property, without due process
of law.” U.S. CONST. amend. XIV. While found in
different amendments, the U.S. Supreme Court has

134a
interpreted these clauses identically. Malinski v. New
York, 324 U.S. 401, 415 (1945) (Frankfurter, J.,
concurring) (“To suppose that ‘due process of law’
meant one thing in the Fifth Amendment and another
in the Fourteenth is too frivolous to require elaborate
rejection.”).
¶121 Balboni argues that section 555 infringes upon
his fundamental right to a jury trial, and consequently
his right to substantive due process. To evaluate this
claim, we must again first determine which test to
apply. “If the right burdened by the complained-of
legislation ... is a ‘fundamental’ right protected under
the due process clause, then we apply the strict
scrutiny test.” Beaupierre v. People, 55 V.I. 623, 631
(V.I. 2011) (citing Roe v. Wade, 410 U.S. 113, 155
(1973)). The Supreme Court has held that certain
provisions of the Bill of Rights of the U.S. Constitution
embody fundamental rights. It has also found other
fundamental rights inherent in the “liberty” protected
by the substantive due process clause, including “the
rights to marry, Loving v. Virginia, 388 U.S. 1[, 12]
(1967); to have children, Skinner v. Oklahoma ex rel.
Williamson, 316 U.S. 535[, 541] (1942); to direct the
education and upbringing of one’s children, Meyer v.
Nebraska, 262 U.S. 390[, 399-400] (1923); Pierce v.
Society of Sisters, 268 U.S. 510[, 534-35] (1925); to
marital privacy, Griswold v. Connecticut, 381 U.S.
479[, 485-86] (1965); to use contraception, id.;
Eisenstadt v. Baird, 405 U.S. 438[, 453-54] (1972); to
bodily integrity, Rochin v. California, 342 U.S. 165[,
172-73] (1952), and to abortion, [Planned Parenthood
v. Casey, 505 U.S. 833, 848-49 (1992)].” Washington v.
Glucksberg, 521 U.S. 702, 720 (1997) (collecting cases).

135a
However, as explained above, the Supreme Court has
never held that the right to a jury trial in civil cases is
either a fundamental right or a fundamental aspect of
liberty protected by the substantive due process clause,
and thus Balboni’s argument must fail.
¶122 Additionally, Balboni argues that section 555
“forecloses full recovery through a full and fair trial on
the merits, which is a fundamental guarantee of due
process.” (Appt.’s Br. at 24.) Specifically, Balboni
argues that section 555’s cap represents an “arbitrary
legislative revision absent a countervailing remedy.”
(Id. at 24-25.) In an analogous case, the Fifth Circuit
considered a due process challenge to a statute limiting
the recovery of nonmedical damages in medical
malpractice actions. The court noted that “[a]ny due
process challenge must rely on a perceived abrogation
of a common law right to recover for tort damages
worked by the statute.” Lucas v. United States, 807
F.2d 414, 421 (5th Cir. 1986). However, quoting the
Supreme Court’s decision in Duke Power Co. v.
Carolina Environmental Study Group, 438 U.S. 59
(1978), the court explained:
[O]ur cases have clearly established that ‘[a]
person has no property, no vested interest, in
any rule of the common law.’ The ‘Constitution
does not forbid the creation of new rights, or the
abolition of old ones recognized by the common
law, to attain a permissible legislative object,’
despite the fact that ‘otherwise settled
expectations’ may be upset thereby. Indeed,
statutes limiting liability are relatively
commonplace and have consistently been

136a
enforced by the courts.
Lucas, 807 F.2d at 422 (quoting Duke Power, 438 U.S.
at 88 n.32 (dicta)). Thus, the Fifth Circuit determined
that the statutory cap on nonmedical damages did not
violate the plaintiff’s substantive due process rights as
applied in that case. Id. Indeed, as clarified in both
Duke Power and Lucas, the right to recover a certain
amount in controversy is not a right protected by the
due process clause of the Fourteenth Amendment.
Duke Power, 438 U.S. at 88 n.32 (“[S]tatutes limiting
liability are relatively commonplace and have
consistently been enforced by the courts.”) (collecting
cases); Usery v. Turner Elkhorn Mining Co., 428 U.S.
1, 16 (1976) (“[O]ur cases are clear that legislation
readjusting rights and burdens is not unlawful solely
because it upsets otherwise settled expectations.”).
¶123 Likewise, Balboni’s claim that the statutory cap
on noneconomic damages violates his substantive due
process rights must fail because section 555 does not
implicate any identifiable property or liberty interests
protected by the due process clause. Rather, section
555’s limitation of noneconomic damages represents a
policy determination of the Virgin Islands Legislature
which we should not upset or second guess absent a
clear showing that it deprives him of some interest in
liberty or property guaranteed by the due process
clause of the Fourteenth Amendment. Exxon Corp. v.
Governor of Md., 437 U.S. 117, 124 (1978) (“[T]he Due
Process Clause does not empower the judiciary “to sit
as a ‘superlegislature to weigh the wisdom of
legislation’ ....” (quoting Ferguson v. Skrupa, 372 U.S.
726, 731 (1963)). Furthermore, section 555 does not

137a
fully abrogate Balboni’s common law right to recover
damages. Instead, the cap in section 555 only limits
the recovery of noneconomic damages and only in
certain instances, and it also includes specific
exceptions for cases of gross negligence or willful
conduct. Accordingly, I would answer the fourth
certified question in the negative and hold that section
555 does not violate Balboni’s Fourteenth Amendment
right to due process.
IV. CONCLUSION
¶124 In summary, I would not reach the issue of
whether this Court has the authority to independently
interpret the provisions of section 3 of the Revised
Organic Act to provide greater protections than those
afforded by analogous provisions of the U.S.
Constitution because this issue was neither raised by
the parties nor considered by the Superior Court and
therefore implicates substantial concerns of fairness
and due process. Being compelled to address this issue
however, it is clear that the majority’s position is
foreclosed by the binding precedent of the Supreme
Court of the United States in Kepner, the highly
persuasive decisions of the federal circuit courts of
appeal, and this Court’s own decision in Ward. These
cases, together with the relevant legislative history,
compel me to conclude that Congress intended for
section 3 of the Revised Organic Act to confer upon the
people of the Virgin Islands rights coextensive with
those enshrined in the analogous provisions of the U.S.
Constitution. Moreover, because the Virgin Islands has
not yet adopted a popularly ratified constitution and is
instead organized under the Revised Organic Act —a

138a
federal statute—this Court remains constrained to
interpret the provisions of the Revised Organic Act
according to the principles of statutory construction as
provided by the Supreme Court of the United States.
Finally, I would answer all four questions certified by
the Superior Court in the negative and would hold that
29 V.I.C. § 555 withstands traditional rational basis
scrutiny and does not violate Balboni’s Seventh or
Fourteenth Amendment rights as applied to the Virgin
Islands through section 3 of the Revised Organic Act.
Accordingly, I would affirm the Superior Court’s
January 24, 2018 opinion and remand this matter for
further proceedings. For these reasons, I respectfully
dissent.
[signed]
MARIA M. CABRET
Associate Justice
ATTEST:
VERONICA J. HANDY, ESQ.
Clerk of the Court
By: [signed]
Deputy Clerk
Dated: 6/3/19

139a
For Publication
IN THE SUPREME COURT
OF THE VIRGIN ISLANDS
FREDERIC J. BALBONI,
JR.,
Appellant/Plaintiff,
v.
RANGER AMERICAN OF
THE V.I.,INC. and EMICA
KING,

)
)
)
)
)
)
)
)
)
)

S. Ct. Civ. No.
2018-0022
Re: Super. Ct.
Civ. No.
366/2014 (STT)

Appellees/Defendants.
On Appeal from the Superior Court
of the Virgin Islands
Division of St. Thomas & St. John
Superior Court Judge: Hon. Denise M. Francois
Argued: April 10, 2018
Filed: June 3, 2019
Cite as 2019 VI 17
BEFORE: RHYS S. HODGE, Chief Justice; MARIA
M. CABRET, Associate Justice; and IVE
ARLINGTON SWAN, Associate Justice.
APPEARANCES:
Robert L. King, Esq.,
The King Law Firm, P.C.,
St. Thomas, U.S.V.I.,

140a
Justin E. King, Esq. (Argued),
Coffey Burlington, P.L.,
Miami, FL
Attorneys for Appellant,
Adam G. Christian, Esq. (Argued),
Ogletree, Deakins, Nash, Smoak & Stewart, LLC,
St. Thomas, U.S.V.I.,
Daryl C. Barnes, Esq.,
Paul R. Neil, Esq.,
Barnes & Neil, LLP,
St. Croix, U.S.V.I.,
Attorneys for Appellees,
Ian S. A. Clement, Esq. (Argued),
Assistant Attorney General,
St. Thomas, U.S.V.I.,
Attorney for the Government of the Virgin Islands,
Henry L. Feuerzeig, Esq.,
Lisa M. Kömives, Esq.,
Dudley, Topper & Feuerzeig, LLP,
St. Thomas, U.S.V.I.,
Attorneys for Amicus Curiae Lloyd’s America, Inc.
JUDGMENT
HODGE, Chief Justice.
AND NOW, consistent with the Opinion of even
date, it is hereby
ORDERED that the Superior Court's January 24,
2018 opinion and order is REVERSED and that this
case is remanded to the Superior Court for further

141a
proceedings consistent with this Opinion. It is further
ORDERED that copies be directed to the
appropriate parties.
SO ORDERED this 3rd day of June, 2019.
BY THE COURT:
[signed]
RHYS S. HODGE
Chief Justice
ATTEST:
VERONICA J. HANDY, ESQ.
Clerk of the Court
By: [signed]
Deputy Clerk
Dated: 6/3/19

142a
IN THE SUPERIOR COURT OF THE VIRGIN
ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN
*********
)
)
CASE NO.
)
ST–14–CV–366
)
ACTION FOR
)
PERSONAL
)
INJURY AND
)
DAMAGES
)
JURY TRIAL
)
DEMANDED
)
)
MEMORANDUM OPINION AND ORDER

FREDERIC J. BALBONI,
JR.,
Plaintiff,
vs.
RANGER AMERICAN OF
THE VIRGIN ISLANDS,
INC. and EMICA KING,
Defendants.

Before this Court is Plaintiff’s Motion to Determine
20 V.I.C. § 555 Unconstitutional, which was filed on
January 23, 2017. Defendants filed an Opposition to
Plaintiff’s Motion to Determine 20 V.I.C. § 555
Unconstitutional on February 16, 2017.1 On March 1,
2017, the Government of the Virgin Islands filed a
Response to Plaintiff’s Constitutional Challenge to

1

Plaintiff also filed a Notice of Constitutional Question on
November 9, 2017, in accordance with the Virgin Islands Rule of
Civil Procedure 5.1(a). Because the Virgin Islands Rules of Civil
Procedure help facilitate prompt, efficient, and fair litigation, this
Court suggests that, in the future, parties carefully read and
abide by all of the Virgin Islands Rules so that litigation is not
unnecessarily delayed.

143a
Title 20 of the Virgin Islands Code Section 555.2
Finally, on March 17, 2017, Plaintiff filed a Reply Brief
in Support of Plaintiff’s Motion to Determine 20 V.I.C.
§ 555 Unconstitutional. Ultimately, Plaintiff asks this
Court to declare § 555 invalid on constitutional
grounds; Defendants ask this Court to deny Plaintiff’s
Motion as unripe or, in the alternative, find § 555
constitutional. This Court will deny Plaintiff’s motion
because § 555 is constitutionally sufficient.
I. BACKGROUND AND PROCEDURAL
HISTORY
Plaintiff Frederick Balboni’s Complaint against
Defendants Ranger American of the Virgin Islands,
Inc. and Emica King alleges that King, while
negligently operating a vehicle owned by Ranger
American, hit him as he attempted to cross Veterans
Drive.3 Balboni seeks both economic and non-economic
damages.4 He also asserts that Ranger American’s
“actions and omissions ... were grossly negligent” and
seeks an award of punitive damages.5

2

Although this Court accepted the Government of the V.I.’s
Response, this Court, on January 12, 2018 and in accordance with
Virgin Islands Rule of Civil Procedure 5.1(b), certified the
constitutional question to the Attorney General of the Virgin
Islands so as to satisfy all necessary procedural requirements
prior to addressing the merits of Plaintiff’s challenge.
3

Compl. at ¶¶ 6–7, 11–13.

4

Id. at ¶ 17.

5

Id. at ¶ 18.

144a
Balboni’s Motion argues that § 555's non-economic
damages cap of $100,000 violates the right to a jury
trial under the Seventh Amendment, the Equal
Protection Clause of the Fourteenth Amendment, and
the Due Process Clause of the Fifth and Fourteenth
Amendments.6 Defendants contend that Balboni’s
Motion is not ripe for adjudication, and, even if this
Court determined that the issue was ripe, § 555 is
constitutional, and Balboni’s Motion should be denied.7
On March 1, 2017, in accordance with Rule 5.1(c) of the
Virgin Islands Rules of Civil Procedure, the
Government of the Virgin Islands filed a Response to
Plaintiff’s Constitutional Challenge to Title 20 of the
Virgin Islands Code Section 555; it asserts that a
rational basis exists for § 555 and that the Seventh
Amendment does not limit the actions of the
Legislature.8 Lastly, Balboni filed a Reply Brief in
Support of Plaintiff’s Motion to Determine 20 V.I.C. §
555 Unconstitutional where he argues that his Motion
is ripe for adjudication because he is making a facial
constitutional challenge to § 555 and reasserts his
constitutional arguments.9

6

Pl.’s Mot. to Determine 20 V.I.C. § 555 Unconstitutional, 2.

7

Defs’ Opp’n to Pl.’s Mot. to Determine 20 V.I.C. § 555
Unconstitutional 1–3.
8

Gov’t of the Virgin Islands Resp. to Pl.’s Constitutional
Challenge to Title 20 of the Virgin Islands Code Section 555 2–7.
9

Pl.’s Reply Br. in Support of Pl.’s Mot to Determine 20 V.I.C.
§ 555 Unconstitutional 2–4, 5–9.

145a
II. DISCUSSION
Balboni’s Motion presents multiple issues: (1)
whether Balboni’s Motion is ripe for review at this
time; and (2) if ripe, whether § 555 violates the right to
a jury trial under the Seventh Amendment, the Equal
Protection Clause of the Fourteenth Amendment, and
the Due Process Clause of the Fifth and Fourteenth
Amendments.
A. Balboni’s Claim is Ripe for Adjudication
Defendants argue that Balboni’s Motion is not ripe
because a jury has yet to “render a verdict in Plaintiff’s
favor” and “include an award of noneconomic damages
in excess of the statutory cap.”10 They argue that, by
asking this Court to rule on the constitutionality of §
555 prior to a jury verdict, Balboni essentially seeks an
improper advisory opinion.11 Conversely, Balboni
asserts that he is making a facial constitutional
challenge and that fact-finding is unnecessary.12 He
also complains that waiting to rule on his Motion
would impose an undue hardship on him because
“[t]he amount of potential recovery of noneconomic
damages impacts crucial decisions by Plaintiffs ...
regarding case strategy, case valuation, settlement
decisions, insurance coverage issues, and how much
money to expend on experts and other litigation
10

Defs’ Opp’n to Pl.’s Mot, to Determine 20 V.I.C. § 555
Unconstitutional 2.
11

12

Id.

Pl.’s Reply Br. in Support of Pl.’s Mot. to Determine 20
V.I.C. § 555 Unconstitutional 3.

146a
costs.”13
The ripeness doctrine “ensure[s] that only concrete
cases and controversies present themselves for
adjudication.”14 Ripeness essentially allows courts to
exercise judicial restraint so as to avoid ruling on
issues that are merely abstract or hypothetical.15
Though ripeness does not involve a specific legal test,
other courts have looked to a variety of factors as
guidance in assessing whether an issue is ripe: (1)
whether the parties would suffer hardship from the
postponement of any judicial action; and (2) whether
the issue presented needs more factual development
before resolution is proper.16

13

Id.

14

People of the Virgin Islands ex rel. K.J.F., 59 V.I. 333, 340
n.6 (2013).
15

See General Offshore Carp. v. Forrelly, 743 F. Supp. 1177,
1187 (D.V.I. 1990) (“[R]ipeness law [allows courts] to conserve
judicial machinery for problems which are real and present or
imminent, not to squander it on abstract or hypothetical or
remote problems.”) (quoting 4 K. Davis. Administrative Law
Treatise § 25:1 (1982) ).
16

See Triple G Landfills, Inc. v. Board of Comm’rs, 977 F.2d
287, 289 (7th Cir. 1992); Farrelly, 743 F. Supp. at 1187. See also
Perry v. Del Rio, 66 S.W.3d 239, 250 (Tex. 2001) (“[Courts should]
evaluate both the fitness of the issues for judicial decision and the
hardship to the parties of withholding court consideration,”); Iowa
Coal Mining Co. v. Monroe County, 555 N.W.2d 418, 432
(regarding ripeness, asking whether more fact-finding was
needed and whether parties would suffer hardship from
refraining from a judicial decision).

147a
This Court concludes that Balboni’s Motion is ripe
for adjudication. First, in his Reply Brief, Balboni
affirmatively states that he is making a facial
constitutional challenge.17 Facial constitutional
challenges are by nature “decided in a factual vacuum”
due to the statute in question being challenged as
unconstitutional under all applications.18 In other
words, an extensive factual record is unnecessary to
determine whether or not a statute is unconstitutional
as written. Second, refraining from ruling on Balboni’s
Motion would potentially cause hardship on the
parties. Knowing that one possibly cannot collect more
than $100,000 in non-economic damages changes a
party’s trial approach.19 For instance, as Balboni
pointed out in his Reply,20 settlement discussions and
decisions on trial expenses are necessarily affected by
the cap.21 This is not a trivial concern. Though a
17

Pl.’s Reply Br. in Support of Pl.’s Mot. to Determine 20
V.I.C. § 555 Unconstitutional 3.
18

See Farrelly, 743 F. Supp. at 1187 (“[T]he issues presented
in a facial challenge are purely legal, making whatever factual
determinations ... irrelevant.”).
19

Cf. Evans v. State, 56 P.3d 1046, 1049 (Alaska 2002) (noting
that constitutional challenges at hand were facial challenges due
to plaintiffs seeking a declaratory judgment so that they could
“better determine how to proceed with their contemplated tort
actions.”).
20

Pl.’s Reply Br. in Support of Pl.’s Mot. to Determine 20
V.I.C. § 555 Unconstitutional 3.
21

See Gummo v. Ward, 2013 U.S. Dist. LEXIS 140798, at *5,
2013 WL 5446074 (M.D. Term. Sept. 30, 2013) (recognizing that

148a
plaintiff could successfully plead gross negligence and
avoid the cap altogether, all of the decisions that are
unavoidably altered or affected by § 555 occur prior to
a plaintiff knowing whether or not a jury would indeed
find gross negligence. Based on these concerns and the
lack of need for a hefty factual record, this Court finds
that a judicial decision on Balboni’s Motion is
appropriate at this time.
This Defendants argue that a jury might not
actually find in favor of Balboni or, if it does, might
find him to be barred from recovery due to a finding of
contributory negligence.22 Consequently, from
Defendants’ viewpoint, a ruling on Balboni’s Motion
prior to a jury verdict would amount to “an improper
advisory opinion based upon a hypothetical scenario.”23
This Court is well aware of the disallowance of
advisory opinions by the courts of the Virgin Islands.24
failing to decide the constitutional challenges to Tennessee’s
non-economic damages cap “could conceivably present a hardship
to the parties to the extent it impacts upon settlement
discussions.”).
22

Defs’ Opp’n to Pl.’s Mot. to Determine 20 V.I.C. § 555
Unconstitutional 2.
23

24

Id.

See Beachside Assocs., LLC v. Bayside Resort, Inc., 2013
V.I. LEXIS 26, at *2, 2013 WL 2279444 (Super. Ct. May 15, 2013)
(“[T]he Court may not issue an advisory opinion based on a
hypothetical set of facts.”); People of the Virgin Islands v. Powell,
2013 V.I. LEXIS 7, *1, 2013 WL 424768 (Super, Ct. Jan. 8, 2013)
(“[T]his Court may not render advisory opinions.”); Chiang v.
Turnbull, 2000 V.I. LEXIS 11, at *35, 2000 WL 1141067 (Terr. Ct.
June 20, 2000) (“This Court will not render an advisory opinion

149a
However, deciding Balboni’s facial challenge would not
amount to such. Courts give advisory opinions by
weighing in on constitutional matters absent an actual
controversy between parties.25 On occasion, a potential
judicial decision might “feel” like an advisory opinion
or “in effect” be an advisory opinion where the
controversy between the parties is questionably
concrete.26 Neither of those situations reflects the
matter currently before this Court. The fact that a jury
has not rendered a verdict does not transform the
constitutional question before this Court into an
uncertain, abstract issue in the sense that this Court
would be merely conducting an “academic exercise.”27
on proposed legislation.”).
25

See In re Opinion of the Justices of the Supreme Judicial
Court given under the Provisions of Article VI. Section 3 of the
Me. Constitution, 162 S.3d 188, 197 (ME 2017) (“The Senate seeks
our opinions regarding the constitutionality of a statute recently
enacted through citizen initiative ....”); In re Request for Advisory
Opinion Regarding Constitutionality of 2005 PA 71, 479 Mich. 1,
7 (2007) (accepting state House of Representatives’ request to
determine the constitutionality of 2005 PA 71, M.C.L. 168.523);
Opinion of the Justices to the Senate, 423 Mass, 1201 (1996)
(answering four questions posed by the state Senate as to the
constitutionality of Senate Bill No, 2276).
26

See FEC v. Akins, 524 U.S. 11, 24 (1998) (noting that,
within the context of standing, a judicial decision would “in effect,
amount to an advisory opinion” where an abstract harm
essentially rids a controversy of the requisite concreteness).
27

Cf. Duke Power Co. v. Carolina Envtl. Study Group, 438
U.S. 59, 81–82 (1978) (“Although it is true that no nuclear
accident has yet occurred and that such an occurrence would
eliminate much of the existing scientific uncertainty surrounding

150a
Rather, a judicial decision on the Motion would affect
the parties’ interactions in the future, and, because
Balboni is asserting a facial challenge, the parties
would not benefit from prolonging a decision on the
question presented.28 Therefore, this Court finds that
Balboni’s Motion is ripe for adjudication.29
B. Constitutionality of 20 V.I.C. § 555
Balboni asserts that § 555 is unconstitutional
“under all circumstances.”30 Specifically, Balboni
this subject, it would not, in our view, significantly advance our
ability to deal with the legal issues presented nor aid us in their
resolution.”).
28

See McInnis–Misenor v. Me. Med. Ctr., 319 F.3d 63, 71 (1st
Cir. 2003) (“The fact that an event has not occurred can be
counterbalanced in [the ripeness] analysis by the fact that a case
turns on legal issues “not likely to be significantly affected by
further factual development.”); Artway v. Attorney Gen., 81 F.3d
1235, 1249 (3d Cir. 1996) (“The more that the question presented
is purely one of law, and the less that additional facts will aid the
court in its inquiry, the more likely the issue is to be ripe, and
vice-versa.”).
29

The language in both Balboni’s Motion and in his Reply
Brief make it unclear whether Balboni is asserting a facial
challenge as well as an as-applied challenge. If that is the case,
in accordance with the doctrine of ripeness, Balboni’s as-applied
challenge would not be ripe for adjudication at this time since an
as-applied challenge would actually require the factual
determination of whether Balboni is awarded non-economic
damages and, if so, how much damages he is awarded. This
Memorandum Opinion only addresses the facial challenges made
by Balboni.
30

Pl.’s Reply Br. in Support of Pl.’s Mot. to Determine 20
V.I.C. § 555 Unconstitutional 3.

151a
challenges § 555 as (1) impermissibly intruding into
the jury’s duty of fact-finding in violation of the
Seventh Amendment; (2) treating automobile accident
victims differently based on the severity of their
non-economic injuries in violation of the Equal
Protection Clause of the Fourteenth Amendment; and
(3) arbitrarily and unreasonably depriving victims of
their fundamental right to a jury trial in violation of
the Due Process Clause of the Fifth and Fourteenth
Amendments.31 Defendants conversely argue that (1)
Davis v. Omitowoju, 883 F.2d 1155 (3d Cir. 1989)
controls the constitutional analysis here; (2) that the
legislative history provides a rational basis for § 555,
thereby satisfying Equal Protection and Due Process
concerns; and (3) Davis’s in depth analysis of the
Seventh Amendment essentially answered the Seventh
Amendment question here regarding § 555.32
To succeed on a facial challenge, the party asserting
the challenge bears the burden of proving that the
questioned statute is unconstitutional under every set
of circumstances.33 Although the Supreme Court of the
United States has historically disfavored facial
challenges, it has allowed them in several different

31

Pl.’s Mot. to Determine 20 V.I.C. § 555 Unconstitutional
5–7, 10–15, 15–17.
32

Defs’ Opp’n to Pl.’s Mot. to Determine 20 V.I.C. § 555
Unconstitutional 7. 10–12, 12–16, 16–18.
33

United States v. Salerno, 481 U.S. 739, 745 (1987).

152a
scenarios.34 Here, Balboni must show that § 555 is
unconstitutional under the Fifth, Seventh, and
Fourteenth Amendments in all respects.
1. Seventh Amendment
The Seventh Amendment, made applicable to the
Virgin Islands via § 3 of the Revised Organic Act, 48
U.S.C. § 1561, guarantees a right to a jury trial:
“In Suits at common law, where the value in
controversy shall exceed twenty dollars, the right of
trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise re-examined in any Court of
the United States, than according to the rules of the
common law.”35
Read literally, at a minimum, the jury has the
responsibility of making fact determinations that are
free from later alteration by a United States judge.36
The issue then becomes whether a legislative cap on
damages, which a judge must enforce where a jury
award exceeds this cap, infringes on the jury’s
fact-finding responsibility.

34

See City of Los Angeles v. Patel, 135 S. Ct. 2443, 2449 (2015)
(listing cases).
35

36

U.S. Const. amend. VII.

See Chicago, B. & Q.R. Co. v. Chicago, 166 U.S. 226,
242–43 (1897) (“The Seventh Amendment was intended to ...
deprive the courts of the United States of any such authority [to
reexamine facts tried by a jury].”); Davis v. Omitowoju, 883 F.2d
1155, 1162 (3d Cir. 1989) (“[T]he second clause [of the Seventh
Amendment] speaks exclusively of the role of the court.”).

153a
Several federal courts have concluded that
legislative caps do not violate the Seventh
Amendment.37 For instance, the Fourth Circuit in Boyd
v. Bulala determined that Virginia’s damages cap in
medical malpractice actions did not violate the Seventh
Amendment’s right to a jury trial.38 Relying on the
reasoning taken by the Virginia Supreme Court, the
Fourth Circuit distinguished between the jury’s role as
a fact-finder and the act of determining the legal
consequences of those factual findings, and it
ultimately concluded that the Seventh Amendment did
not guarantee a right to have the jury perform the
latter function.39 The Third Circuit, in dealing with the
Virgin Islands’ damages cap in medical malpractice
actions, arrived at a similar conclusion in Davis v.

37

Though this Court recognizes that several state courts have
considered the constitutionality of legislative caps on
non-economic damages, a substantial number of those courts did
so on the basis of their respective state constitutions, which
warrants caution if the wording in those constitutions differ from
that of the Seventh Amendment. See Watts ex. Rel.Watts v. Lester
E. Cox Med. Ctrs., 376 S.W.3d 633, 640–41 (Mo 2012) (holding
that Missouri’s non-economic damages cap violated the right to
a trial by jury guaranteed under article 1, section 22(a) of
Missouri’s constitution); Judd ex rel. Montgomery v. Drezga, 103
P.3d 135, 144–45(Utah 2004) (holding that Utah’s non-economic
damages cap did not violate the right to a jury trial under Utah’s
constitution); Moor v. Mobile Infirmary Ass’n, 592 So.2d 156,
160–63 (Ala. 1991) (concluding that Alabama’s non-economic
damages cap violated the right to a jury trial under Alabama’s
constitution). This list is by no means exhaustive.
38

877 F.2d 1191, 1196 (4th Cir. 1989).

39

Id.

154a
Omitowoju.40 The Third Circuit concluded that 27
V.I.C. § 166b did not intrude upon the jury’s
fact-finding responsibilities because the Seventh
Amendment prevents courts from arbitrarily altering
jury findings but does not prevent the Legislature from
placing statutory restrictions on recovery in medical
malpractice suits, which judges are bound to enforce.41
Lastly, in Smith v. Botsford Gen. Hosp., the Sixth
Circuit, adopting the reasoning of the Boyd court,
upheld Michigan’s damages cap in medical malpractice
actions and determined that the role of the jury did not
involve “determin[ing] the legal consequences of its
factual findings.42

40

883 F.2d 1155 (3d Cir. 1989).

41

Id. at 1162.

42

419 F.3d 513, 519 (6th Cir. 2005). See also Madison v. IBP,
Inc., 257b F.3d 780, 804 (8th Cir. 2001) (“In applying the
[damages cap] provision, a court does not ‘reexamine’ the jury’s
verdict or impose its own factual determination as to what a
proper award might be ... Rather, it implements the legislative
policy decision by reducing the amount recoverable to that
deemed to be a reasonable maximum by Congress.”), vacated, 536
U.S. 919 (2002); Hemmings v. Tidyman’s Inc., 285 F.3d 1174,
1202 (9th Cir. 2002) (concluding that Title VII’s damages cap did
not run afoul of the Seventh Amendment). Even the Supreme
Court of the United States alluded to the idea that a jury’s role as
a fact-finder might not encompass a guarantee that the jury also
have the final determination of damages. See Tull v. United
States, 481 U.S. 412, 427 (1987) (“Congress’ assignment of the
determination of the amount of civil penalties to trial judges
therefore does not infringe on the constitutional right to a jury
trial.”).

155a
This Court finds the reasoning utilized in Boyd,
Davis, and Smith persuasive; consequently, § 555 does
not infringe on an individual’s right to a jury trial
under the Seventh Amendment.43 An empaneled jury
retains the responsibility of making reasonable fact
determinations throughout a trial. The language of the
Seventh Amendment makes this clear. Further, any
factual determinations made by a jury are unalterable
by judges. However, factual determinations made by a
jury do, in fact, have legal consequences. For example,
if a statute required elements X and Y for a person to
be in violation, and a jury found, based on the evidence
presented, that X and Y existed, then the legal
consequences of those factual determinations would be
that the said person violated the statute. Conversely,
if the said jury determined that X did not exist but that
Y existed, the legal consequences of that determination
would be that the said person did not violate the
statute. Here, if a jury were to conclude that Balboni
suffered $250,000 in non-economic damages, then the
legal consequences of that determination would be that
the award would violate § 555 and would require a
reduction to be in accordance with the law. If a jury
were to find gross negligence on behalf of the
Defendants, then the legal consequences of that
determination would be that the § 555 cap would not
43

This Court recognizes Balboni’s contention that Davis
unpersuasive because the Third Circuit dealt with a noneconomic
damages cap in medical malpractice actions rather than a cap in
automobile injury actions. See Pl’s Reply Br. in Support of Pl.’s
Mot. to Determine 20 V.I.C. § 555 Unconstitutional 4–5. However,
even assuming, arguendo, that Davis was not binding on this
Court, the Plaintiff’s asserted distinctions do not make the Davis
court’s Seventh Amendment analysis unpersuasive.

156a
apply. In sum, once the jury makes its factual
determinations, including the amount of damages, its
responsibility is satisfied, and, so long as those
determinations are not arbitrarily altered by a judge,
the Seventh Amendment is not offended.
Balboni’s characterization of a judge reducing a
jury award pursuant to § 555 as a “legislative
remittitur,” while creative, is not persuasive.44
“Remittitur is a common-law doctrine in which a court
will reduce the damages award indicated in a jury
verdict after concluding that ‘no rational jury, acting
on the basis of the full evidentiary record, and without
being inflamed by passion or prejudice or other
improper consideration, could have awarded such a
large sum as damages’ ” which is no longer recognized
in the Virgin Islands.45 As the Supreme Court of the
Virgin Islands stated, remittitur essentially allows a
trial judge to adjust a jury award based on her view
that a different amount of damages would be more
appropriate.46 In other words, “remittitur removes
power from a jury and vests it with a judge.”47 Section
555 does not have an equivalent effect. When enforcing
§ 555's cap, a judge is not reexamining the facts;
rather, she is merely applying the facts before her to
44

Pl.’s Mot. to Determine 20 V.I.C. § 555 Unconstitutional

6–7.
45

See Antilles School, Inc. v. Lembach, 64 V.I. 400, 427 (2016)
(citations omitted).
46

Id. at 437.

47

Id.

157a
the applicable law. In essence, a judge is “merely
implementing a policy decision of the legislature” by
implementing § 555. 48 The Seventh Amendment
protects against judges arbitrarily altering factual
determinations made by juries; it does not prevent the
Legislature from passing a statute that involves a
predetermined non-economic damages limitation based
on what it believes to be sound policy for the Virgin
Islands.
Therefore, because § 555 in no way offends Seventh
Amendment guarantees, Balboni’s facial challenge
must fail.
2.
Fourteenth
Protection Clause

Amendment—Equal

The Equal Protection Clause of the Fourteenth
Amendment states that “[n]o State shall ... deny to any
person within its jurisdiction the equal protection of
the laws.”49 Though a seemingly strict proscription
against unequal treatment, the Supreme Court of the
United States has granted legislatures much discretion
in enacting laws that may have an uneven effect on
certain groups of people.50 Indeed, such statutes are

48

Davis, 883 F.2d at 1162.

49

Section one of the Fourteenth Amendment is made
applicable to the Virgin Islands via § 3 of the Revised Organic
Act. See Gerace v. Bentley, 65 V.I. 289, 307 n.3 (2016).
50

See McGowan v. Maryland, 366 U.S. 420, 425 (1961).

158a
presumed valid.51 However, where the statutory
classification has no bearing on the stated legislative
objective, the Court has delineated different levels of
scrutiny based on the class of persons discriminated
against or the rights being infringed upon. Where a
statute discriminates against a group of persons within
a suspect class, courts employ the strict scrutiny
standard.52 Strict scrutiny also applies where the
statute infringes on a group’s fundamental right.53 If a
statute discriminates against a group of persons based
on sex or illegitimacy, courts use an intermediate
scrutiny standard.54 Finally, where a statute affects a
group of persons not within a suspect, quasi-suspect
class, or affects a fundamental right, a rational basis
standard is used.55
The first question to answer is whether or not § 555
treats people of a suspect class differently or implicates
a fundamental right. Balboni argues that the
fundamental right to a jury is adversely affected by§

51

See City of Cleburne v. Cleburne Living Ctr., 473 U.S. 432,
440 (1985).
52

See Gerace, 65 V.I. at 308.

53

See City of Cleburne, 473 U.S. at 440.

54

See United States v. Virginia, 518 U.S. 515, 532–33 (1996)
(recognizing heightened scrutiny for discrimination based on sex);
City of Cleburne, 473 U.S. at 441 (noting that discrimination
based on illegitimacy is subject to intermediate scrutiny).
55

See Abdul–Akbar v. McKelvie, 239 F.3d 307, 317 (3d Cir.
2001).

159a
555.56 This Court disagrees. When discussing
fundamental rights within the context of equal
protection analysis, the Supreme Court of the United
States has been precise and particular about what
constitutes a “fundamental right.” For example, the
Supreme Court has held that the right to vote, the
right to one’s privacy, the right to procreate and make
family decisions, and the right to travel are
fundamental rights that would require a strict scrutiny
analysis.57 However, even assuming, arguendo, that
the right to a jury trial in civil matters in the Virgin
Islands is a fundamental right deserving of strict
scrutiny, this Court has already concluded that § 555
does not infringe on one’s Seventh Amendment rights.
Therefore, because no fundamental right is infringed
upon and no suspect class is discriminated against, the
rational basis review is the appropriate standard to
under which to analyze § 555.
Rational basis merely requires that the statutory
classification in question rationally furthers a
legitimate state interest.58 The purported legislative
objectives do not have to be proven correct. “Rather,
‘those challenging the legislative judgment must
convince the court that the legislative facts on which
the classification is apparently based could not
reasonably be conceived to be true by the governmental
56

Pl.’s Mot. to Determine 20 V.I.C. § 555 Unconstitutional 11.

57

See Massachusetts Bd. of Retirement v. Murgia, 427 U.S.
307, 312 n.3 (1976) (listing cases).
58

See Minn. v.Clover Leaf Creamery Co., 449 U.S. 456, 461
(1981).

160a
decisionmaker.’ ”59 Rational basis is a deferential
standard, and a statute must survive if the court finds
“any reasonably conceivable state of facts that could
provide a rational basis for the classification.”60
Balboni argues that treating seriously-injured
victims of automobile accidents from those that are not
as seriously injured, as well as differentiating between
automobile accident victims and victims of other
personal injury torts, is not rationally related to the
purported policy underlying § 555, i.e., to reduce
insurance premiums.61 Defendants conversely assert
that § 555 is rationally related to the goal of keeping
insurance premiums low and keeping insurance
carriers in the territory.62 This Court agrees with the
Defendants.
Maintaining reasonable insurance premiums, as
well as ensuring that insurance providers remain in
the territory, is a legitimate interest of the Virgin
Islands. The fear of insurance companies potentially
being liable for large amounts in non-economic
damages coupled with the mandatory requirement that
private citizens have automobile insurance coverage
could impact insurance premiums and coverage

59

Id. at 464.

60

See Weinstein v. Albright, 261 F.3d 127, 140 (2d Cir. 2001).

61

Pl.’s Mot. to Determine 20 V.I.C. § 555 Unconstitutional
13–15.
62

Defs’ Opp’n to Pl.’s Mot. to Determine 20 V.I.C. § 555
Unconstitutional at 10–11.

161a
availability in general.63 Therefore, it is rational for the
Legislature to attempt to keep coverage plentiful and
affordable by capping the amount of noneconomic
damages recoverable in personal injury actions.64 It is
not for this Court to determine whether the legislative
limitation is a good or bad solution; rather, it is this
Court’s responsibility to determine whether a rational
connection exists between the statute in question and
the Legislature’s purpose in passing that statute.65 A
rational connection exists here.
Section 555, albeit facially neutral, does
inadvertently affect certain classes of automobile
accident victims different from both other automobile
accident victims and other personal injury tort victims.
However, because the legislative purpose behind § 555
63

Defs’ Opp’n to Pl.’s Mot. to Determine 20 V.I.C. § 555
Unconstitutional Ex. 1, 9–10 (providing the Declarations of Aston
Harty, President of Inter–Ocean Insurance Agency, Karen John,
Vice President of Guardian Insurance Company, and Joseph
Gunset, General Counsel to Lloyd’s American, Inc.).
64

Cf.Davis, 883 F.2d at 1158 (“Clearly the Virgin Islands’
decision to curb, through legislation, the high costs of malpractice
insurance and thereby promote quality medical care to the
residents of the islands, provides a rational basis for capping the
amount of damages that can be awarded a plaintiff.”). Though
Balboni adamantly argues that cases dealing with medical
malpractice actions are quite distinguishable from the current
case dealing with an automobile incident, the underlying purpose
of both are, in part, the same, i.e., to keep insurance premiums
down.
65

See Weinstein, 261 F.3d at 140 (“Rational basis review does
not pass judgment upon the wisdom, fairness, or logic of
legislative decisions....”).

162a
rationally relates to the reach and effect of § 555, no
equal protection violation exists. On this claim,
Balboni’s challenge must fail.
3. Fifth and Fourteenth
Amendment—Due Process Clause
Balboni’s final argument is that § 555 violates
“substantive” Due Process by infringing on the
fundamental right to a jury trial.66 This Court
disagrees.
The Due Process Clause of the Fifth and Fourteenth
Amendments protects against the state and federal
government from “depriv[ing] an individual of [life,]
property or liberty without due process.”67 Simply
stated, the “substantive” aspect protects against
government infringement upon certain fundamental
rights.68 Where no fundamental right is implicated, the
statute must not be arbitrary and must be rationally
related to some legitimate government interest; in this
respect, the analysis for Due Process is similar to that
of Equal Protection.69
As stated above, regardless of whether the right to
a jury trial is a fundamental right, § 555 does not
66

Pl.’s Mot. to Determine 20 V.I.C. § 555 Unconstitutional 15.

67

Weinstein, 261 F.3d at 134. The Due Process Clause applies
to the Virgin Islands via § 3 of the Revised Organic Act, 48 U.S.C.
§ 1561.
68

69

See Wash. v.Glucksbeg, 521 U.S. 702, 719–20 (1997).

People of the Virgin Islands v. Phillips, 2009 V.I. LEXIS 18,
at *5–6, 2009 WL 3535413 (Super. Ct. Sept. 22, 2009).

163a
inhibit an individual’s right to a jury. Since no
fundamental right is infringed upon, for Due Process
purposes, § 555 need only be rationally related to a
legitimate government interest. This Court has already
concluded that such an interest exists and that § 555
has a rational connection to that interest.
Therefore, Balboni’s challenge on Due Process
grounds must fail.
III. CONCLUSION
Balboni asserted a facial challenge to § 555, which
comes with the burden of showing that the statute is
unconstitutional under all circumstances. Balboni
failed to meet that burden here. Therefore, this Court
will deny Balboni’s Motion to Determine 20 V.I.C. §
555 Unconstitutional.
Accordingly, it is hereby:
ORDERED that Plaintiff’s Motion to Determine 20
V.I.C. § 555 Unconstitutional is DENIED; and it is
further
ORDERED that a copy of this Memorandum
Opinion and Order shall be directed to Attorney
General Claude E. Walker, Robert L. King (King Law
Firm, P.C.), and Attorney Daryl C. Barnes (Barnes &
Benoit, LLP).
Dated: January 24, 2018
[signed]
DENISE M. FRANCOIS
Judge of the Superior Court of the Virgin
Islands

164a
STATUTORY PROVISIONS AT ISSUE
Section 3 of the Revised Organic Act of the Virgin
Islands, 48 U.S.C. § 1561, provides, in pertinent part:
“No law shall be enacted in the Virgin
Islands which shall deprive any person of
life, liberty, or property without due
process of law or deny to any person
therein equal protection of the laws.
***
The following provisions of and
amendments to the Constitution of the
United States are hereby extended to the
Virgin Islands to the extent that they
have not been previously extended to that
territory and shall have the same force
and effect there as in the United States or
in any State of the United States: . . . the
second sentence of section 1 of the
fourteenth amendment;70 and . . . .”
48 U.S.C. § 1613 provides:
“The relations between the courts
established by the Constitution or laws of
the United States and the courts
established by local law with respect to
70

The second sentence of the section 1 of the fourteenth
amendment provides: No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.”

165a
appeals, certiorari, removal of causes, the
issuance of writs of habeas corpus, and
other matters or proceedings shall be
governed by the laws of the United States
pertaining to the relations between the
courts of the United States, including the
Supreme Court of the United States, and
the courts of the several States in such
matters and proceedings.”

